This opinion will be unpublished and
may not be cited except as provided by
Minn. Stat. § 480A.08, subd. 3 (2018).
STATE OF MINNESOTA
IN COURT OF APPEALS
A19-1235
In re the Marriage of:
James Edward Cook, II, petitioner,
Respondent,
vs.
Hitomi Arimitsu,
Appellant.
Filed April 27, 2020
Affirmed in part, reversed in part, and remanded
Cochran, Judge
Hennepin County District Court
File No. 27-FA-15-499
Victoria M. B. Taylor, Shawn C. Reinke, Crossroads Legal Services, St. Paul, Minnesota
(for respondent)
Valerie Arnold, Micaela Wattenbarger, Arnold, Rodman & Kretchmer, P.A., Bloomington,
Minnesota (for appellant)
Considered and decided by Cochran, Presiding Judge; Ross, Judge; and
Segal, Judge.
UNPUBLISHED OPINION
COCHRAN, Judge
In this international child-custody and divorce dispute, appellant-mother argues that
the district court erred by (1) failing to recognize and enforce certain Japanese court orders,

1a.

(2) exercising jurisdiction over child custody, (3) making findings not supported by the
record, (4) awarding conduct-based attorney fees, and (5) holding mother in contempt of
court. We affirm on the first four issues, but we reverse and remand on the issue of
contempt.
FACTS
This is the third appeal by appellant Hitomi Arimitsu (mother) in this child custody
and divorce dispute. In the first appeal, we affirmed the district court’s determination that
it had subject-matter jurisdiction to address child custody.

See Cook v. Arimitsu,

907 N.W.2d 233 (Minn. App. 2018), review denied (Minn. Apr. 17, 2018) (Cook I). We
dismissed the second appeal by order because mother again challenged the district court’s
subject-matter jurisdiction and no relevant change in circumstances affected our de novo
jurisdiction analysis. We briefly summarize the complicated history of this case and the
relevant facts.
Respondent James Edward Cook, II (father) and mother were married in 1998. They
have two sets of twin children. In July 2014, mother took all four children to Japan.
Though father agreed to mother taking the children to Japan for a period of time, mother
and the children never returned to Minnesota and the children remain in Japan.
Father petitioned to dissolve the marriage in 2015 in Hennepin County District
Court. Early in the case, the district court determined that it did not have subject-matter
jurisdiction under the Uniform Child Custody Jurisdiction and Enforcement Act
(UCCJEA) to address child custody because, among other reasons, Minnesota was not the

2

2a.

children’s home state. The district court judge that made this determination retired, and a
successor judge was assigned.
Meanwhile, in Japan, father petitioned the Japanese courts to order the return of the
children under the Hague Convention on the Civil Aspects of International Child
Abduction, opened for signature Oct. 25, 1980, T.I.A.S. No. 11670 (the Hague
Convention). Initially, a Japanese court issued an order (1) determining that the United
States was the children’s habitual residence,1 (2) requiring mother to return the younger set
of twins to the United States, and (3) concluding that the older set of twins could remain in
Japan based on their preferences.

Both father and mother appealed the order.

In

January 2016, a Japanese appellate court issued a new order that required mother to return
all four children to the United States based on the interest in keeping the children together
(hereinafter “2016 Hague Order”). Mother appealed the 2016 Hague Order to the Japanese
supreme court, but the Japanese supreme court denied review in February 2016. Japan
then issued indirect enforcement orders that required mother to pay certain fines and costs
and also issued direct enforcement orders.
In September 2016, back in Minnesota, father moved the district court to reconsider
its subject-matter jurisdiction determination. In December 2016, the district court did
reconsider and determined that it had jurisdiction under the UCCJEA because, among other
reasons, Minnesota was the children’s home state under the UCCJEA. The district court

1

The Hague Convention does not define “habitual residence,” but the federal appellate
courts of the United States have adopted a common understanding that a child’s “habitual
residence” is “[t]he place where a child is at home, at the time of removal or retention.”
Monasky v. Taglieri, 140 S. Ct. 719, 726 (2020).
3

3a.

ordered mother to return the children to Minnesota. But mother never returned the
children, and the district court found mother in constructive civil contempt in June 2017.
Mother, however, brought a petition in Japan to modify the 2016 Hague Order,
which required mother to return all of the children to the United States. In February 2017,
a Japanese court ruled that, based primarily on a deterioration in father’s financial
circumstances, mother was no longer required to return the children to the United States
(hereinafter “2017 Japanese Modification Order”). The 2017 Japanese Modification Order
did not amend the previous finding that Minnesota was the children’s habitual residence.
Relying on the 2017 Japanese Modification Order, mother moved the district court
to reconsider its order reestablishing subject-matter jurisdiction. The district court denied
mother’s motion in an April 2017 order. Mother appealed both the December 2016 order
reestablishing subject-matter jurisdiction and the April 2017 order denying mother’s
motion to reconsider. This court affirmed the district court, concluding, among other
things, that subject-matter jurisdiction existed under the UCCJEA because Minnesota was
the children’s home state. Cook I, 907 N.W.2d at 238-40.
Father appealed the 2017 Japanese Modification Order in Japan. In December 2017,
the Japanese supreme court affirmed the order and, in January 2018, a certificate of final
decision was issued by the Japanese courts. In March 2018, a Japanese court issued a
subsequent order (herein after “March 2018 Japanese Order”) that revoked the previous
Japanese enforcement orders issued against mother. The March 2018 Japanese Order, in
effect, provided that mother was no longer required to pay a financial sanction for her

4

4a.

failure to return the children. In April 2018, a certificate of service was filed in the Japanese
courts stating that the March 2018 Japanese Order was served on father and mother.
In September 2018, mother filed a new motion in Hennepin County District Court
requesting the district court to register and enforce the 2017 Japanese Modification Order
and subsequent Japanese orders. Mother also asked the district court to decline to exercise
jurisdiction, characterizing Minnesota as an inconvenient forum under Minn.
Stat. § 518D.207 (2018) in light of the more recent Japanese orders. Father opposed
mother’s motions.
By an order dated December 10, 2018, the district court largely denied mother’s
motions, concluding that the 2017 Japanese Modification Order misinterpreted the Hague
Convention, was inconsistent with the Hague Convention’s premises and objectives, and
was not supported by sufficient evidence. But the district court reserved consideration of
whether to register the March 2018 Japanese Order that reversed the prior direct and
indirect enforcement orders—despite concluding that it had the discretion to decline to
register the order. Mother again appealed to this court, asserting that the district court
lacked subject-matter jurisdiction based on the Japanese orders that determined that mother
was not required to return the children. Mother argued that the Japanese supreme court
decision, which rendered the 2017 Japanese Modification Order final, was a new fact that
materially impacted the jurisdiction issue.

This court dismissed the appeal, citing

Minn. R. Civ. P. 140.01 (“No petition for rehearing shall be allowed in the Court of
Appeals.”).

5

5a.

After we dismissed mother’s second appeal, the parties proceeded to trial in district
court in May 2019. Mother did not appear for trial. The district court held trial in mother’s
absence. The district court later issued findings of fact, conclusions of law, and judgment
based on evidence introduced by father. The district court awarded permanent sole legal
and physical custody of the children to father. The district court also awarded attorney fees
to father. And, without notice that contempt would be addressed at trial, the district court
again found mother in contempt and issued a bench warrant for mother’s arrest, among
other sanctions.
Mother appeals.
DECISION
Mother appeals the district court’s judgment, arguing that (1) the district court erred
by failing to recognize and enforce the Japanese orders she sought to register, (2) the district
court erred by exercising jurisdiction over child custody, (3) the district court’s posttrial
findings of fact, conclusions of law, and order for judgment rested on clearly erroneous
findings of fact, (4) the district court’s award of attorney fees was based on clearly
erroneous findings, and (5) the district court erred in holding mother in constructive civil
contempt. We first address mother’s argument that the district court erred by failing to
recognize and enforce the later Japanese orders because that issue is at the heart of this
case.
I.

Registration and Enforcement of the Japanese Orders
The Japanese orders at issue are based on the Hague Convention, an international

agreement to which the United States and Japan are signatories. The objects of the Hague
6

6a.

Convention are “to secure the prompt return of children wrongfully removed to or retained
in any Contracting State” and “to ensure that rights of custody and of access under the law
of one Contracting State are effectively respected in the other Contracting States.” Hague
Convention, Art. 1. The Eighth Circuit Court of Appeals has described the purpose of the
Hague Convention:
The Convention’s purpose is to protect children internationally
from the harmful effects of their wrongful removal or retention
and to establish procedures to ensure their prompt return to the
State of their habitual residence. The Convention seeks to
deter abduction by depriving the abductor’s actions of any
practical or juridical consequences. It accomplishes this goal
not by establishing any substantive law of custody, but rather
by acting as a forum selection mechanism, operating on the
principle that the child’s country of habitual residence is best
placed to decide upon questions of custody and access. The
purpose of proceedings under the Hague Convention is thus not
to establish or enforce custody rights, but only to provide for a
reasoned determination of where jurisdiction over a custody
dispute is properly placed.
Barzilay v. Barzilay, 600 F.3d 912, 916-17 (8th Cir. 2010) (quotations and citations
omitted). And the Supreme Court of the United States has indicated that the Hague
Convention “is based on the principle that the best interests of the child are well served
when decisions regarding custody rights are made in the country of habitual residence.”
Abbott v. Abbott, 560 U.S. 1, 20, 130 S. Ct. 1983, 1995 (2010); see also Monasky,
140 S. Ct. at 723 (recognizing that the “core premise” of the Hague Convention is that the
children’s best interests are generally “best served when custody decisions are made in the
child’s country of habitual residence”).

7

7a.

Under the Hague Convention, a person or entity claiming that a child has been
wrongfully removed to, or retained in, another country may apply to a contracting state for
assistance in securing the return of the child. See Hague Convention, Art. 8. The judicial
or administrative authorities of the contracting states “shall act expeditiously in
proceedings for the return of children.” Id., Art. 11. The judicial authority of the requested
state must order the return of a wrongfully removed or retained child unless one of several
exceptions apply. Id., Art. 12-13. The Japanese courts originally ordered the return of the
children, concluding that the United States is the children’s place of habitual residence.
Then, in the 2017 Japanese Modification Order, a Japanese court invoked the following
exceptions under the Hague Convention to conclude that mother was not required to return
the children: (1) that “there is a grave risk that [the child’s] return would expose the child
to physical or psychological harm or otherwise place the child in an intolerable situation,”
and (2) that the child “has attained an age and degree of maturity at which it is appropriate
to take account of [the child’s] views.” Id., Art. 13.
The central focus of mother’s arguments on appeal is that the district court erred by
failing to extend comity to or otherwise recognize the 2017 Japanese Modification Order
that determined that mother was no longer required to return the children to the United
States. She argues that the district court erred by failing to extend judicial comity to that
order and the subsequent Japanese orders, and also that the district court erred by failing to
enforce the orders under Minn. Stat. § 518D.302 (2018) and under the Uniform
Foreign-Country Money Judgments Recognition Act (UFCMJRA), Minn. Stat. §§ 548.54.63 (2018).
8

8a.

A.

Comity

“Judicial comity is the respect a court of one state or jurisdiction shows to another
state or jurisdiction in giving effect to the other’s laws and judicial decisions.” In re
Commitment of Hand, 878 N.W.2d 503, 506 (Minn. App. 2016), review denied (Minn.
June 21, 2016) (quotations omitted). Comity is “at the heart of the Hague Convention.”
Smedley v. Smedley, 772 F.3d 184, 189 (4th Cir. 2014) (quotation omitted);
Asvesta v. Petroutsas, 580 F.3d 1000, 1011 (9th Cir. 2009); Diorinou v. Mezitis,
237 F.3d 133, 142 (2nd Cir. 2001). Consequently, “American courts will normally accord
considerable deference to foreign adjudications as a matter of comity.” Diorinou, 237 F.3d
at 142.
American courts may decline to extend comity to foreign Hague Convention orders,
however, if the foreign court’s determination “clearly misinterprets the Hague Convention,
contravenes the Convention’s fundamental premises or objectives, or fails to meet a
minimum standard of reasonableness.” Smedley, 772 F.3d at 189 (quoting Asvesta,
580 F.3d at 1014); see also Friedrich v. Friedrich, 78 F.3d 1060, 1067 (6th Cir. 1996);
Carrascosa v. McGuire, 520 F.3d 249, 262-63 (3rd Cir. 2008). We review a district court’s
application of the principle of comity for an abuse of discretion. Hand, 878 N.W.2d at 506.
The district court did not afford comity to the 2017 Japanese Modification Order
and the subsequent related orders for three reasons. It determined that the orders (1) lacked
a factual basis, (2) defied the purposes of the Hague Convention, and (3) misinterpreted
the Hague Convention. Mother challenges all three bases for the district court’s decision
to decline comity. We conclude that the district court did not abuse its discretion in
9

9a.

declining to extend comity because the district court correctly concluded that the orders
contravened the Hague Convention’s fundamental premises and objectives. See Smedley,
772 F.3d at 189.
In reaching its decision, the district court found that mother did not comply with the
2016 Hague Order requiring her to return the children to the United States despite attempts
by father and the Japanese government to enforce the order in Japan, and despite monetary
sanctions imposed by the Japanese courts. Then, after more than a year of noncompliance,
mother sought to modify the 2016 Hague Order based on father’s deteriorated financial
circumstances, which resulted in the Japanese courts issuing the 2017 Japanese
Modification Order and subsequent orders.

The district court concluded that the

2017 Japanese Modification Order and subsequent orders that mother sought to recognize
contravened the purpose of the Hague Convention because they did not “ensure that
custody rights will be determined in the country of the children’s habitual residence,” and
instead “legitimize[d] [mother’s] wrongful retention of the children.”
On this record and under these unique facts, we conclude that the district court did
not abuse its discretion by declining to extend comity to the 2017 Japanese Modification
Order and subsequent orders that mother wanted the district court to recognize. The
Japanese orders abandoned a fundamental purpose of the Hague Convention—to ensure
the prompt return of the children—and undermined the Hague Convention’s
forum-selection mechanism by allowing mother to wait for changed circumstances that
were advantageous to her goal of keeping the children in Japan. See Barzilay, 600 F.3d at
916 (“The Convention’s purpose is to protect children internationally from the harmful
10

10a.

effects of their wrongful removal or retention and to establish procedures to ensure their
prompt return to the State of their habitual residence.” (quotation omitted)).
Mother asserted at oral argument that it is the district court’s December 2018 order,
not the 2017 Japanese Modification Order and subsequent Japanese orders, that
contravenes the fundamental premises and objectives of the Hague Convention. Mother
argued that the district court’s December 2018 order is contrary to the Hague Convention
because the order does not “ensure that rights of custody and of access under the law of
one Contracting State are effectively respected in the other Contracting States.” Hague
Convention, Art. 1(b).

We are not persuaded.

The Hague Convention has two

purposes: (1) securing “the prompt return of children wrongfully removed to or retained in
any Contracting State,” and (2) ensuring “that rights of custody and of access under the
law of one Contracting State are effectively respected in the other Contracting States.” Id.,
Art. 1. The 2017 Japanese Modification Order and the subsequent Japanese orders
undermine both purposes. As discussed above, the orders reflect a failure to secure a
prompt return of the children. And they contravene the second objective by allowing
mother to forum-shop a child-custody determination to Japan.
Because we conclude that the district court acted within its discretion in declining
to extend comity on the grounds that the 2017 Japanese Modification Order and the
subsequent Japanese orders contravened the fundamental purpose and objectives of the
Hague Convention, we do not address whether the other two grounds cited by the
district court support its decision.

11

11a.

B.

Minn. Stat § 518D.302

Mother also argues that the district court erred by failing to recognize the most
recent Japanese orders under Minn. Stat. § 518D.302. The statute provides that “a court of
this state may enforce an order for the return of the child made under the [Hague
Convention] as if it were a child custody determination.” Minn. Stat. § 518D.302. Because
the statute provides that a court “may” enforce such an order, the district court concluded
that it would exercise its discretion and refuse to enforce the 2017 Japanese Modification
Order and subsequent orders based on the Japanese courts’ failure to abide by the principles
of the Hague Convention.
The district court also concluded that because the statute only refers to “an order for
the return of the child,” that the Japanese orders in question were not within the reach of
the statute because they did not require the children to return to the United States. Mother
maintains that the district court erroneously interpreted the statute to apply only to orders
that require the return of a child. Mother argues that the statute applies more broadly to
any order “resulting from a petition for [the] return of the child,” which would include
orders denying a petition for the return of a child in addition to orders granting a petition
for the return of a child.
This court reviews matters of statutory interpretation de novo.

Cf.

Bergman v. Caulk, 938 N.W.2d 248, 250 (Minn. 2020). The goal of statutory interpretation
is to “ascertain and effectuate the intention of the legislature.” Christianson v. Henke,
831 N.W.2d 532, 536 (Minn. 2013) (quotations omitted).

If the text of the law is

unambiguous, a court must apply the law as written. Id. at 537. If the law is ambiguous,
12

12a.

the court may examine factors other than the words of the statute in interpreting the statute
and discerning the legislature’s intent. Id.
The unambiguous text of section 518D.302 indicates that it applies only to a foreign
order “for the return of a child.” Minn. Stat. § 518D.302. The 2017 Japanese Modification
Order and the subsequent Japanese orders that mother sought to enforce under this statute
were not orders “for the return of a child”—the orders did not require mother to return the
children. The 2016 Hague Order is the only order that required return of the children, and
the district court properly recognized that order in 2016. Consequently, we conclude that
the district court did not err in declining to enforce the more recent Japanese orders at issue
in this appeal.2
C.

Minn. Stat. § 548.57—the Uniform Foreign-Country Money Judgments
Recognition Act

Minnesota has adopted the Uniform Foreign-Country Money Judgments
Recognition Act (UFCMJRA). See Minn. Stat. § 548.54-.63. Under the act, Minnesota
courts must recognize a foreign-country judgment under certain circumstances. Minn.
Stat. § 548.57. But a district court “need not recognize a foreign-country judgment
if . . . the judgment was rendered in circumstances that raise substantial doubt about the
integrity of the rendering court with respect to the judgment.” Id., (c)(7).

2

We note that, even if the statute did apply to the orders at issue, mother makes no
argument on appeal regarding how the district court abused the discretion afforded to it by
the statute. Therefore, even if we reached the issue, we would conclude that it was
forfeited. See State Dep’t. of Labor and Indus. v. Wintz Parcel Drivers, Inc.,
558 N.W.2d 480, 480 (Minn. 1997) (declining to address an issue absent adequate
briefing).
13

13a.

The only Japanese order that mother sought to register that involves a
foreign-money judgment is the March 2018 Japanese Order that revoked the prior Japanese
enforcement orders, which required mother to pay sums of money.

See Minn.

Stat. § 548.56(a) (noting that the UFCMJRA applies only to judgments that grant or deny
recovery of a sum of money). The orders concerning the return of the children are plainly
not subject to the UFCMJRA. See id.
In its December 2018 order, the district court recognized the exception in the
UFCMJRA for orders issued under “circumstances that raise substantial doubt about the
integrity of the rendering court with respect to the judgment.”

See Minn.

Stat. § 548.57(c)(7). Based on its determination that the Japanese orders are inconsistent
with the Hague Convention, the district court concluded that this exception applies to the
March 2018 Japanese Order. The district court’s conclusion that the exception applies is
supported by the reasons discussed above relating to comity—specifically that the
2017 Japanese Modification Order and subsequent Japanese orders are not entitled to
comity because they contravene the purposes of the Hague Convention. For the same
reasons that we conclude that the district court did not abuse its discretion in declining to
extend comity to the orders at issue, we conclude that the district court did not abuse its
discretion by declining to recognize the March 2018 Japanese Order under the UFCMJRA.
In sum, we conclude that the district court did not abuse its discretion by not
recognizing the 2017 Japanese Modification Order and the subsequent Japanese orders
because the orders contravened the purposes of the Hague Convention.

14

14a.

II.

Jurisdiction
We next address mother’s argument that the district court lacked jurisdiction to

decide child custody. This argument is closely tied to mother’s argument that the district
court should have recognized the 2017 Japanese Modification Order. We conclude that
the district court properly exercised jurisdiction.
A.

The Existence of Subject-Matter Jurisdiction is Law of the Case

This is the third time that mother has appealed the district court’s subject-matter
jurisdiction determination.

This court affirmed the district court’s jurisdiction

determination in Cook I. See 907 N.W.2d at 238-40. In Cook I, this court concluded that
the district court had subject-matter jurisdiction over child custody under the UCCJEA
because Minnesota was the children’s home state.

Id.; see also Minn.

Stat. § 518D.201(a)(1) (2018) (providing that “a court of this state has jurisdiction to make
an initial child custody determination only if . . . this state . . . was the home state of the
child within six months before the commencement of the proceeding and the child is absent
from this state but a parent or person acting as a parent continues to live in this state”). In
mother’s second appeal, this court dismissed mother’s appeal, concluding that mother
failed to “articulate a reason why the Minnesota District Court, since the filing of Cook I,
lost subject-matter jurisdiction to hear this case.” Mother candidly conceded at oral
argument in this appeal that the Japanese orders do not affect the home-state analysis that
we conducted in Cook I.
“The doctrine of ‘law of the case’ is based on a policy requiring issues once fully
litigated to be set at rest.”

Sylvester Bros. Dev. Co. v. Great Cent. Ins. Co.,
15

15a.

503 N.W.2d 793, 795 (Minn. App. 1993), review denied (Minn. Sept. 30, 1993). The
doctrine “applies when an appellate court has ruled on a legal issue and remanded the case
for further proceedings on other matters. The issue becomes ‘law of the case’ and may not
be relitigated in the trial or reexamined in a second appeal.” Id. To the extent that mother
challenges the existence of jurisdiction, we conclude that our determination of
subject-matter jurisdiction under the home-state provision of the UCCJEA is law of the
case.
B.

Inconvenient Forum

Mother argues that the district court erred by failing to decline jurisdiction under
Minn. Stat. § 518D.207. Section 518D.207(a) provides that “[a] court of this state which
has jurisdiction under this chapter to make a child custody determination may decline to
exercise its jurisdiction at any time if it determines that it is an inconvenient forum under
the circumstances and that a court of another state is a more appropriate forum.” To
determine whether it is an inconvenient forum, the court must consider “all relevant
factors,” including:
(1) whether domestic violence has occurred and is likely
to continue in the future and which state could best protect the
parties and the child;
(2) the length of time the child has resided outside this
state;
(3) the distance between the court in this state and the
court in the state that would assume jurisdiction;
(4) the relative financial circumstances of the parties;
(5) any agreement of the parties as to which state should
assume jurisdiction;
(6) the nature and location of the evidence required to
resolve the pending litigation, including the testimony of the
child;
16

16a.

(7) the ability of the court of each state to decide the
issue expeditiously and the procedures necessary to present the
evidence; and
(8) the familiarity of the court of each state with the
facts and issues in the pending litigation.
Minn. Stat. § 518D.207(b). Because the statute requires the district court to consider “all
relevant factors, including” the listed factors, the statute contemplates that the identified
factors are not exclusive considerations. Id. (Emphasis added).
We review the district court’s decision under section 518D.207 regarding whether
it is an inconvenient forum for an abuse of discretion.

See Levinson v. Levinson,

389 N.W.2d 761, 762 (Minn. App. 1986). Mother argues that the district court abused its
discretion by failing to decline jurisdiction because the section 518D.207(b) factors weigh
in favor of finding that Japan is a more appropriate forum.
The district court did not expressly analyze the section 518D.207(b) factors.
Instead, the district court concluded that its analysis regarding comity supported its
decision that Japan is not a more appropriate or convenient forum. As discussed above,
we have concluded that the district court did not abuse its discretion in declining comity to
the most recent Japanese orders. Mother’s arguments regarding the section 518D.207(b)
factors are primarily based on the fact that the children have been in Japan for a significant
amount of time. But these arguments ignore the fact that the children have been in Japan
because mother wrongfully retained the children there and refused to comply with the
2016 Hague Order to return the children. Given the unique posture of this case, we
conclude that the district court did not abuse its discretion when it decided not to decline
jurisdiction under section 518D.207.
17

17a.

III.

Challenges to the District Court’s Post-Trial Findings of Fact, Conclusions of
Law, Order, and Judgment
Mother next argues that the district court made several clearly erroneous findings in

its post-trial order. Factual findings are reviewed for clear error. In re Guardianship of
Dawson, 502 N.W.2d 65, 68 (Minn. App. 1993), review denied (Minn. Aug. 16, 1993).
Mother did not appear for trial and did not file a motion for a new trial. Consequently, the
scope of review on appeal is “to determine whether the evidence sustains the findings of
fact and whether such findings sustain the conclusions of law and the judgment.”
Rubey v. Vannett, 714 N.W.2d 417, 425 (Minn. 2006).

We also may review any

“substantive questions of law when a genuine issue of law is properly raised and considered
at the district court level.” Alpha Real Estate Co. of Rochester v. Delta Dental Plan of
Minn., 664 N.W.2d 303, 311 (Minn. 2003). “To challenge the [district] court’s findings of
fact successfully, the party challenging the findings must show that despite viewing that
evidence in the light most favorable to the [district] court’s findings (and accounting for an
appellate court’s deference to a trial court’s credibility determinations and its inability to
resolve conflicts in the evidence), the record still requires the definite and firm conviction
that a mistake was made.” Vangsness v. Vangsness, 607 N.W.2d 468, 474 (Minn.
App. 2000).
A.

Mother’s Qualifications for Employment

Mother challenges the district court’s finding that she is “capable and is qualified
for full-time employment as an English as Second Language (ESL) teacher or as a Graphic
Designer.” The record contains evidence that mother worked as a senior graphic designer

18

18a.

in 2001, and evidence that mother was attempting to find a job teaching children English
in Japan. Father testified about mother’s work as a graphic designer. He testified that
mother has a college education. Viewing the evidence in the light most favorable to the
district court’s findings, we conclude that the finding is not clearly erroneous.
B.

Parenting Time Adjustment

Mother argues that the district court clearly erred in assigning 14% parenting-time
adjustment to mother. She maintains that there is “no basis for a finding of 14% in
overnight equivalents” for mother. We see no merit in this argument. “The district court
has broad discretion in determining parenting-time issues and will not be reversed absent
an abuse of that discretion.” Dahl v. Dahl, 765 N.W.2d 118, 123 (Minn. App. 2009). Child
support is adjusted based on the obligor parent’s parenting time. See Minn. Stat. § 518A.36
(2018). Here, the district court assigned a parenting-time adjustment based on 14%
parenting time for mother. The 14% parenting time allocation is based on the district
court’s thorough analysis of the best interests of the children under the extraordinary
circumstances of this case. Because the district court carefully considered the best interests
of the children based on the evidence presented at trial, we conclude that the district court
did not clearly err or abuse its discretion in granting father’s request that mother be allotted
52 overnights per year (about 14% of the year).

19

19a.

C.

Boston Scientific 401(k) as Nonmarital Property

Mother challenges the district court’s finding that father’s Boston Scientific 401(k)
account is nonmarital property because it was acquired after the parties’ separation.3
Nonmarital property includes property that is acquired by a spouse after the valuation date.
Minn. Stat. § 518.003, subd. 3b(d) (2018). The valuation date is the “initially scheduled
prehearing settlement conference . . . unless the court makes specific findings that another
date of valuation is fair and equitable.” Minn. Stat. § 518.58, subd. 1. The district court
must make findings that support its decision to adopt an equitable valuation date. See
Grigsby v. Grigsby, 648 N.W.2d 716, 720 n.1 (Minn. App. 2002).
Here, the district court concluded that it was fair and equitable to adopt an equitable
valuation date for certain assets. The district court found that father acquired the Boston
Scientific 401(k) account long after the parties separated. This finding is supported by
father’s testimony. The district court’s intent to treat the account as nonmarital for
equitable reasons is clear and supported by its findings. Because the district court’s factual
findings support its decision to treat father’s Boston Scientific 401(k) as nonmarital
property, we conclude that the district court did not err in treating the Boston Scientific
401(k) as nonmarital.

3

Mother also argues that there is no evidence to support the district court’s valuation of
the account, but that argument has no merit because, as mother concedes, father submitted
a chart that supported the valuation as evidence.
20

20a.

D.

Marital Equalizer Payment

Mother argues that the amount of the marital equalizer payment ordered by the
district court is clearly erroneous because it does not take into account the Boston Scientific
401(k) or father’s Pershing IRA account. As discussed above, father’s Boston Scientific
401(k) account is nonmarital, so it has no effect on the marital equalizer payment and
mother’s argument on that point is meritless. Father testified that he had a Pershing IRA
account with a balance of approximately $18,000, but that he had cashed out the account
in April 2015 to pay for living expenses. Because the value of the account was zero, it did
not affect the district court’s marital equalizer payment. We discern no error in the district
court’s marital equalizer payment.
IV.

Conduct-Based Attorney Fees
The district court issued a post-trial order awarding conduct-based attorney fees to

father based, in part, on the fact that mother’s failure to appear for trial increased the length
and expense of the proceedings. Mother argues that the district court abused its discretion
because her failure to appear for trial did not increase the length or expense of the
proceedings.
Minnesota law provides that a district court may award conduct-based attorney fees
against a party who “unreasonably contributes to the length or expense of the proceeding.”
Minn. Stat. § 518.14, subd. 1 (2018). The decision to award attorney fees “rests almost
entirely within the discretion of the [district] court and will not be disturbed absent a clear
abuse of discretion.” Jensen v. Jensen, 409 N.W.2d 60, 63 (Minn. App. 1987).

21

21a.

Mother only argues that the district court abused its discretion because her failure
to appear did not affect the length or expense of the proceedings. While father would have
been required to prepare for trial regardless of whether mother appeared, we disagree that
father would have incurred the same time and expense preparing for a trial if mother had
provided prior notice that she would not appear. But more importantly, mother does not
challenge the other bases of the district court’s conduct-based attorney fee award, including
mother’s filing of frivolous motions. Consequently, we determine that the district court’s
finding that mother’s conduct unreasonably contributed to the length and expense of the
proceedings was not clearly erroneous. Based on our review of the record, we conclude
that the district court did not abuse its discretion in awarding conduct-based attorney fees.
V.

Contempt
Finally, mother argues that the district court abused its discretion in holding her in

contempt and issuing a bench warrant for her arrest after the May 2019 trial. She maintains
that the district court (1) erred by holding her in contempt for actions taken in compliance
with the 2017 Japanese Modification order, (2) denied her due process by failing to provide
notice that the contempt issue would be heard at trial, and (3) erred by imposing sanctions
that were not aimed at inducing compliance with its December 2016 orders requiring her
to return the children to Minnesota.
“The district court has broad discretion to hold an individual in contempt.” In re
Marriage of Crockarell, 631 N.W.2d 829, 833 (Minn. App. 2001) review denied (Minn.
Oct. 16, 2001). We review a district court’s decision to invoke its contempt power for an

22

22a.

abuse of discretion. Mower Cty. Human Servs. v. Swancutt, 551 N.W.2d 219, 222
(Minn. 1996).
To exercise civil contempt powers, the district court must meet several
requirements:
(1) the court has jurisdiction over the subject matter and the
person;
(2) a clear definition of the acts to be performed;
(3) notice of the acts to be performed and a reasonable time
within which to comply;
(4) an application by the party seeking enforcement giving
specific grounds for complaint;
(5) a hearing, after due notice, to give the nonperforming party
an opportunity to show compliance or the reasons for failure;
(6) a formal determination by the court of failure to comply
and, if so, whether conditional confinement will aid
compliance;
(7) an opportunity for the nonperforming party to show
inability to comply despite a good faith effort; and
(8) the contemnor’s ability to gain release through compliance
or good faith effort to comply.
Id. at 223. These requirements are known as the Hopp requirements. Id.; see also
Hopp v. Hopp, 156 N.W.2d 212 (Minn. 1968).
Typically, civil contempt proceedings involve two hearings. At the first hearing,
the district court addresses whether a party is in contempt and, if so, sets purge conditions.
Swancutt, 551 N.W.2d at 223-24. If the party seeking enforcement of an order later alleges
non-performance of the purge conditions, the district court holds a second hearing (known
23

23a.

as a Mahady hearing) at which the court determines “whether there has been a failure to
comply and if so, whether conditional confinement is reasonably likely to produce
compliance fully or in part.” Id. at 224 (quotation omitted); see also Mahady v. Mahady,
448 N.W.2d 888, 891 (Minn. App. 1989) (establishing a two-stage contempt proceeding).
“At that point, the court may order confinement upon such terms and conditions as meet
the Hopp requirements, including providing to the contemnor the opportunity to gain
release through compliance or a good faith effort to comply.” Swancutt, 551 N.W.2d at
224.
In this case, the district court held the initial contempt hearing in March 2017 and
then held a Mahady hearing in April 2017. At the Mahady hearing, mother argued that she
would not return the children to the United States because she was abiding by the Japanese
orders and that her noncompliance was therefore excusable. But the district court did not
find mother’s argument persuasive. In June 2017, the district court issued an order finding
mother in contempt, requiring mother to return the children, imposing a $1,000 per day
fine for each day that mother failed to return the children, and staying both confinement
and a requirement that mother post a bond to exercise parenting time.
In May 2019, the district court held trial on child custody and dissolution issues.
The district court did not provide notice that it would address the contempt issue. At the
hearing, father raised the issue of contempt and requested that the district court issue a
warrant and enter a judgment of $694,000 against mother to reflect the $1,000 per day fine
that had been imposed 694 days before trial. Following trial, the district court issued an

24

24a.

order again finding mother in contempt. In its order, the district court also lifted the stay
on confinement and the bond, and issued a bench warrant for mother’s arrest.
Mother argues that she did not have notice that the issue of contempt would be heard
at trial and maintains that she was not provided with a fair opportunity to respond. She
also argues that the district court violated Minn. Gen. R. Prac. 309.03(a) when it issued the
bench warrant. That rule provides that where a court has entered an order with a stay of
sentence and there has been a default in the performance of the conditions of the stay, an
affidavit of noncompliance and a request for writ of attachment must be served upon the
defaulting person before the district court may issue a bench warrant against the defaulting
person, unless the person is shown to be avoiding service. Minn. Gen. R. Prac. 309.03(a).
The moving party must submit a proposed order for writ of attachment that directs law
enforcement to bring the defaulting party before the court for a show-cause hearing
regarding why the stay of sentence should not be revoked. Id., (b). Finally, mother
contends that the district court’s order violated Minn. Stat. § 588.04(a) (2018), which
requires an affidavit alleging the facts constituting contempt before a warrant may issue.
We agree with mother that, because no affidavit of noncompliance had been filed
or served upon mother as required by the rule, the district court failed to comply with
Rule 309.03(a) prior to lifting the stay and issuing the bench warrant. We are also
concerned that mother received no other type of notice that the district court would address
the issue of contempt at trial. Given the divergence from Rule 309.03(a) and the lack of
notice that contempt would be addressed at trial, mother was not afforded “a hearing, after
due notice . . . to show compliance or the reasons for failure” since the previous contempt
25

25a.

order. Swancutt, 551 N.W.2d at 223 (emphasis added); see also Minn. Gen. R. Prac.
309.03. Consequently, we conclude that the district court abused its discretion by holding
mother in contempt again, lifting the stay, issuing a bench warrant, and imposing other
sanctions following trial.
Because we conclude that the district court abused its discretion by holding mother
in contempt again without sufficient notice, we do not address mother’s arguments
challenging the findings supporting contempt or the sanctions that the district court
imposed. We reverse the contempt order and remand for further proceedings consistent
with this opinion.4
Affirmed in part, reversed in part, and remanded.

4

Our conclusion affects only the posttrial contempt order and bench warrant and not the
district court’s previous contempt orders. We do not intend to limit the district court’s
discretion to hold mother in contempt for failure to obey its orders. Our decision is based
solely on the lack of notice afforded to mother that this issue would be heard at trial.
26

26a.

27-FA-15-499

Flied in Distr ict Co urt
State of Minnesota
6/10/2019 11 :30 AM

STATE OF MINNESOTA

FOURTH JUDICIAL DISTRICT

COUNTY OF HENNEPIN

FAMILY COURT DIVISION

In Re the Marriage of:

Court File No . 27-FA-15-499

Jam es Edward Cook, II ,
Petitioner,

FINDINGS OF FACT, CONCLUSIONS
OFLAW,ORDERFORJUDGMENT
AND JUDGMENT AND DECREE

V.

Hitomi Arimitsu,
Respondent.

On May 7, 2019, this matter came before the Honorable Nicole A. Engisch for a court
trial regarding (1) legal custody; (2) physical custody; (3) parenting time; (4) child support; (5)
division of marital assets and debts; and (6) attorney's fees.
Petitioner (Mr . Cook) appeared and was represented by Victo1ia Taylor, Esq., and
Shawn Reike, Esq.
Respondent (Ms. Arimitsu), upon being given due notice and opportunity to appear, did
not appear .
M s. Arirnitsu did not appear, contrary to orders of this Comt for her to personally be
present for trial. M s. Arimitsu submitted no evidence or witnesses. The Court found M s.
Arimitsu had been provided full and proper n otice of trial and all trial-related matters,
includin g her right to be present, to put forth evidence and witnesses and to cross-examin e
Mr. Cook's witn esses. Thu s, M s. Arimitsu was found to be in default. The Court accepted
and entered Mr . Cook 's exhibits 1-32 into evidence. The Court pro ceeded to take testimon y
from Mr . Cook and his w itnesses.
Based on the evidence introduced , the testimon y of the witnesses, the arguments of
counsel, the entire record before the Court, and the Comt's credibility findings, th e Court
issues the following findings of fact, conclusions of law, order for jud gmen t and judgment and
decree.

FINDINGS OFF ACT
PARTIES
1.

The part ies' nam es, addr esses, dates of birth, and ages are:

27a.

27-FA-15-499

Filed in Dis lricl Court
State of Minnesota
6/10/2019 11 :30 AM

Petitioner:
Name:
Previous Name(s):
Address:

James Edward Cook, Ill
none
15300 37th Ave. N., Apartment B-325
Plymouth, MN 55446
Birth date and age: May 2, 1966; 53 years of age
Respondent:
Name:
Previous Name(s):
Address:

Hitomi Arimitsu
none
27-5 Shoyodai 2-Chome Nara-shi
Nara-Ken 631-0007
Japan
Birth date and age: July 16, 1971; 4 7 years of age
In this judgment and decree, Petitioner is also referred to as Mr. Cook, and
Respondent is also referred to as Ms. Arimitsu. The Social Security numbers of the parties
have been filed as confidential information .
REPRESENTATION

2.
Mr. Cook is represented, and has been advised in these proceedings , by Victoria
Taylor, Esq., of Crossroads Legal Services, LLC, 961 Hague Avenue, St. Paul, MN 55104.
3.
As of April 11, 2019, Ms. Arimitsu is self-represented. Ms. Atimitsu, however ,
was consistently represented throughout the course of these proceedings, from the filing of
her answer and counter -petition on May 11, 2015, until a notice of withdrawa l of counsel was
filed on April 11, 2019. Pursuant to this court's order dated April 12, 2019, both parties were
ordered to appear in person for trial and were informed of the right to be self-represented at
trial. Nonetheless, Ms. Arimitsu was not present for trial, refused to return. the parties'
children back to Minnesota pending the outcome of this matter despite repeated orders to do
so, and she did not present any trial submission s as ordered in this Court's order filed February
15, 2019.
BACKGROUND AND PROCEDURAL IDSTORY
Prior Orders Incorporated

4.
The parties have extensively litigated issues of subject matter jurisdiction and
issues under the Hague Convention of 25 October 1980 on the Civil Aspects of International
Child Abduction (the Hague Convention), among other issues. The Court incorporates by
reference its orders filed on December 2, 2016 (December 2, 2016, order) and December 13,
2016 (December 13, 2016, order) (collectively, the December 2016 orders); January 24, 2017
(January 2017 order); March 24, 2017 (March 2017 order); April 4, 2017 (April 2017 order);
June 12, 2017 (June 2017 order); September 27, 2018 (September 2018 orders); October 2,

2

28a.

27- FA-15-499

Filed in Dis trict Court
State of Minnesota

6/10/20 191 1:30AM

2018 (October 2018 order); November 6, 2018 (November 2018 order); December 10, 2018
(December 2018 order); January 22, 2019 (January 2019 order); February 14, 2019 (Febmai-y
2019 order); February 15, 2019 (order for trial); March 12, 20 19 (March 20 19 order); and
April 12, 2019 (April 2019 order). The Court also incorporat es by reference the appellate
court opinion , dated Januai-y 22, 2018; the appellate judgment entered April 20, 2018; and
the appellate court order dated March 26, 2019.
Minnesota Residence and Japan Travel

5.
The minor children were born in Minne sota and permanently resided in the
City of Maple Gro ve, County of Hennepin, State of Minne sota, until the summer of 2014. In
May 2014, the parties listed their home for sale. In July 2014, in prepara tion for a trip Ms .
Arimitsu and the children were to take to Jap an, the parties signed an agreement stating that
Ms. Arimit su would return with the children by August 29, 2014. July 2014 was the last time
the children were in Minn esota.
6.
In mid-August 2014, Mr . Cook agreed that the children could stay in Japan for
an unspecified additional amount of time, but not indefinitely. In October 2014, Mr. Cook
visited the children in Japan .

Mr. Cook's Dissolution Petition
7.
On January 13, 2015, Mr . Cook filed a summons and petition for dissolution
with children in this court file. In his petition, Mr. Cook asked for sole physical custod y and
sole legal custody of the minor children, alleging that Ms. Arimitsu failed to return the
children from Japan . After extensive attempts to serve Ms. Arimitsu personally , she accepted
service of the summ ons and petition through her counsel on April 27, 2015.
Ms. Arimitsu's Answer and Counter-Petition

8.
On Ma y 11, 2015, Ms. Arimitsu filed an answer and counter-petition. She
asked for joint legal custody and sole physical custody of the min or children, subject to a
parentin g time schedule that would allow the minor children to continu e to live and attend
school in Japan .
Initial Case Management Conference

9.
At a July 23, 2015, Initial Case Management Conference (ICMC), the district
court asked the parties to address whether , given the children's time in Japan , the district court
had subject matter jurisdiction under the Uniform Child Custody Jurisdiction and
Enforcement Act (UCCJEA) to address child custody .

3

29a.

27-FA-15-499

Filed in District Court
State of Minnesota
6/10/2019 11 :30 AM

Mr. Cook's Hague Convention Application
10.
On August 7, 2015, Mr. Cook applied under the Hague Convention for aid in
getting the children returned to the United States. Mr. Cook asked the Japanese courts to
order the children returned to the United States.

October 2015 Orde1·RegardingLack of SubjectMatter Jurisdiction
11.
On October 20, 2015, the then assigned judge filed an order stating that, under
the UCCJEA, Minnesota lacked subject matter jurisdiction to address custody because
Minnesota was not the children's "home state" as defined by Minn. Stat. § 518D.102(d)
(October 2015 order). The judge acknowledged that, under the UCCJEA, a child's temporary
absence from a state did not mean that the state stopped being the child's home state, but
concluded that, on the then-existing record, the absence of the children from Minnesota did
not constitute a temporary absence.
12.
Despite the October 2015 order, the dissolution matter remained pending and
as of this judgment and decree, the matter is still currently pending before this Minnesota
Court. This judgment and decree, however, will finally resolve the parties' dissolution and
pending matters, with the exception of enforcement of this judgment and decree and
addressing Ms. Arimitsu's ongoing contempt of court.

October 2015 Japan 01·der
13.
On October 30, 2015, in the Hague litigation, a Japanese court filed an order
stating tliat the parties' younger twins, but not the older twins, should be returned to the
United States (October 2015 Japan order). Both parties appealed the October 2015 Japan
order.

January2016 Japan Order
14.
On January 28, 2016, a Japan court filed an order reversing the October 2015
Japan order and requiring Ms. Arimitsu to return all four children to the United States
(January 2016 Japan order). The January 2016 Japan order concluded that Minnesota is the
children's habitual residence, a conclusion similar but not identical to a determination under
the UCCJEA that Minnesota is the children's home state.
15.
Ms. Arimitsu did not comply with the January 2016 Japan order and did not
return any of the children to the United States. Instead, in the Japanese courts, she challenged
Mr. Cook's attempts to enforce the January 2016 Japan order requiring the children to return
to the United States.
16.
On Febmary 3, 2016, Ms. Arimitsu appealed the Jairnary 2016 Japan order to
a Japanese appellate court, but her appeal was denied in an order issued F ebruary 23, 2016,

4

30a.

27-FA-15-499

Filed in District Court
State of Minnesota

6/10/2019 11:30 AM

Japan Enforcement Orders

1 7.
Mr. Cook filed various applications and requests for enforcement and relat ed
matters in Japan.
18.
On February 9, 2016, an order was issued warning Ms. Arimitsu to comply
with the January 2016 Japan order requiring her to return all four children to the United
States.
19.
On March 4, 2016, a Japan court issued an order for indirect enforcement,
including requiring Ms . Arimitsu to pay a daily financial sanction (equal to $50 per child per
day) for her failure to return all four children to the United States (Japan enforcement order
no. 40003). The sanctions were to be imposed from the next day of the expiration of the 14day period until compliance with the obligation .
20.
Thereafter , a Japan court issued indire ct enforcement orders imposing
additional financial penalties on Ms . Arimitsu , including "execution by substitute" (Japan
enforcement order no . 40004) and a judgm ent against Ms . Arimitsu to pay Mr. Cook the
equivalent of $19,260.76 for costs and expenses to return the children to the United States
(Japan enforcement order no. 40005).
21.
In June 2016, Mr . Cook received the right to direct enforcement. When he
attempted to execute on these rights and obtain release of the children to him, court authorities
informed him that enforcement of the Janua ry 2016 Japan order requiring the return of the
children was only possible if Ms . Arimitsu cooperated in allowing the children to return. She
did not cooperate, and Japanese officials did not require her to do so.
22.
On April 19, 2016, an order for enforcement issued that nam ed Mr. Cook's
mother, the children's paternal grandmother, as executor of the return order. On September
13, 20 16, Mr. Cook's mother attempted to obtain the release of the children as required by
court orders, but she was forced to leave without the children at Ms. Arim itsu 's request.
23.
On September 15, 2016, Mr. Cook attempted to obtain the release of the
children as required by court orders, but he was forced to leave without the children at Ms.
Arimitsu's requ est.
24 .
D espite the January 2016 Jap an order requiring Ms. Arimit su to return the
children and despite the enforcement orders , Ms. Arimitsu refused to comply , and the
children were not returned to the U.S.

Mr. Cook's Motion to Reassert Subject Matter Jurisdiction
25 .

In M ay 2016, the case was assigned to the und ersigned.

26.
On September 27, 2016, Mr. Cook filed a motion with this Court to reassert
subject matter jurisdiction over child custody and to enforce the Januar y 2016 Japan order.

5

31a.

27-FA-15-499

Filed in District Court
State of Minnesota
6/10/2019 11:30 AM

On November 21, 2016, this Comt held a hearing and took sworn testimony of both Mr.
Cook and Ms. Arimitsu.
Decembe1· 2, 2016, Order

27.
On December 2, 2016, this Court filed an order granting Mr. Cook's motions
and reasserting subject matter jurisdiction for custody regarding the children (December 2,
2016, order).
December 13, 2016, 01·der

28.
On December 12, 2016, the Court held a telephone conference with counsel at
the request of Ms. Arimitsu's counsel, who sought reconsideration of the December 2, 2016,
order. Ms. Arimitsu's counsel stated that he had discussed the December 2, 2016, order with
his client and had instructed her that she needed to comply with the order. Nonetheless, Ms.
Arimitsu requested additional time to comply with the order because , among other stated
reasons, she was having difficulty funding four international plane tickets . Mr. Cook's
counsel indicated that Mr. Cook had anticipated that Ms. Arimitsu would raise financial
issues as an obstacle and therefore he had secured plane tickets for the children to travel back
to Minnesota as ordered.
29.
Following the telephone conference, the Court filed the December 13, 2016,
order, denying Ms. Arimitsu's informal motion for reconsideration and reaffirming the
December 2, 2016, order (December 13, 2016, order).

In the December 13, 2016, order, the Court stated that it had contacted
30.
Hennepin County Family Court Services to obtain priority stah 1s regarding sche dulin g a
custody and parenting time evaluation, to be initiated once Ms . A1imitsu and the children
returned to Minnesota. To further accommodate Ms. Arimitsu, the December 13, 2016, order
provided that she was permi tted to accompany the children on the flights to Minnesota, and
if she 1etumed the children to Mr. Cook and to Minnesota and otherwise sufficiently
demonstrated that she would be complying in good faith with those orders, including
remaining in Minnesota and ensuring the childr en remain in Minnesota while this case is
pending, the Court would consider a motion for temporary chang e of physical and legal
custody back to Ms. Arimitsu. Despite these accommodations, Ms. Arimitsu did not comply
with this Court's December 2016 orders or with the then final Janua1y 2016 Japan order
requiring her to rehlm the children to Minnesota.
Ms. Arimitsu's Motion for Amended Findings

31.
On December 30, 2016, Ms. Arimitsu filed a motion with this Court requesting
amended findings pursuant to Minn. R. Civ . P. 52.02. Her motion, which was essentially her
second motion for recon sideration, asked the Court to reverse the December 2016 orders
reasserting jurisdiction over the question of child custody.

6

32a.

27-FA-15 -499

Filed in District Court
State of Minnesota

6/10/2019 11:30 AM

Mr. Cook's Motion for Contempt and for Sanctions
32.
On January 12, 2017, Mr. Cook filed a responsive motion and a motion for
contempt, for conduct-based attorney's fees, and other sanctions for Ms. Arimits u's failure to
obey the Court's December 2016 orders.

Febmary 10, 2017, Hearing
33.
On February 10, 2017, the Court held a hearing on Ms. Arimitsu's motion for
amended findings and on Mr. Cook's motion for contempt.

Febmary 2017 Japan order
34.
On February 17, 2017, a week after this Court's hearing, a Japan court issued
an order modifying the January 2016 Japan order and finding the children shou ld not be
returned to Minnesota based in large part on what it concl uded was a "grave risk of harm to
the childre n ," among othe r reasons (Febrnary 2017 Japan order).
35.
In reaching its conclusion, the February 2017 Japan order found : (1) "the
[c]hildren refused strongly to be returned to the U.S.[;]" (2) because Mr. Cook's home was
foreclosed on, he ''is currently not able to provide the stable place to live for the [c]hildren and
doesn't have a feasible plan to arrange the place to live for the [c]hildren after they're returned
to the U.S."; (3) Mr. Cook "doesn't have enough financial resources to ensure the stable
environm ent and arrangement for the [c]hildren. Furthermore, he only stated, as for the
school that the [c]hildr en are supposed to go, that they could go to a cha1tered school without
paying tuition, and failed to suggest a specific school"; and (4) Mr. Cook's "fa ther opposed
the return of the [c]hildren ... so he doesn't look supportive for [Mr. Cook] in taking care of
the [c]hildren in the U.S[;]"; and (5) it is difficult for Ms . Ar imitsu "to provide the stable place
to live ... for the children when they're returned to the U .S. because she doesn't have [a]
basis to live in the U.S." Id. The Februa1y 2017 Japan order also stated that Mr . Cook is
currently living with his friend to save money but ''once the children are returned to the USA,
they will spend several weeks at their grandmother's hom e, during which he will find a large
house to rent so the family can live." The February 2017 Japan order additiona lly found that
Mr. Cook "asser ted that he would start working for Boston Scientific on October 20, 2015,
but his current work situation is not clear .. .. "
36.
The February 2017 Japan order did not othetwise modify the January 20 16
Japan order or any of its findings or conclusions under the Hague Convention, including that
Minnesota was the children's habitual residence. The February 2017 Japan order did not
establish that Japan has subject matter jurisdiction over custody of the children .

March 2017 First-Stage Contempt Order
37.
On March 24, 2017, this Cour t filed an order finding Ms. Arimitsu in contemp t
of coutt for not returning the children to the United States and set purge cond itions (March
2017 order). The Court concluded that it was Ms. Arimitsu 's actions in failing to comply with

7

33a.

27 -FA- 15-499

Filed in District Court
Slale of Minnesota
6/10/2019 11 :30 AM

comt orders, in alienating Mr. Cook from the children, in placing the children in the middle
of the dispute, and in delaying this case that have caused detrimental effects on the children 's
emotional well-being. The Court scheduled the second-stage of the contempt hearing (called
a Mahady hearing) for April 25, 2017 . The purpose of that hearing was to determine if Ms .
Arimitsu had complied with purge conditions. Because of the nature of contempt, Ms.
Arimitsu was required to appear in person .

April 2017 Order Denying Amended Findings Motion
38.
On April 4, 2017, this Court filed an order denying Ms . Arimitsu's motion for
amended findings, and finding, among other things, th at (1) the Court bad authority to
reconsider the jurisdictional ruling in the predecessor judge's October 2015 order; (2) despite
the February 2017 Japan order, Minnesota continued to have subject matter jurisdiction to
address custody because, among other reasons, Minnesota is the children's home state under
the UCCJEA; and (3) the Japane se courts lack jurisdiction to address child custody (April
2017 order).

April 2017 Second-Stage Contempt Order
39.
On April 25, 2017, the Court held the second-stage hearing on Mr. Cook's
motion to hold Ms. Arimitsu in contempt of court. Ms. Arimitsu did not appear in person as
required. She did not provide a just or reasonab le excuse for failure to comply with purge
conditions. She continued to defy this Comt's orders and to not return the children to
Minnesota.

June 2017 Order for Contempt and Sanctions
40 .
In the Court's contempt-re lated order filed on June 12, 2017, the Court found
that Ms. Arimitsu provided no just or reasonable excuse for her failure to meet the Court 's
purge conditions and she remained in civil contempt (June 2017 order). In the June 2017
order, the Court imposed various sanctions on her.
41.
Among other things, the June 2017 order awa rded Mr . Cook conduct-based
attorney's fees in the amount of $10,200.00 under Minn. Stat. §518.14, subd. 1, based on Ms.
Arimitsu's conduct in unreasonably contributing to the length and expense of the proceeding
from December 6, 2016, through May 16, 2017. Ms. Arimitsu was also ordered to pay a civil
penalty of $500 to Mr. Cook under Miim. Stat. §518.175, subd. 6(d)(2), for her direct
int erference with Mr. Cook's access to and par enting time with the children, in violation of
this Court's orders. Additionally, for her constructive civil contempt, Ms. Arimitsu was
ordered to pay a fine of $1,000 per day effective the date of the June 20 17 order and until she
was in compliance with the Court's purge conditions (to include return of the children to
Minnesota).
42 .
The Court also found that, given the lack of viable procedural or other
objections by Ms. Arimitsu, the two Japanese money jud gmen ts were enti tled to enforcement
under principles of comity: (1) a jud gment in the amount of $74,816.01 arising out of Japan

8

34a.

27-FA-15-499

Filed in District Court
Stale or Minnesota
6/1012019 11:30 AM

enforcement order no. 40003, and (2) a judgment in the amount of $19,260 .76 arising out of
Japan enforcement order nos. 40004 and 40005. The total of the two Japanese money
judgments was $94,076.77 .
43.
In the June 2017 order, the Court entered judgment in Mr. Cook's favor and
against Ms. Arimitsu for all financial sanctions in the total amount of $104,995 .30.
Ms. Arimitsu's Appeal of Subject Matter Jurisdiction Orders

44.
On June 2, 2017, Ms. Arimitsu appealed this Court's su~ject matter jurisdiction
determination, as set forth in the December 2016 orders and in the April 2017 order.
Minnesota Court of Appeals Decisions Affinning Subject Matter Jurisdiction

45.
In a published opinion filed on January 22, 2018, the Minnesota Court of
Appeals denied Ms . Arimitsu's appeal and affirmed the Court's December 2016 and April
2017 orders. Cookv. Arimitsu, 907 N.W.2d 233 (Minn. Ct. App. 2018). That decision, among
other things, concluded that this Court "has home-state jurisdiction to make an initial childcustody determination." Id. at 241. In an order filed on April 2018, the Minnesota Supreme
Court denied Ms . Arimitsu's petition for further review. Thus, the Minnesota Comt of
Appeals' decision is final.
December 2017 Japan 01·derand Related Orders and Certificates

46 .
Mr. Cook appealed the Febrnary 2017 Japan order, but that order was later
affumed in an order dated December 21, 2017 (December 2017 Japan order).
47.
Thereafter, on January 12, 2018, a Japan court issued a certificate for final
decision certifying that the February 2017 Japan order was final (January 2018 Japan final
decision certificate) .
48.
On March 26, 2018, a Japan court issued an order revoking (1) the Japan
enforcement order no. 40003; and (2) and the Japan enforc ement order nos. 40004 and 40005
(March 2018 Japan order). Thus, the March 2018 Japan order provided that M s. Arimitsu
was no longer required to pay the financial sanctions for her failure to return the children .
49 .
On April 20, 2018, a certificate of service was filed , stating that the March 2018
Japan order was served on Mr . Cook on March 28, 2018 (April 2018 Japan certificat e of
service) .
Ms. Arimitsu's Registrations and Additional Motion

50.
On May 23, 2018, Ms. Arimitsu filed a letter and an affidavit in support of her
request to have several documents (including translations) registered in Minnesota pursuant
to Minn. Stat.§ 518D.305: (1) the February 2017 Japan order; (2) the December 2017 Japan

9

35a.

27-FA-15-499

Filed in Distr ict Court
Slate of Minnesota
6110/2019 11 :30 AM

order; (3) January 2018 Japan final decision certifica te; (4) the March 2018 Japan order; and
(5) the April 20 18 Japan certificate of seivice.
51.
On June 14, 2018, Mr. Cook filed an objection to Ms. Arimitsu's registration
request and requested a hearing to contest the regis tration.
52.
On October 1, 2018, the Court held a motion hearing . Following that hearing,
the Court requested additional written submissions.
December 2018 Order
53.
On December 10, 2019, the Court filed an order that denied Ms. Arimitsu's
motion to register, recognize, and enforce various Japan cour t orders and documents although
the Court reserved the issue of registration of the March 2018 Japanese order (December 2018
order). The December 2018 order further granted Mr. Cook's motion for conduct-based
attorney's fees and costs, and denied Ms. Arirnitsu's motion for conduct-based attorney's fees
and costs.
Ms. Arimitsu's Appeal and March2019 Order
54.
On Februaiy 8, 2019, Ms . Arimitsu filed a notice of appeal in this court file
indicated that she was appealing the December 2018 order "concluding that the district court
has subject matter jurisdiction over child custody" and she is also appealing the Court's order
filed Januaty 22, 2019, for attorney's fees and costs, as well as the resulting judgment entered
January 28, 2019.
55.
On February 12, 20 19, Ms. Arimitsu filed a letter that, among other things,
requested "that any scheduling be stayed pending the outcome of her appeal" (Februaty 2019
order).
56.
The February 2019 order stated that, based on input from the parties, the Court
was scheduling this matter for tria l for May 7, May 8, May 9, and May 10, 2019, dates that
counse l for both parties indicated availability of the parties and the lawyer s. Additionally, in
the February 2019 order, the Court addressed and denied Ms. Arimitsu's request for a stay of
the proceeding pending her appea l.
57.
The February 2019 order concluded that "the Comt finds no basis to stay this
proceeding while Ms . Arimitsu again appeals essentially th e sam e jurisdicti onal issues.
While her additional appeal of the Court's attorney's fees order and judgment is new, the
appeal of those issues wouldnotjustify a stay."
58.
On February 12, 2019, the Co mt separately filed a trial order, sett ing forth
various deadlines for exchanging witness lists and exhibits, among relate d requirements.

lO

36a.

27-FA-15-499

Filed in District Cour t
Stale of Minnesota
6/10/2019 11:30 AM

59.
On March 1, 2019, Ms. Arimitsu's counsel filed a letter that again requested
that the Court stay the trial in this mat ter "until the Cou1t of Appea ls has addressed the issue
of jurisdiction ."
60.
The Comt provided Mr . Cook's counsel with an opportunity to file a responsive
letter by March 7, 2019. The Court did not receive a responsive letter by the deadline.
61.
The March 2019 order again provided a detailed analysis of the case and the
applicable law . The March 2019 order again denied Ms . Arimitsu's request to stay the
proceeding pending her appeal.
62.
On March 26, 2019, the Minnesota Court of Appeals filed an order that
summarily dismissed Ms. Arimitsu's appeal of the December 2018 order and the January
2019, finding that the Court of Appeals had already concluded that the district court has
subject matter jurisdiction.
April 2019 Order

63.
On April 11, 20 19, Ms. Arimitsu's counsel of record, Valerie Arnold, Esq., filed
a notice of withdrawal.
64.
On April 12, 2019, the Court filed an order that confirmed that a court trial on
all issues related to the parties' dissolution was scheduled for May 7, May 8, May 9, and May
10, 2019, and the parties were ordered to appear in person, with counsel or as a selfrepresented party (April 2019 order). The April 2019 order was mailed to Ms. Arimitsu at
her Japan address in the court records (and as supplied by her withdrawing counsel).
May 7, 2019, Trial

65.
On May 7, 2019, Mr. Cook appeared for trial. Ms. Arimitsu did not appear or
othe1wise contact the Court. Furthermore, no mail was returned. As indicated, the Court
found that Ms. Arimitsu was in default.

DATE OF MARRIAGE
66.
The parties were married on May 30, 1998, in the City of Minnetonka, State of
Minnesota, County of Hennepin, and ever since that date have been and are now husband
and wife.
JURISDICTION AND VENUE

67.
For more th an 180 days immediately preceding the commenceme nt of this
action, Mr . Cook bas been and now is a resident of the State of Minnesota. Mr. Cook
currently resides in Hennepin County .
68.
This Court has persona l jurisdi ction over Ms. Arimitsu and Mr. Cook. In
particular, although Ms. Arimitsu now resides in Japan, she previously resided in Minnesota,

11

37a.

27-FA-15 -499

Filed In Distr ic t Co urt
Sta te of Minneso ta
6/10/2019 11 :30 AM

was manied in Minnesota, had a number of qualitative contacts with Minnesota during the
marriage, and filed pleadings and made appearances in this Court. See Mahoney v. Mahoney,
433 N.W .2d 115, 117 (Minn. Ct. App. 1988); Wachsmuth v. Johnson, 352 N.W.2d 132, 132
(Minn. Ct. App . 1984). She never raised any objection to the Court's personal jurisdiction
over her and she has therefore waived any right to contest personal jurisdiction.
69.
As demonstrated through the background and procedural history above, this
Cou1t has subject matter jurisdiction over the dissolution proceeding, including the custody
status of the patties' minor children . Cookv. Arimitsu, 907 N.W.2d 233 (Minn. Ct. App. 2018).
The question of subject matter jurisdiction has been litigated, has been affirmed on appeal,
and the judgment on subject matter jurisdiction of this Court is final.
SEPARATE PROCEEDING

70.
Despite this Court's sole and exclusive jurisdiction, Ms. Arimitsu is pursuing
further litigation in Japan in the form of a recently-filed divorce action that is contrary to the
spirit and the distinct purposes of international treaty and the Hague Convention. Ms.
Arimitsu filed the separate proceeding for dissolution in Japan long after this dissolution
proceeding had been filed and while this proceeding was still pending and active. The
improperly-filed Japan dissolution proceeding has no bearing on this Court's authority to
dissolve the parties' marriage and to address all pending issues regarding custody, parenting
time, and the financial and other issues.
IRRETRIEVABLE BREAKDOWN

71.
There has been an irretrievable breakdown of the marriage relationship of the
parties within the definition of Minn. Stat. § 518.06, as amended . The parties separated July
13, 2014, and are Clmently living apart.
NO ORDER FOR PROTECTION

72.
Neither party has obtained an order for protection under Minn. Stat. § 518B,
or similar law of another state or country, with respect to the other party . There has been no
domestic abuse between the patties or involving the minor children.
NO MILITARY SERVICE

73.
Neither party is or has been in the military service of the United States at any
time relevant to this proceeding, and neither party is entitled to the benefits of the Soldiers'
and Sailors' Civil Relief Act.
NO NAME CHANGE

74.

Neither party is seeking a name change.

l2

38a.

27-FA-15-499

Filed in District Co urt
Stale of Minnesota
6/ 10/2019 11:30 AM

CHILDREN

75.
The partie s have four joint minor children of this marriage, namely :
Arimitsu Cook, born Decemb er 5,
Arimitsu Cook, born December 5, 2002;
2002;
Arimitsu Cook, born Febmary 13, 2008; and
Arimit su Cook,
born Febmary 13, 2008. The joint minor children are referred to in this judgm ent and decree
as the children or the minor children. Social Security numbers of the minor children have
been filed as confidential information.
76.

Neither pa1ty bas any non -joint minor children .

77.

There is no evidence that Ms . Arimitsu is now pregnant.
NO PUBLIC ASSISTANCE

78.

Mr. Cook does not receive public assistance from the State of Minnesota.

79.
Ms. Arimitsu and the children do not receive public assistance from the State
of Minnesota.
CUSTODY AND PARENTING TIME

80.
As discussed in detail above, Minnesota is the proper jurisdiction under the
Uniform Child Custody Juri sdiction and Enforcement Act to enter an order regarding the
custody, care and control of the minor children. Minn. Stat.§ 518D.201(a)(l) .
81.
Mr. Cook requested sole phy sical custody and sole legal custody of the parties'
minor children . Ms . Arimit su in her answer and counter -petition dated May 11, 2015,
requested that she be granted sole physical custody and that the parties share joint legal
custody of the parties' minor children.
82.
Under Minn. Stat.§ 518.003, subd. 3(a), "legal custody" is defined as "the right
to determine the child's upbringing, including education, health care, and religious training."
Under Mim1. Stat.§ 518.003, subd. 3(c), "'P hysical custody and residence ' mean s the routine
daily care and control and th e residence of the child." Id., subd . 3(c).
83.
This Court has broad discretion to determine matters of custody , whether
physical custody or legal custody. Durkin v. Hinich, 442 N. W .2d 148, 151 (Minn. 1989).
Similarly, the Court ha s broad discretion to determine parenting time issues. Olson v. Olson.,
534 N.W.2d 547, 550 (Minn . 1995). For both custody decisions and parenting time decisions,
this Court is guided by the best interests of the child . See Wopata v. Wopata, 498 N.W.2d 478,
481 (Minn. Ct. App. 1993) (a court must base decisions regarding child custody on the best
interests of the child and all of the relevant statutory factors listed in Minn. Stat. § 518.17,
subd. 1); Minn. Stat. § 518.175, subd . l( a) ("[T]he court shall, upon the request of either
parent , grant such parenting time on behalf of the child and a parent as will enable the child
and the parent to maintain a child to parent relationship th at will be in the best interests of the

13

39a.

27-FA-15-499

Filed in District Court
State of Minnesota
6/10/2019 11:30 AM

child."). When a court issues a "parenting time order, [the comt] may reserve a determination
as to the future establishment or expansion of a parent's parenting time." Minn. Stat. §
518.175, subd . l(a) .
84.
After analyzing the best interests factors as set fmth below, the Comt concludes
that it is in the children's best interests that Mr. Cook be awarded sole physical custody and
sole legal custody. Ms. Arimitsu shall be awarded parenting time in accordance with the order
below.
Analysis of Best Interests Factors
85.
The Court makes the following findings regarding each of the best interests
factors under Minn. Stat.§ 518.17 .
(1)

Children's physical, emotional, cultural. spiritual. and other needs, and
the effect of the proposed arrangements on the children's needs and
development

In July 2014, the parties entered into an agreement that the children would return to
Minnesota . Minnesota is and always has been the children's habitual residence and home state.
It is an undisputed fact that all four children have been unilaterally abducted and retained by Ms.
Arimitsu since she left Minnesota and the United States with the parties' children in July of 2014.
The ongoing emotional and psychological trauma being inflicted upon the children during the
course of their continued abduction and alienation is of grave concern. It is clear that the
children's retention in Japan has been traumatic and has impaired their needs and development.

Mr. Cook credibly testified that throughout July and August of 2014 he would regularly
Skype/Facetime with the children, as well as e-mail with them. During that time the minor child
repeatedly stated that he missed "daddy." 1 The minor children
and
wanted to
come home to Minnesota and were angry that they had to stay longer in Japan . In particular,
was very angry that his father did not come immediately and bring them home. On
September 15, 2014, Mr. Cook e-mailed Ms . Arimitsu to communicate that the children needed
to come home. Ms. Arimitsu refused. In an effort to alleviate the children's stress and to prepare
their transition home, Mr. Cook went to Japan to visit the children in October of 2014. During
this trip, Mr. Cook was able to spend a few days with the children but at no time was he allowed
to be unaccompanied by Ms. Arimitsu . Mr. Cook testified that the children were careful in their
communications while their mother was present but that the children did communicate to him
a deep desire to return home. Mr. Cook testified that after that trip, communications with the
children started to become more infrequent and when they did occur, their mother or their
grandparents were always by the children's side during Skype/ Facetime sessions. The last time
the children were allowed to speak with their father wa s in August of 2015, right after Mr. Cook
filed his Hague petition for their return.
1

Throughout this jud gment and decree, all of the Court 's reference s to Mr. Cook ' s testimony as well as
Ms. Jeanne Cook' s testimony shalJ be read as finding that testimony to be credible . The Court adopt s M r.
Cook 's testimony and Ms. Cook 's te stimony , refer enced in thi s judgment and decre e, as its finding s of fact.

14

40a.

27 -FA- 15-499

Flied in Distr ict Court
State of Minnesota
6/10/2019 11 :30 AM

Jeanne Cook, the children's paternal grandmother, testified to her painful observations
of the children during an attempt at enforcement of the Hague return order in September of 2016.
Ms . Cook testified that the children were hidden from view from M s. Arimitsu, her parents and
va1ious adults in the household during the approximately tlrree hours of this enforcement
attempt at Ms. Arimitsu's parents' residence. Ms . Cook testified that she was allowed in the
foyer of the residence and could hear adults screaming in Japanese. She also heard the older
children screaming angiily, but she could not hear or understand what was being said. On two
brief occasions during this attempt, Ms. Cook observed the minor child
trying to
communicate with Ms. Cook, but adults in the residence quicldy retrieved
to keep her from
contact with her grandmother . At the end of the attempt, Ms . Cook observed
peeking out
a window, desperately trying to see her grandmother and father . At the time this attempt at
enforcement occurred. it had been well over a year since Mr. Cook had been allowed to even
have basic communication with the children. Mr. Cook testified that he was not allowed to leave
the vehicle or to even enter the residence during the enforcement attempt.
Because of the complete alienation of the children, including concealment of the children,
by Ms. Arimitsu, the children's retention in Japan is detrimental to their well-being and
development. It is imperative for the children's well-being, psychologically, emotionally and
physically, that the children be immediately returned to Minnesota so that they ma y reestablish
their relationship with tlleir father, while also maintaining their relationship with tlleir mother.
The Court finds that this factor weighs in favor of Mr . Cook being awar ded sole legal
custody and sole phy sical custody along with the other parenting tim e provisions below.
(2)

Any special medical, mental health, or educational needs that the
children may have that may require special parenting arrangements or
access to recommended services

The children are victim s of parenta l child abduction, and they req_uire extensive
services to address the trauma that they have been subje cted to by their mother and maternal
gran dparents . Mr. Cook indicat ed that psychological exp erts and resources are readily
available through tile National Center for Missing and Exploited Children (NCMEC) and
through the Jacob Wetterling Fou ndation for the children when they return, to reunify them
with their father and to address the psycholog ical and emotional effects of parental abduction .
Mr. Cook, in his efforts to return the children , has amassed vast resources throu gh networks
of left-behind parent s and otller families that have endured or are enduring international
parental abduction.
The Comt finds that this factor weighs in favor of Mr. Cook being awarded sole legal
custody and sole physical custody along with the other parentin g time provi sions below.

15

41a.

27-FA-15-499

Filed in District Court
State of Minnesota

6/10/2019 11:30 AM

(3)

The 1·easonable preference of the children. if the comt deems the
children to be of sufficient ability. age, and manu-ity to express an
independent, reliable preference

Since November of 2016, this Court invited Ms. Arimitsu to produce the children for
an independent custody and parenting time evaluation to assist in determining what their best
interests would be in this matter. It was not until January of this year that Ms . Arirnitsu,
through counsel, indicated that she would be agreeable to such an evaluation, but only if a
date for trial was extended through the summer. At the same time, Ms. Arimitsu remained
steadfast in her contempt of this Courfs orders to have the children returned for such
evaluation to occur. Given the entire record of Ms. Arimitsu's contempt of this Comt's
orders, the Court does not believe that Ms. Arimitsu was sincere in her recent request for a
custody evaluation but instead finds that she offered to patticipate in an evaluation only as
part of her ongoing and unyielding efforts to delay this matter.
At the time of their abduction,
and
were eleven (11) years, and
and
were six (6) years old.
and
are now sixteen (16), and
and
are now
eleven (11). Their mother's abduction and ongoing contempt of court orders to return the
children to Minnesota have robbed each of the children of the opportunity to any independen t
voice or expression of their preferences . More specifically, Ms. Arimitsu has engaged in
ongoing parental alienation and manipulation of the children, and she has improperly
embroiled them in this court case, including by having them submit affidavits. Because of her
actions, Mr. Cook has not had any contact with the children since 2015. Thus, the children's
views are tainted not only by their mother's actions but also by the children's own
involvement , at their mother's direction, in this contentious and lengthy process. Moreover ,
under the circumstances, after having become acclimated for several years to Japan, the
reality is the children might well be resistant to being uprooted again. For all these reasons,
the Court would decline to give any weight to the children's views in this case, even if the
Court had neutral, objective and reliable evidence of such views, which it does not.
The Court finds that thi s factor i s neutral.
(4)

Whether domestic abuse has occurred in the parents' or either parent's
household or relationship; the natme and context of the domestic
abuse; and the implications of the domestic abuse for parenting and for
the children's safety. well-being, and developmental needs

There is no evidence of domestic abuse. Domestic abuse is not a factor in this family. This
factor is neutral.

(5)

Any physical, mental, or chemical health issue of a parent that affects
the children's safety 01· developmental needs

Mr . Cook credibly testified that both he and Ms. Arimitsu are physically healthy and
do not have any chemical health issues. Mr. Cook acknowledged that he ha s be en treated for

16

42a.

27-FA-15-499

Filed in Distr ict Court
State of Minnesota
6/10/2019 11:30 AM

situational depression and that Ms. Arimitsu also had been diagnosed with depression and
anxiety in the past. It is unknown if Ms. Arimitsu is currently being treated for her depression
and anxiety or any other mental or physical ailment that would directly impact the children's
safety or developmental needs. As stated before, this Court continues to be deeply concerned
with Ms. Arimitsu's lack of awareness on how her actions of abducting, concealing and
alienating the children from their father, his family, their community and their pre-abduction
childhood has affected the development and well-being of each of her children.
The Court finds that this factor weighs in favor of Mr. Cook being awarded sole legal
custody and sole physical custody along with the other parenting time provisions below.
(6)

The history and nature of each parent's patticipation in providing care
for the children

Both parents historically cared for the children. Ms. Arirnitsu was a homemaker for
many years through the children's pi-e-schoollives, while Mr. Cook had a traditional day job
during the work week Mr. Cook credibly testified that often he would have to use flexibility
in his work schedule to come home and assist Ms. Arimitsu with the children, especially in
coordinating their activities, lessons, and routine medical appointments . Prior to the parties'
separation, it is clear that both parents were equally involved in providing and participating
in the care of the children. While this factor ordinarily would favor both parents, Ms.
Arimitsu's more recent history has been chara cterized by parental abduction, alienation and
related conduct that is detrimental to the children's needs and well-being .
Accordingly, the Court finds that this factor weighs in favor of Mr. Cook being
awarded sole legal custody and sole physical custody along with the other parenting time
provisions below.
(7)

The willingness and ability of each parent to provide ongoing care for
the children; to meetthe children's ongoing developmental. emotional,
spititual, and cultural needs; and to maintain consistency and follow
through with parenting tinte

Mr. Cook credibly testified that he is willing and able to provide ongoing care for the
children. In particular, he is sensitive to their need for adjustment, therapy and reunification
upon their return to Minnesota . Mr. Cook testified extensively that he understands the
impo1tance of consistency and a safe but supervised parenting time schedule with their
mother. Additionally, Mr. Cook testified that he will suppmt their mother's relationship with
each child and encourage each child to develop and work towards a healthy relationship with
her, in coordination with their mental health treatment and recove1y due to their abduction
and alienation.
Mr. Cook testified that prior to the children's departure for Japan, the family, except
for Ms. Arirnitsu, were all baptized Catho lic and participated in their church community on
a regular basis. It is doubtful that the children have been allowed to practice or acknowledge
therr Catho lic faith while being held by their mother.

17

43a.

27-FA-15-499

Filed in District Court
Stale of Minnesota
6/10/2019 11:30 AM

This Comt bas grave concerns as to Ms. Arimitsu's willingness and ability to provide
the children with necessary professional supports, including therapy, upon their return. She
is also not likely to parti cipate with them in therapy, even if recommended by professionals .
The Court does not believe, give her extreme behavior to date, that she will maintain any
consistency and follow-through in meeting the children's deep psychological and emotional
needs in light of their abduction, nor will she support parenting time with their father or
support their need to reestablish a relationship with their father.
The Court finds that this factor weighs in favor of Mr . Cook being awarded sole legal
custody and sole physical custody along with the other parenting time provisions below.
(8)

The effect on the children's well-being and development of changes to
home. school, and community

All four children were born and raised in Minnesota , and up until their abduction by
Ms. Arimitsu, they attended private Catholic school at Providence Academy in Plymouth,
Minnesota. They shared friends that they had grown up with in their school and community
since their birth .
Mr. Cook cun-ently resides in a three-bedroom apartment in the Plymouth area and in
the Wayzata School District--the same community in which the children were raised and were
well-established. Through the actions of their mother, the children have been deprived of their
father for almost five years. They have also been deprived of long-time friendships, their
school, community, extended family and the stability that they had in Minnesota.
The children are currently enrolled in the Doshisha International School Kyoto
(DISK) in Japan. Both
and
are musicians and excel in piano and violin, which are
instruments they started many years prior to their abduction. Mr. Cook credibly testified that
and
continue musical instruction from what information he receives from the
DISK website. Their prior musical instructors are still available to them in Minnesota.
Mr. Cook credibly testified that the children are half Japanese, which was never an issue
in their Minnesota community. He testified that in Japanese culture, the children are not
accepted as Japanese because they are bi-racial. In Japan they are regarded as "h alf of a person."
Their cuuent schooling at DISK in Japan is specifically quarantined for "mixed race" children .
In Minnesota, they are accepted as individuals for who they are, and their heritage and the
culture they receive from both parents are celebrated as opposed to being minimized and
disrespected.

The children were raised from b.i.tthas fluent English speakers. At the time tl1echildren
left for Japan,
and
could speak only very limited Japanese, and the two younger
children could only understand certain phrases and could not speak Japanese. Mr. Cook credibly
testified that he had been keepjng up with the children's grades at DISK through their website.
Mile and
struggle at DISK, especially in language and reading . While they are not allowed
any contact with their father, it is assumed from their academic struggles that they are not

18

44a.

27- FA-15-499

flourishing in the environment in Japan. Mr. Cook also testified that
DISK present evidence that she does not read English fluently.

Filed in Distr ict Courl
State of Minnesota
6/10/2019 11 :30 AM

's declining grades at

The Court finds that this factor weighs in favor of Mr. Cook being awarded sole legal
custody and sole physical custody along with the other parenting time provisions below.

(9)

The effect of the proposed arrangements on the ongoing relationships
between the children and each parent, siblings. and other significant
persons in the children's life

as honorabl e
Mr. Cook credibly testified as to each child's personality. He described
and always striving to follow the rules .
won a virtue award at Providence Academy.
is kind and "incorruptible ."
was the kid at school who was always empathetic to those in
need . Mr. Cook recalled that
would always sit with the misfits in school so that everyone
would feel accepted.
is "all boy," adventurous, clever and always fun to be around.
is sweet, and was always happy , optimistic and fearless. Mr. Cook described
as the leader
of the siblings, but since the children's abduction, Eva n's role ha s been cast as th e "man" of the
family, which Mr. Cook is sure put s added stress on him.
Jeanne Cook, the children's paternal grandmother, testified that she is no longer welcome
to visit the children, and she ha s not seen them since her participation in the Hague enforcement
attempt. Additionally, the children have not seen their paternal aunt or th eir cousins with whom
they often spent vacations prior to their abduction. The children's return to Minn esota would reintroduce them to valuable familial relationships that M s. Arimitsu has dep1ived them of for
many years .
Mr. Cook credibly testified that when the children return , there will be extensive ne ed for
reunification and therapy for each child. He testified that he felt that Ms. Arirnitsu's participation
and ongoing presence, either in-person or via electronic comm unication , will be vital for their
recovery. Mr. Cook testified that he kn ows first-hand how devastating it is to be removed as a
parent and how important each parent is in their children's lives. It is anticipated that a strength
for the children will be their bond with each other in that they have had a shared experience and
can lean on each other for support, in addition to receiving extensive therapy to assist in their
recovery .
The Court finds that this factor weighs in favor of Mr. Cook being awarded sole legal
custody and sole ph ysical custody along with tl1e other parenting time provisions below.
(10)

The benefit to the children in maximizing parenting time with both
parents and the detriment to the children in Iinliting parenting time
with either pa1·ent

Mr. Cook credibly testified that he will supp ort Ms. Alimitsu's participation and ongoing
presence as the children 's mother and will comply with all recommendations of tl1e children's
therapists to support a healthy relationship with their mother . Mr. Cook requests that Ms.
Arirnitsu's parenting time, at least for the short -te1m, be supervised to reduce the risk of the

19

45a.

27-FA-15-499

Filed In District Court
State of Minnesota
6/10/201911:30 AM

children again being abducted and to allow them time to recover and to fully reunite with their
father and their home in Minneso ta. Because of Ms . Ari.mitsu's abduction and contempt of
comt orders requiring the return of the children for the past almost five (5) years, the benefit of
limiting and requiring supervision of Ms. Arimitsu in her parenting time with the children clearly
outweighs any detriment to the children. In the absence of supervision, the Court would be
putting the children at risk of further harm from continued or renewed abduction or alienation.
Additionally, Ms. Ari.mitsu's parenting time should be subject to the coordinated care and
recommendations of the children's psychologists specializing in recovery of parental alienation
and abduction.
The Court finds that this factor weighs in favor of Mr. Cook being awarded sole legal
custody and sole physical custody along with the other parenting time provisions below .
(11)

Except in cases in which domestic abuse as described in clause (4) has
occurred, the disposition of each parent to support the children's
relationship with the other parent and to encourage and permit frem1ent
and continuing contact between the children and the othe1·parent

Throughout the history of this case, Ms. Arimitsu has demonstrated hostility toward Mr.
Cook and has actively thwarted the children's relationship and contact with their father. "A
majority of courts, including Minnesota courts, agrees that a sustained course of conduct by one
parent designed to diminish a child's relationship with the other parent is unac ceptable and may
be grounds for denying or modifying custody." Lemcke v. Lemcke, 623 N .W .2d 916, 919 (Minn .
Ct. App. 2001); seealsoNies v. Nies, 407 N.W.2d 484, 487 (Minn. Ct. App. 1987) (noting district
comt's finding that "consistent interference with visitation endangered the children's emotional
health and development"); Chafin v. Rude, 391 N.W.2d 882, 886 (Minn . Ct App . 1986)
(affirming modification of custody based on expert's opinion that mother's inability or
unwillingness to support healthy relationship between son and his father posed real and serious
danger to son's healthy development) .
Recently, in Amarreh v.Amarreh, tl1eMinnesota Comt of Appeals explained that
Intetference with a parent-child relationship, or parental alienation, is sometimes
referred to as "psychological kidnapping," and means "any constellation of
behaviors by a parent, whether conscious or unconscious, that could evoke a
disturbance in the relationship between a child and the targeted parent." Sandi S.
Varnado, InappropriateParental Influence:A New App for Tort Law and Upgraded
Relieffor AlienatedParents,61 DePaul L. Rev. 113, 120-21 (Fall 2011) (quotation
omitted) (listing parental alienation techniques, including "cutting off the other
parent's access to information about the child[ren], . . . denying him infmmation
about the children's activities, or access to tl1e child's medical or school records,"
and limiting "the otl1er parent's contact with the child by refusing to allow
telephone conversations or visits" (quotation omitted)).
918 N.W.2d 228, 232 (Minn. Ct App. 2018).

20

46a.

27-FA-15-499

Filed In District Cour t
Sta le of Minnesota
6/10/2 01911 :30 AM

Ms . Arimitsu has engaged in a prolonged campaign over a period of years of the worst
kind of interference with Mr . Cook's parental relationship with his children. She has concealed
the children from Mr. Cook physically, emotionally, psychologically and spiritually. Ms.
Arnnitsu bas been consistent in her contempt of the Hague Conventiion return orders from the
Japanese court issued on October 30, 20 15, and January 28, 2016, and all orders issued from
this Court from December 2, 2016, to the present that directed her to return the children to
Minnesota and that addressed related matters. In addition to refusing to reh1m or allow access
of the children with their father, Ms . Arimitsu has continuously refused to allow or support any
form of communication electronic or otherwise with Mr. Cook.
The Court finds that this factor weighs in favor of Mr. Cook being awarded sole legal
custody and sole physical custody along with the other parenting time provisions below.
(12)

The willingness and ability of parents to coopei-ate in the rearing of their
children; to maximize sharing information and minimize exposure of the
children to parental conflict; and to utilize methods for resolving
disputes regarding any maim· decision concerning the life of the children

The record in this case reflects a consistent pattern by Ms . Arirnitsu over the past nearly
five years of refusing to coopera te with Mr. Cook in any way in the rearing of the children .
Mr. Cook credibly testified that Ms. Arimitsu refused to be present in each and every
mediation held in Japan in the Hague proceedings . As anoth er example , Mr . Cook recalled
the ea1thquake that occurred in Japan late in the summer of 2018 in the vicinity of the
children's school and their maternal grandparents' home. Mr. Cook testified that he wa s
terrified for the children's safety, and he attempted to contact Ms . Arimi tsu to find out if she
and the children were safe. Ms. Arimitsu did not reply . Accordingly, Mr. Cook contacted the
U.S . D epartment of State to conduc t a welfare check on the children .
Ms . Arimit su is unwilling to cooperate in the mo st basic sharing of info1mation or to
participat e in good faith toward any dispute resoluti on. Ms . Arimit su's unwillingnes s to
engage in any sort of communication with Mr. Cook, the children 's father, contin uously pots
the children in the center of her conflict with Mr . Cook.
Mr. Cook credibly testified that he wants to cooperate with Ms. Ar irnitsu in th e rearing
of the children and he has continu ed to try to do so over and over for the pa st nearly five
years . Mr . Cook testified that he is willing to communicate and appropriately participate in
mediation or any other dispute resolution method to ensure that the children are taken out of
the center of parental conflict.
The Court finds that this factor weighs in favor of Mr . Cook being awarded sole legal
custody and sole physical custody along with the other parentin g time pro visions below .
86.
In sum, after analyzing each of the above factors and pursuant t o Minn. Stat.
§518.17, it is the best interests of the children that they b e immediately returned to their
father's home in Minne sota. It is in the children 's be st interests that Mr . Cook be awarded
permanent sole legal custody and permanent sole physical custody of the minor children,

21

47a.

27-FA-15-499

Filed 111District Court
State of Minnesota
6/10/2019 11 :30 AM

subject to supervised parenting time with Ms. Arirnitsu upon her communication to this Comt
as to her plan to return to the United States with the children or to remain in Japan without
the children.
87.
Ms. Arimitsu abducted the children, and she has held the children with no
physical access to or communication with their father since October 2014 . She has allowed
them no communication with their father since August of 2015. It is the best interests of the
children that they be immediately returned to their father's home in Minnesota, where they
can have access to both parents and can begin the process of healing from the effects of their
abduction .
88.
In the event that Ms . Arirnitsu elects to return with the children, she shall have
in-person supervised parenting time as recommended by the children's psychologists and
therapy supports . The Court is ordering Ms . Arimitsu to cooperate with the children's therapy
and to follow all recommendations . In the event that Ms . Arirnitsu elects to remain in Japan
without the children, she shall have statutmy access of information to the children's school ,
medical and other records of their welfare and she shall have communication via phone or
other electronic mean s as often as recommended by the children 's therapists and as often as
the children are comfortable. Upon recommendation of the children's therapi sts, parenting
time can be re-visited by motion from either party .
89.
Under Minn. Stat. § 518.175, subd. l(g), " [i]n the absence of other evidence,
there is a rebuttable presumption that a parent is entitled to receive a minimum of 25 percent
of the parenting time for the child." As demonstrated above, Mr. Cook has rebutted this
presumption, and the Court finds that unrestricted and unconditioned parenting time with
Ms. Arimitsu is likely to endanger the children 's physica l or emotional health or impair the
children's emotional development. For all of these reasons, including the Court's
consideration of tl1e children's best interests, the Court shall award Mr. Cook sole legal
custody and sole physical custody and will order the other parenting time provisions below.
EMPLOYMENT AND INCOME
90.
Mr . Cook is employed at Exceleron M edical, Inc. and earns an annual salary
of$63,000 or a gross monthly income of$5 ,250. Pr ior to this employment, from 2015 through
2017, Mr. Cook held employment through Staffing Solutions and Boston Scientific as a
Product Builder. Mr. Cook testified that in these prior positions he earned less income but the
position s allowed him the time and flexibility in 2015, 2016 and 20 17 to be present and
navigat e the legal proceedings in Japan for the return of the pa1iies' childr en. Mr. Cook now
resides in a three-bedroom apartment with a pool and fitness amenities in the Wayzata School
District with a monthly budget for him and the children of $4,249.80.
91.
Ms . Arirnitsu provided no current information as to her employment or her
ability to support herself or the parties' children. Additionally, Ms. Ar imitsu failed to provide
information regarding her budget, housing or lifestyle.

22

48a.

27-FA - 15-499

Filed in District Court
State of Minnesota
6/10/2019 11:30 AM

92.
In her written response to Mr . Cook's interrogatories, dated July 27, 2015, Ms.
Arimitsu did provide the following information: a) that she received a B.A. in studio art from
St. Catherine's University in 2004; b) that from 1996-2001 she worked as a label design
specialist for Beckman Coulter, Inc., earning a salary of approximately $35,000 annually; c)
that since 2001, she was a full-time homemaker ; d) that in 2014 she applied and was offered
positions at both Boston Scientific and Caribou Coffee; and e) that in July 2015, she was
pursuing employment teaching English to young students in Japan.
93.
Mr. Cook's Exhibit 16, dated March 15, 2001, showed Ms. Arimitsu's 2001
Individual Performance Pay and Incentive Compensation Summary from her employment as
a senior graphic designer at Beckman Coulter, In c., in which she earned $38,500.38 in that
position .
94.
Based on the information provided by Ms. Arimitsu in her interrogatories and
her 2001 Beckman Coulter, Inc., compensation summ ary, if Ms . Arimitsu is not cun-ently
employed, she is capable and is qualified for full-time emp loyment, either as an English as
Second Language (ESL) teacher or as a Graphic Designer. With no earnings or income
information from Ms. Arimitsu, this Court will look to the United States Department of
Labor, Bureau of Labor Statistics (BLS), to determine Ms. Arimitsu's earnings or imputed
earnings.
95.
In 2018, the BLS median income for an ESL teacher was $53,630 annually
throughout the United States and for a Graphic Designer was $53,496 annually in Minnesota .
Based on the above information, this Court will determine that Ms. Arimitsu's income or
imputed income is the lesser of the two medians, or $53,496 annua lly or $4,458 gross income
per month.
CHILD SUPPORT

96.
Child Support Laws. Minnesota child support laws are codified in Minn. Stat.
§518A and are composed of three elements: (1) basic child support; (2) work-related or
education -related child care costs; and (3) medical and dental insurance expenses, including
both the premium cost for said insurance and the cost of uninsured or unreimbursed medical
and dental expenses. Both parties have a statut ory obligation in the financial support of their
four children, and child support shall be calculated according to the Minnesota child support
guidelines under the facts contained in this judgment and decree.
97.
Calculations. For the purposes of standard guideline support and in accordance
with Minn. Stat. §518A. 32, subd .(1)(2)(1), Ms. Arimitsu's gross monthly potential income is
$4,458.00 and ML Cook's gross monthly income is $5,250.00. The combined monthly
parental income available for child support (PICS) is $9,708.00. Ms . Arimitsu's percentage
share of PICS is 46%. Mr. Cook's percentage share of PICS is 54%. See Pet. Exhibit 20,
Child Support Guidelines Worksheet , attached and incorporated by reference.
98.
Basic Child Support . Commencing on July 1, 2019, Ms. Arimitsu shall pay to
Mr. Cook monthly basic child support in the amount of $1,219.00 per month. This amount

23

49a.

27-FA-15 -499

Filed In District Court
State of Minnesota
6/10/2019 11 :30 AM

accounts for Mr. Cook being awarded a parenting expense adjustment of 86% of overnights
and Ms . Arimitsu being awarded a parenting expense adjustment of 14% in overnight
equivalents. Child supp01t shall continue until such time as the youngest minor child attains
the age of 18 years, or is under age 20 years and is attending secondary school, or dies, is
emancipated , or is otherwise self-supporting, whichever occurs first, at which time any child
support obligation shall terminate. Basic child support payments sha ll be subject to cost-ofliving increases. Child suppott payments are payable by Ms . Arimitsu to Mr. Cook on the
first of each month .
99.
Child Care Support. There are currently no work-related or educ ation-related
child care costs. Child care support shall be reserved.
100. Medical Support. Mr . Cook has medical and dental insurance available
through his employment for the minor children's benefit. Due to fluctuating costs of
healthcare , Mr. Cook has requested that medical support be reserved pending actua l costs of
coverage when the children return. Th e Court has reserved medical supp01t below.
101. Unreimbursed Medical Expenses . Each party shall be responsible for his or her
PICS percentage of the cost of any prescriptions, co-pays, deductibl es, dental, orthodontia ,
mental health or optical expenses, including conective lenses of the children tha t are not
covered by insurance . Mr. Cook shall be responsible for 54% of the children's unreimburs ed
and insured medical and dental costs, and Ms. Arimitsu shall be responsible for 46% of the
children's umeimbursed and uninsured medical and dental costs.

SPOUSAL MAINTENANCE
102.

Mr . Cook is not requesting spousal maintenance from Ms . Arimitsu.

103. M s. Arimitsu, in her answer and counter-petition, dated May 11, 2015,
requested reasonable temporary /re habilitative spousal maintenance based on her education
and employment history . Since the pendency of this action, Ms. Arimitsu has not requested
any temporaty award of spousa l maintenance . She also did not comply with the Court's trial
order filed Febrnary 15, 2019, which did not include spousal maintenance among the issues
listed for trial and which required a party "to promptly contact the other party and the Court"
if the party believed there weJe other issues for trial. Ms. Arimits u did not identify spousa l
maintenance as an issue for tria l. The trial order further required the patties to exchange
exhibits regarding any disputed issues and to appear for trial to present testimony and other
evidence. Ms. Arimitsu exchanged no exhibits and did not appear for trial, and the Court
proceeded against her by default. Pursua nt to Minn. Stat. §518.552, subd . (1), Ms. Arimitsu
must demons trate a need fm spousal maintenance to suppor t her request. See also Snyder v.
Snyder, 212 N. W.2d 869,875 (Minn. 1973). She has not done so and has waived any spousa l
main tenance claim she might have had .
104. Further, Mr . Cook credibly contended that M s. Arimitsu is not in need of
spousal maintenance given her educatio n and employment history. The Court incorporates
by reference its findin gs above regarding its determina tion of Ms . Arimitsu's income. Based

24

50a.

27-FA-15-499

Filed in District Court
State of Minnesota

6/10/2019 11 :30 AM

on the evidence presented and the record of these proceedings, Ms. Arimitsu has been living
independently in Japan since July 2014. She has provided no demonstration of a need, no
income, no budget, and no information to support her request. The Court further finds that
a denial of spousal maintenance is supported by the parties' similar monthly income, the
division of ma rital assets, the patties ' liabilities, and the allocation of specific marital property.
Ms. Arimitsu's request for spousal maintenance is denied .
105. Accordingly, having reviewed evidence of the parties' financial resources and
the parties' financial positions pursuant to the factors set forth in Minn. Stat. § 518.552, the
Court determines that each party can pay his or her own living expenses and neither party is
in need of, nor shall receive, spousal maintenance from the other party, now or in the future.
The Court will be divested of jurisdiction to award spousal maintenance in the future .

NONMARITALPROPERTY
106. Ms. Arimitsu in her answer and counter-petition made a claim that the "cash"
in her possession was nonmarital property and consisted of funds she had prior to the
marriage and cash that was gifted to her from her parents .
107. The proponent of a nonmarital property claim bears tlie bu rden of proof and
must prove the necessary underlying facts by a preponderance of the evidence. See Zander v.
Zander, 720 N .W.2d 360 (Minn. Ct. App 2006). Ms. Arimitsu has provided no information
to identify or account for the "cash" in her possession, nor has she supplied this Court with
any evidence that such "cash" is nonmarital. Therefore, all assets and "cash " of the parties'
marriage shall be included in the marital balances to be equitably divided as stated in
Petitioner's Exhibit 32 (attached).
108. Mr. Cook is the owner of a Boston Scientific 401(k) account, with a balance of
$4,729.46, that is from his employment in 2016-2017. Because this account was acquired by
Mr. Cook well over a year after the parties' separation, it is just and equitab le that the account
be awarded to Mr. Cook as nonmarital property, and therefore the balance of this account is
not included in the marital preliminary net worth allocation.

ALLOCATION OF MARITAL PROPERTY AND DEBTS
109. The Initial Case Management Conference (ICMC) order provided that
"[p]ursuant to the Standing Order issued by the Presiding Judge of Family Court dated
November 7, 2003, the statut01y valuation date for assets and debts is the date of the Initial
Case Management Conference (ICMC). This designation does not preclude either party from
arguing that another date is fair and equitable." See Minn . Stat. §518.58, subd. 1 (defining
the stahlto1y valuation date but providing that the comt may make specific findings tha t
another date of valuation is fair and equitable); see also Grigsbyv. Grigsby, 648 N.W.2d 716,
720 (Minn. Ct. App. 2002) (district court has broad discretion in setting the valuation date) .
110. The ICMC date in this proceeding occurred July 23, 2015. Mr. Cook, however,
argued that this Court should recognize that Ms. Arimitsu's abduction of the children created

25

51a.

27-FA-15-499

Flied in Distric t Court
State o f Minnesota
6/10/2019 11:30 AM

challenging circumstances for Mr. Cook in his ability to preserve marital assets in his control
and that the children's abduction served to deplete assets in both paities control.
111. Th is Court finds that, based on the unique circumstances and obstacles Mr.
Cook faced in this case and specifically the circumstances that occurred because Ms. Arimitsu
abducted the children to Japan and the amount of assets lost and the increase in liabilities
gained in association with the children's abduction , it is fair and equitable that the valuation
of the marital assets, including the marital home, be accounted for with encumbrances and as
if the home was not foreclosed up011. Additionally , all assets and liabilities shall be accounted
for as listed in Mr. Cook's Exhibit 32 to ensure that both parties will share equitably in both
the asset and associated liabilitie s. The Court adopt s the marital balance sheet as presented
into evidence by Mr . Cook as Exhibit 32 and apportions the marital propert y and debts
according to that document and as set forth below .

HOMESTEAD
112. At the time of the commencement of this proceeding, the parties were the
owners of a homestead located at 6264 Merrimac Lane N. in Maple Grove, Minnesota,
55311, legally described as:
BONAIRE ADD 04

113. The parties resided in this homestead throughout the marriage and until Ms .
Arimitsu went to Japan in July 2014. Mr . Arimitsu continued to reside in the home until it
was foreclosed on February 8, 2016.
114. The homestead had an estimat ed market value on or about June 8, 2015, of
$524,500. The homestead was encumbered with a mo1tgage balanc e of $389,638.70 and a
home equity line of credit (HELOC) with an approximate balance of $42,965.25 .
115. Mr . Cook credibly testified that he and Ms . Arimitsu agreed to sell the prop erty
before Ms. Arimitsu took the children on "vacation" under their written agreement, dated
July 8, 2014. Mr. Cook further testified that by Decemb er 2014, it was clear that Ms . Arimit su
was engaged in active abduction of the children. Mr. Cook testified that selling the home and
securing permanent employment that would support the payments of the mortgage became
impo ssible in light of the commencemen t of this proceeding and the lega l requirements that
he be present in Japan for the many Hague pro ceedings which we re initiated in August of
2015. By March 2016, the home was lost due to foreclosure, with ongoing litigation still
pending in both J apan in the Hague proceedings and in this pro ceeding .
116. A s indicated , thi s Court fmds that given the unique circum stances and obstacles
Mr. Cook faced in this case, the marita l homestead shall be accounted for with encumbran ces
and as if the hom e was not foreclosed upon .

26

52a.

27-FA-15-499

Filed in District Court
State of Minnesota
6/10/2019 11:30 AM

BANK ACCOUNTS

117. The parties were owners of various checking and savings accounts that will be
equitably divided in this judgment and decree, as follows.
118. Ms. Arimits u shall be awarded: a) the amount transferred from the US Bank
Joint Checking account to Ms. Arimitsu's individual TCF account in the amount of
$20,402.36; b) the proceeds transferred from the US Bank Savings account for the minor child,
to a TCF Savings in Ms. Arimitsu's name with a balance of $14,034.80; c) the proceeds
transferred from the US Bank Savings account to a TCF Savings in M s. Arimitsu's name for
the minor child,
with a balance of $15,177.31; d) the proceeds transfened from the US
Bank Savings account to a TCF Savings in Ms. Arimitsu's name for the minor child,
with a balance of $6,462.83; and e) the proceeds transferred from the US Bank Savings
account to a TCF Savings in Ms. Arimitsu's nam e for the minor child,
with a balan ce
of $13,813,01.
119. Mr. Cook shall be awarded: a) the ownership of the US Bank Checking
account, which shall be closed; b) the ownership of the US Bank Joint Savings account with
a balance of $299.07, which shall be closed; c) the Wells Fargo Business Checking account
for Mr . Cook's business of E2M2 LLC with a balance of $858.34; and d) the Wells Fargo
Savings account for Mr. Cook's business ofE2M2 LLC with a balance of$307.27.
PERSONAL PROPERTY

120. Pursuant to Petitioner' s Exhibit 24, the parties' personal property has been
equitably divided upon Mr . Cook's move from the marital residence on or about August 6,
2016. Each party shall be awarded the household goods and furnishings located in and
around their respective residences and as previously divided.
121. The Court finds that each of the property division and related provisions in this
judgmen t and decree are fair and equitable to the parties and are reflected in the conclu sion s
oflaw below.
BUSJNESSINTERESTS

122. Mr. Cook was the sole owner of E2M2, L.L.C . which has no value and was
administratively terminated with the Minnesota Secretary of State on June 10, 2015.
123. Mr. Cook shall be awarded this busin ess and shall assume any liabilities
associated with the bu siness and he shall hold Ms . Arimitsu harmless from any such liabilities.
MOTOR VEHICLES

124. The paities were owners of a 2006 Toyota Avalon with a value of $7,643 and
a 2004 Toyota Sienna with a value of$8,756 . Both vehicles have since been sold by Mr. Cook.
It is fair and equitable that the value of both vehicles be credited as an award to Mr . Cook.

27

53a.

27-FA-15-499

Flied in District Court
State of Minnesota
6/10/2019 11:30 AM

RETilIBMENT ACCOUNTS

125. Mr. Cook was the owner of a Pershing IRA with a balance of $18,533.53 as of
April 1, 2015. Mr. Cook testified that the total balance ofthis account was liquidated for the
purpose of covering costs and living expenses while litigating the return of the children from
Japan in the Hague proceedings.
126. As indicated above, the Court has found that Mr . Cook has a Boston Scientific
401(k) account that shall be deemed nonmarita1 property that shall be awarded to Mr. Cook,
free and clear of any claim on the part of Ms. Arimitsu.
HEALTH INSURANCE

127. Mr. Cook has health insurance coverage through his employment. It is
unlmown whether Ms. Arimitsu has health insurance coverage becau se she did not provide
the Court with any information . As of the date of entry of this judgment and decree, each
party shall be responsible for providing his and her own individual health and dental insurance
coverage.
MARITAL DEBTS

128. The parties incurred various debts throughout the marriage. Mr. Cook filed for
Chapter 7 Banlm1ptcy and was granted a discharge under Section 727 of Title 11, United
States Code, on July 2, 2018. Ms . Arimitsu did not provide any information to the Court as
to her debt or liabiliti es.
129. The Court finds that any debt not included in Mr. Cook's Chapter 7 Bankruptcy
or any debt not disclosed by Ms. Arirnitsu shall be the sole responsibility of Ms . Arimitsu who
shall hold Mr. Cook harmle ss from any obligation on such debt.
MARITAL EQUALIZER PAYMENT

130. With reference to Petitioner's Exhibit 32, and the marital property division
contained in this judgment and decree, the total preliminary net worth allocation of the
marital estate is $198,183.57. In most cases, the Court would ordinarily divide the total net
worth amount equally between the parties, with each receiving in this case $99,091.79. Of
the total allocation so far, Ms. Arimitsu has received $69,890.31 in marital assets, and Mr.
Cook has received $17,863.68 in marital assets, in addition to his discharge of all marital debt
known to him in his Chapter 7 Bankrupt cy Discharge. Putting the parties in the same position
they would have been in but for Ms. Arirnitsu's abduction of the children to Japan and the
circumstance outlined in this judgment and decree, Ms. Arimitsu would be owed $29,201.48
from the marital estate, and Mr. Cook would be owed $81,228.11 from d1e marit al estate.
However, taking into account that the equity of the home was lost because of the foreclosure,
which directly stemmed from Ms. Arimitsu's abduction and related conduct, and recognizing
that the home foreclosure accounts for the shortfall for each party, the Court finds that it is

28

54a.

27-FA-15-499

Filed in District Court
State of Minnesota

6/101201911:30 AM

fair and equitable to equalize the amounts that each pa1ty has actually received. Therefore,
the total adjusted net worth allocation actually received by the parties is $87,753.99 (Mr.

Cook's $17,863.68 + Ms. Arimitsu's $69,890.31). An equitable division of this amount is
$43,877 for each party. As an adjusted marital equalizer , Ms. Arimitsu shall pay to Mr. Cook
the amount of $26,013.32 ($17,863.68 + $26,013.32 = $43,877).
ATTORNEY'S FEES

131.
Mr. Cook moved for an award of conduct-based attorney's fees in this action.
A district court may, but is not required to, award cond uct-based attorney's fees, costs, and
disbursements "against a party who unreasonably contribut es to the length or expense of the
proceeding." Minn. Stat.§ 518.14, subd. l; Crosbyv. Crosby,587 N.W.2d292, 298 (Minn. Ct.
App. 1998) (An award of attorney fees "rests almost entirely within the discretion of the trial
court and will not be disturbed absent a clear abuse of discretion."). "Fees, costs, and
disbursements provided for in this section . .. may be awarded at any point in the proceeding
.... " Minn. Stat.§ 518.14, subd. 1. A showing of bad faith is not required under Minn. Stat.
§ 518.14, subd. I. See Geskev. Marcolina, 624 N.W.2d 813, 818-19 (Minn. Ct. App. 2001).
132. The Comt previously awarded Mr. Cook conduct-based attorney's fees,
including in an order filed on January 22, 2019, which awarded him cond uct-based attorney's
fees and costs incurred from May 18, 2018, through November 19, 2018. The Court finds that
Mr. Cook is entitled to an add itional award of conduct-based attorney's fees because Ms .
Arimi tsu has continued to unreasonably contribute to the length or expense of the proceeding
since the January 22, 2019, order. In particular, Ms. Arimitsu has continued to engage in
lengthy delay tactics and frivolous motions and other litigation, includin g filing a second
appeal with the Minnesota Court of Appeals relating to already-decided subject matter
jurisdiction. Her appeal was promptly and summaril y denied by the Minnesota Court of
Appea ls. Ms. Arimitsu has been actively engaged in contempt of this Court and contempt of
the Japanese court's orders when the Hague orders did not suit her agenda in her continuin g
abduction of the children. Ms. Arimitsu's intentional actions and intentional omissions served
to delay and otherwise obstruct this proceeding . It now appears that Ms. Arimitsu never had
any intent to actively participate in the trial or other aspects of this proceeding but instead all
of her efforts were aimed at delay, perhaps with the intent to delay until the children are
emancipated.
133. Among other matters, Mr. Cook was forced to incur the cost of trial preparation
and trial, only to have Ms. Arirnitsu not appear at trial despite making it appear, for a time,
as if she would part icipate and would appear for trial.
134. In reviewing the referenced items on the invoice attached to the Affidavit of
Victoria M .B. Taylor dated June 5, 2019, tl1e Court concludes that all items are directly
attributable to Ms. Arimits u's conduct in unreasonab ly contributing to the length and expense
of these proceedings. The Court further finds that this amount reflects a reasonable value of
fees incurred by Mr. Cook based on billing rates that are somewhat below the average for a
case of this complexity. The Court finds that such fees are not excessive and that coun sel for

29

55a.

27-FA-15-499

Flied ln District Court
State of Minnesota

6/10/201911:30 AM

Mr. Cook complied with Rule 119. For the above reasons, Mr. Cook is entitled to recover
from Ms. Arimitsu conduct-based attorney fees in the amount of$ 6,148.13.
CONTEMPT OF COURT

135. Ms. Arimitsu's further contempt of this court's ongoing orders from December
2, 2016, through March 12,2019, and her non-compliance with the Hague Conventiionretum
orders from October 2015 through February 2017 shall be addressed by separate order.
RETURN OF THE CHILDREN TO MINNESOTA

136.

This Court finds and determines that all four children shall be and must be
returned immediately to their father's home in the United States, State of Minnesota . In the
present case, on January 13, 2015, Mr. Cook filed a petition for dissolution of maniage with
children in Hennepin County District Court in the State of Minnesota. On May 11, 2015, Ms.
Arimitsu filed an answer and counter-petition. This matter has remained active and open in
this Court since that time.
137. In the Hague proceedings, the Osaka (Japan) High Court, 9th Civil Division,
issued an order on January 28, 2016, ordering Ms . Arirnitsu to return all four children to the
United States pursuant to the Hague Convention. Ms. Arirnitsu failed to comply with the
return order on all levels of enforcement. Ms. Arirnitsu put forth appea l after appeal in the
Japanese courts, and finally on Febrnary 17, 2017, a court in Japan completely rescinded the
return orders in abject violation of the Hague Convention . The Japane se orders dated
December 21, 2017, January 12, 2018, and March 26, 2018, all flow in direct violation of
Articles 11-20 of the Hague Convention. As such, this Court has a duty to uphold the tenets
of the Hague Convention-even if a sister signatory fails to do so--and Japan has failed in this
case at every juncture--to the detriment of destroying the childhood of each of the four
children present in this case.
138. Comity is at the heart of the Hague Convention, and accordingly, comts in the
United States must normally accord considerable deference to foreign court orders issued
under the Hague Convention. SeeMiller v. Miller, 240 F.3d 392,400 (4th Cir. 2001). However ,
a U.S. court may decline to extend comity to a foreign court order in some circumstances,
such as where the foreign court order clearly misinterprets the Hague Convention or fails to
meet a minimum standard of reasonableness. See Smedley v. Smedley, 772 F.3d 184, 189 (4th
Cir. 2014). The United States Court of Appeals for the Ninth Circuit recites that "we may
properly decline to extend comity to the [foreign] comt's determination if it clearly
misinterprets the Hague Convention, contravenes the Convention's fundamental premises or
objectives, or fails to meet a minimum standard of reasonableness." As-vestav. Petroutsas,580
F.3d 1000, 1014 (9th Cir. 2009); See also Smedley, 772 F.3d at 189.
139. The Hague Convention has two objectives: (1) "to secure the prompt return of
children wrongfully removed to or retained in any Contracting State;" and (2) "to ensure that
rights of custody and of access under the law of one Contracting State are effectively respected

30

56a.

27-FA-15 -499

Filed in Distr ict Court
State of Minnesota
6/10/201 9 11:30 AM

in the other Contracting States." Silverman v. Silverman, 338 F.3d 886, 897 (8th Cir. 2003).
The country of Japan has failed to uphold these objectives in the present case.
140. The United States Constitution provides that international treaties, along with
the Constitution and federal statues, are the supreme law of the land. See U.S. CONST. art.
VI, cl. 2. ("This Constitution, and the Laws of the United States which shall be made in
pursuance thereof; and all treaties made, or which shall be made, under the Authority of the
United States, shall be the Supreme Law of the Land ."). If conflict exists between an
international treaty and a federal statute, the most recent provision controls. See Chae Chan
Ping v. U.S., 130 U.S. 581, 600 (1889) (providing that if conflict between a federal law and a
treaty is unavoidable, the most recent expression of the sovereign controls). Federal courts
must have the power to vacate state custody determinations and other state comt orders that
violate or frustrate the purposes of the Hague Convention . Silverman, 338 F.3d at 894.
141. Unfortunately, Japan continues to refuse to honor its obligations under the
Hague Convention and continues to refuse remedy for enforcement for the return of children
through the Hague Convention. The latest orders issued by the Japanese comt in rescinding
the return of these children are undeniable proof of Japan's continued violation of the Hague
Convention. Japan's violations are harmful to these abducted children's best interests and
well-being. Mr. Cook introduced evidence that Japan has been consistently flagged
internationally in violation of the Hague Convention.
142. The latest orders from the Osaka High Court provide additional examples of a
substantia l violation of the Hague Convention . The February 17, 2017, order reversed the
order to return the children based on flawed reasoning that circumstances have changed since
the Japan court issued the order on January 28, 2016. Namely, the Japan court found that a
grave risk of harm to the children exists because Mr . Cook, even though employed, might at
that point not be able to financially support or provide housing for the children because of the
parties' home foreclosure. This conclusion was made absent any evidence and without
recognition of the fact that Mr. Cook's financial circumstances and ability to retain high
paying employment were frustrated and drained by the expense of international travel and
litigation directly due to Ms. Arimitsu's abduc tion of the children to Japan. The direct
evidence in this matter shows that even during this hardship, Mr . Cook remained employed
with adequate access to housing , education and support for the children.
143. The latest Japanese decisions also relied on purported and unreliable
statements of the children who "strongly refuse to be returned to the U.S ... ." Decision of
The First Petty Branch, Supreme Court of Japan, Comt Fi le "Heisei 29 (kyo) No. 9,'' Dated
December 21, 2017, P. 2, ii 3; P. 4il 2. The Japanese decisions relied on the Japanese evaluator
report conducted nearly two years earlier and which followed enforcement attempts in which
Mr. Cook was completely barred from any contact with the children for over two years. The
latest Japanese decisions support Ms. Arimitsu's years of contempt for this Court and the
prior Japan ese orders requiring her to return the children to the United States, and they
directly support her ongoing psychological abuse and complete alienation of the children from
a dedicated and loving father, from their supportive paternal relatives, and from the stability
of the only life they had ever known since birth. This case presents a profound example of

31

57a.

27-FA-15-499

Filed In District Court
State of Minnesota
6/10/2019 11 :30 AM

injustice and harm to children as a result of a parent abduction to the country of Japan . See
2016 IPCA Report, U.S. Department of State and Bureau of Consular Affairs, P. 30-32.2
144. The reasoning of the Supreme Court of Japan 's order dated December 21, 2017,
that flowed directly from Osaka High Court's Februa1y 17, 2017, decision is contrary to the
intention of the Hague Convention and U.S. law and rests on a faulty application of Article
l 3(b) of the Hague Convention which provides:
Notwithstanding the provisions of the preceding Article, the judicial or
administrative authority of the requested State is not bound to order the return
of the child if the person, institution or other body which opposes its return
establishes that a) the person, institution or other body having the care of the person of the
child was not actually exercising the custody rights at the time of removal or
retention, or had consented to or subsequently acquiesced in the removal or
retention; or
b) there is a grave risk that his or her return would expose the child to
physical or psychological harm or otherwise place the child in an intolerable
situation .
145. Under the Hague Convention, Ms. Arimitsu was mandated to show to the
Japanese court that the risk to the children is grave, not merely serious. A review of
deliberations on the Hague Convention reveals that "intolerable situation" was not intended
to encompass return to a home where money is in short supply, or where educational or other
oppo1tunities are more limited than in the requested State. See Public Notice 957, 51 Fed.
Reg. 10,494, 10,510 (1986). "Intolerable situation" is meant to cover extreme grave
circumstances; for example, one in which a custodial parent sexually abuses the child. If the
other parent removes or retains the child to safeguard it against further victimization, and the
abusive parent then petitions for the child's return under the Hague Convention, the court
may deny the petition. Such action would protect the child from being returned to an
"intolerable situation" and subjected to a grave risk of psychological harm . See Friedrichv.
Friedrich, 78 F.3d 1060 (6th Cir. 1996). There is no evidence of an "intolerable situation"
present with Mr. Cook. Conversely, the effects of Ms. Arimitsu's abduction of the children
developmentally, psychologically, and spiritually are indeed an intolerable situation. This
Court has a duty to uphold the obligations and the principles in accordance with the Hague
Convention. In accordance with the foregoing reasoning, this Court will continue to mandate
the children's return to the United States, State of Minnesota, and to their father's home.
CONCLUSIONS OF LAW

1.
Dissolution of Maniage . The bonds of matrimony between Mr . Cook and
Ms . Arimitsu are dissolved.
2

See https:/ / travel.state.gov/ content/ childabduction /e n/ legal/compliance .htrnl .

32

58a.

27-FA-15-499

Filed In District Court
State of Minnesota

6/10/2019 11:30 AM

2.
P1ior O1·ders. All prior orders shall remain in full force and effect unless
specifically modified in this judgment and decree. The terms of this Court's prior orders are
specifically incmporated in this judgment and decree.
3.
RETURN OF THE CHILDREN : Ms. Arimitsn is ordered to immediately
return the children to their father's home in Minnesota. This provision will also be subject
to this Court's order for contempt that is being filed June 10, 2019.
4.
Custody. Mr. Cook is awarded permanent sole legal custody and permanent
sole physical custody of the parties ' children, namely:
Kasei Arimitsu Cook, born December 5, 2002, and currently age 16;
Kasei Arirnitsu Cook, born December 5, 2002, and currently age 16;
Hiraki Arirnitsu Cook, born Febrnary 13, 2008, and currently age 11; and Maya
Arimitsu Cook, born Febrnary 13, 2008, and currently age 11.
The parties shall both ensure that the children's passports are in the possession of Mr.
Cook at all times. The children shall not be allowed to leave the United States of America
without the express permission and accompaniment of Mr. Cook.
5.
Parenting Time. In the event that Ms . Arimitsu elects to return to the United
States with the children, she shall have in-person supervised parenting time as recommended
by the children 's psychologists and therapy supports. Ms . Arirnitsu shall cooperate with the
children's tl1erapy and follow all recommendations. In the event that Ms. Arimitsu elects to
remain in Japan without the children, she shall have statutory access of information to the
children's school, medical and other records of their welfare and have communication via
phone or other electronic means as often as recommended by the children 's therapists and as
often as the children are comfortab le. Upon recommendation of the children's therapists,
parenting time can be re-visited by motion from either party .
Stan1tory Access to Children. Both parents each have statutory rights granted
6.
under Minn . Stat. § 518.17, subd. 3 with respect to each child as follows:

a.

Right of access to, and to receive copies of, school , medical , dental,
religious training , police reports, and other important records and
infonnation about the minor child;

c.

Right to be informed by the other party as to the name an d address of
the school of attendanc e of the minor child;

d.

Right to be informed by school officials about the child's welfare,
educa tional progress and status, and to attend school and parent-tea cher
conferences . The school is not required to hold a separate conference for
each party , unless attending the same conference would result m
violation of a comt order prohibiting contact with a party;

33

59a.

27 -FA-15-499

Fifed in District Court
State of Minnesota

6/10/2019 11 :30 AM

e.

Right to be notified by the other party of an accident or serious illness
of a minor child, including the name of the health care provider and the
place of treatment;

f.

Right to be notified by the other party if a minor child is the victim of
an alleged crime, including the name of the investigating law
enforcement officer or agency. There is no duty to notify if the party to
be notified is the alleged perpetrator; and

g.

Right to reasonable access and telephone or other electronic contact
with the minor child.

7.
Child Support- Basic Support. Commencing on July 1, 2019, Ms . Arimitsu
shall pay to Mr. Cook monthly basic child support in the amount of $1,219.00. Child support
shall continue until such time as the youngest minor child attains the age of 18 years, or is
under age 20 years and is attending secondary school, or dies, is emancipated, or is otherwise
self-supporting, whichever occurs first, at which time any child supp01t obligat ion shall
terminate. Basic child support payments shall be subject to cost-of-living increases . Child
support payments are payable by Ms. Arimitsu to Mr. Cook on the first of each month .
Petitioner's Exhibit 20 is hereby attached and is incorporated by reference.
8.
Child Caie Support. There are cunently no work-related or education-related
child care costs. Child care support shall be reserved .
9.
Medical Support. Medical support shall be reserved pending actual costs of
coverage when the children return.

Unreimbursed Medical Expenses. Each party shall be responsible for his or
10.
her PICS percentage of the cost any prescriptions, co-pays, deductibles, dental, 01thodontia ,
mental health or optical expenses, including corrective lenses of the children that are not
covered by insurance. Mr. Cook shall be responsible for 54% of the children's unreimbursed
and u11insured medical and dental costs, and Ms . Arimitsu shall be responsible for 46% of the
children's unreimbursed and uninsured medical and dental costs.
11.
Spousal Maintenance. Neither party shall receive from the other spousal
maintenance . Based on the evidence presented, the Court finds that there is adequat e
consideration for denial of spousal maintenance based upon the parties' similar monthl y
income or ability to earn similar income, the division of marital assets taking note of th e
special circumstances that have existed, the parties' liabilities and the allo cation of specific
marital property. The terms in this judgment and decree are fair and equitabl e and the Court
therefore shall be divested of jurisdiction over any further claim from either party regarding
the issue of spousal maintenance.

34

60a.

27-FA-15-499

Filed in District Court
State of Minnesota
6/10/2019 11:30 AM

12.
Mai-ital Property, Including Homestead . All assets and liabilities, including
the parties' homestead, shall be accounted for and appo1tioned as listed in Mr. Cook's Exhibit
32 (balance sheet), which is attached and incorporated by reference .
13.
Bank Accounts. Mr. Cook is awarded: a) The ownership of the US Bank
Checking with any remaining balance, which shall be closed; b) the ownership of the US Bank
Joint Savings account with a balance of $299.07, which shall be closed; c) the Wells Fargo
Business Checking for Mr. Cook's business of E2M2 LLC, with a balance of $858.34; and d)
the Wells Fargo Savings for Mr. Cook's business of E2M2 LLC with a balance of $307.27.
Ms. Arimitsu is awarded: a) the amount transferred from the US Bank Joint Checking
account to Ms. Arimitsu's individual TCF account in the amount of $20,402.36; b) the
proceeds transferred from the US Bank Savings account for the minor child,
to a TCF
Savings in Ms . Arimitsu's name with a balance of $14,034.80; c) the proceeds transferred
from the US Bank Savings account to a TCF Savings in Ms. Arimitsu's name for the minor
child,
with a balance of $15,177.31; d) the proceeds transferred from the US Bank.
Savings account to a TCF Savings in Ms . Arimitsu's name for the minor child,
with a
balance of $6,462.83; and e) the proceeds transferred from the US Bank Savings account to a
TCF Savings in Ms. Arimitsu's name for the minor child,
with a balance of$13 ,813,01.
14.
Pe1·sonal Property. All other household goods and furnishings of the pattie s
have been equitably divided between them . Each party is awarded the personal property in
their respective possession.
15.
Business Interest. Mr. Cook shall be awarded any and all remaining right, title
and interest in E2M2, L.L.C. and shall assume any liabilities associated therewith and ho ld
Ms. Arimitsu harmless from any such liabilities.
Motor Vehicles. Mr. Cook is awarded all right, title and interest in the 2006
16.
Toyota Avalon and the Toyota Sienna.

17.
Retirement Accounts. Mr. Cook is awarded as his nonmarital property the
entirety of his Boston Scientific 401(k) with a balance of $4,729.46 from his employment in
2016-2017.
18.
Health Insurnnce. Each party shall be solely responsible for obtaining and
maintaining his and her own health and dental insurance coverage and each shall be
responsible for payment of uncovered and unreimbursed medica l costs with no contribution
from the other.
19.
Matital Debts . Any marital debt not included in Mr. Cook's Chapter 7
Bankrnptcy or any debt not disclosed by Ms . Arimitsu shall be the sole responsibility of Ms.
Arimitsu who shall hold Mr. Cook harmless therefrom . Any other debt not disclosed shall be
the sole responsibility of the individual that incurred said debt.

35

61a.

27- FA-15 -499

Flied in District Court
Slate of Minneso ta
6/10/2019 11 :30 AM

20.
Marital Equalizer Payment. As an adjusted fair and equitable marital
equalizer, Ms. Arimitsu shall pay to Mr. Cook the amount of $26,013.32. Ms . Arimitsu shall
pay this amount to Mr. Cook within thirty (30) days of entry of this judgment and decree . In
the event that Ms. Arimitsu fails to pay this amount within 30 da ys this amount will be
reduced to a money judgment and incur interest pursuant to Minn . Stat.§ 549.09.

Attorney's Fees . Ms. Arimitsu shall pay to Mr . Cook as and for conduct-based
21.
attorney fees in the amount of $6,148 .13. If M s. Arimitsu fails to pay said fees within thirty
(30) days of entry of this judgment and decree, this amount will be redu ced to a money
judgment and incur intere st pursuant to Minn. Stat. 549.09.
Contempt of Court. Ms. Arimitsu 's further contempt of this court 's ongoing
22.
orders from De cember 2, 2016, through March 12, 2019 , and her non-compliance with the
Hague Conventiion return orders from October 2015 through February 2017 shall be
addressed by separate order .
23.
Service of a Copy of judgment and decree. Service of a copy of thi s judgment
and decree may be made upon M s. Arimitsu at her last known address in court recor ds and
the attorney for Mr . Cook by e-service or United States mail .

Documents of Conveyance and Transfer of Title . Each of the parties shall,
24.
within thirty (30) days after the entiy of this judgment and decree, execute, acknowl edge,
and/or deliver any and all do cument s necessary to carry out the terms and condi tion s of this
judgment and decree. If a party is unable , una vailable, or refus es to execute and deliver any
such documents necessary and required to fully effectuate each and every provision contained
in thi s judgment and decree, a certified cop y of this judgment and decree of dissolution may
be recorded and / or utiliz ed with the same force and effect as if a deed, conveyance, transfer,
assignment, or other document had been per sonally exec uted, acknowl edged, and delivered
to that party. If a party refus es to coop erate, the other party shall be entitled to collect all
reasonabl e attorn ey's fees and other costs in connection with enforcement of this agreement
and jud gment and decree inctmed because of the failure of a party to compl y.
Release. Except as otherwise provided, each party is relea sed from all claim s
25.
and rjghts of the other party as follow s:
1.

To share , as a result of the marital relationship, in the other party' s estate
upon the latter 's death, including any rights acc1uing to either party
und er any ERISA plan;

11.

To act as personal admmistrator in th e estate of the other; to any right
of dower , election , exemp tion, or maintenanc e from, to, or against the
estate of the other; or

m.

To any other prop erty right , ben efit, or privil ege in or from the property
of the other. F urther, excep t as othe1wise provid ed, each party is

36

62a.

27-FA-15-499

Filed In Dislrict Court
Sia le of Minnesola
6/10/201911 :30AM

released and discharged from any and all claims or demands of every
nature of the other party to the date of entry of this judgment and decree .
Appendix A The attached Appendix A is incorporated and made a pa1t of
26.
this judgment and decree.
Entry of judgment and decree. Entry of judgment shall not be stayed pursuant
27.
to Rule 125 of the General Rules of Practice for the District Courts but shall be entered
immediately by th e court administrator .
ORDER FOR JUDGMENT
LET JUDGMENT BE ENTERED IMMEDIATELY.

BY THE COURT :

Dated: June 10 2019
Nicole A. Engisch
Judge of District Court

JUDGMENT

I certify the above Order for Judgment is the Judgment of the Court and Judgment is
hereby entered .

Comt Administrator

37

63a.

27 -FA- 15-499

4/19/2019

Fliedin District Court
State of Minnesota
6/10/20 19 11:30 AM

CalculatorResults

Child Support Guidelines Worksheet
,rent A: James Cook II
---f'arent B: Hitomi Arimitsu

IV-D Case Number:
Number of Joint Children: 4
Court File Number: 27-FA-15-499 Date: 4/19/2019
Parent A Parent B Combined

Income

Adjustments

'as ic Child Support
bligation

fa. Monthly Income Received

$5250

$0

1b. Child(ren)'s Social SecurityNeterans'
Benefits Derived From a Parent's Eligibility

$0

$0

--·----

1c. Potential Income

$0

$4458

----

1d. Spousal Maintenance Orders Obligated
to be Paid

$0

$0

----

1e. Child Support Order(s) Obligated to be
Paid for Nonjoint Child(ren)

$0

$0

----

1f. Monthly Gross Income (1a+1b+1c-1d-1e) $5250

$4458

-

2a . Number of Nonjoint Child(ren) in the
Home (Maximum number allowed is 2)

0

0

--·--

2b. Deduction for Nonjoint Child(ren) in the
Home

$0

$0

----

3. Parental Income for Determining Child
Support (PICS)

$5250

$4458

$9708

4. Percentage Share of Combined PICS

54%

46%

---

5. Combined Basic Support Obligation

----

-·--

$2677

6. Pro Rata Basic Support Obligation

$1446

$1231

---

$1219

........

7. Basic Support Obligation After Parenting
Expense Adj ustment (if applicable)

--

Child Care Obligation

8. Child Care Support Obligation for Joint
Child(ren)

Medical Support
Obligat ion

9a. Month ly Cost of Health Care Coverage
for Joint Child(ren )

$0

$0

----

9b. Pro Rata Share of Health Care
Coverage Costs

$0

$0

-

Appropriate Coverage
Avai lable

--

9c. Cont ribution to Health Care Coverage
9d. Monthly Cost of Dental Coverage for
Joint Child(ren)

$0

$0

-

9e. Pro Rata Share of Dental Cove rage
Costs

$0

$0

----

----

9f. Cont ribution to Dental Coverage
9g. Medical Support Obligation -Appropriate
Coverage Available

No App ropr iate
Insurance Available

---

10. Medical Support Obligat ion for Public
Coverage

UninsuredfUnreimbursed 11. Share of Uninsured and/or
Expenses
Unreimbursed Medical Expenses
12. Net Child Support Obligation

54%

46%

----

$0

$1219

-

Benefits Adjustment

13. Child{ ren)'s Social SecurityNeterans'
Benefit s Derived from Parent 's Eligibility

omputing a Final
Obligation

14. Total Child Suppo rt Obliga tion

$0

$1219

----

1Sa. Monthly Gross Income

$5250

$4458

----

$4001

$3209

---

$0

$1219

--

Ability to Pay Calculation 15b. Income Available for Support
16. Monthly Chi ld Support Obligat ion - No
hItp s://childsupp ortcalculator.dhs.state.mn.us/Cal
culatorResults

P~.Q

e 10 3
64a.

1/3

27-FA-15-499
CalculatorResu lts

4/19/2019

Filed In Disl ricl Court
State of Minnesota
6/10/20 19 11:30 AM

Adjustment Necessary
17. Amount of Reduction

$0

----

$0

Child Support Obligation 18. Med ical Support
Adjustment
Original Obligation

----

Amo unt of Reduction

-- ·-

New Obligation

--

19. Child Care Support
Original Obligation

---

Amount of Reduct ion

---

New Obligation

-

20 . Basic Support

Presumptive Minimum
Order/Basic Support
On ly

Original Obligation

-

Amount of Reduction

---

New Obligation

---

21. Monthly Child Support Obligation After
Adjustment

---

22a. Presumptive Minimum Order for 1 or 2
Joint Child ren

-

22b . Pres umptive Minimum Order for 3 or 4
Joint Children

-

22c . Presumptive Minimum Order for 5 or
More Joint Children

----

Parenting Expense Adjustment Supplement
Parent A: James Cook II
Parent B: Hitomi Arimitsu

IV-D Case Number :
Number of Joint Children: 4
Court File Number: 27-FA-15-499 Date : 4/19/20 19
Parent A Parent B Combined

1. Number of Annual Overnights for joint child(ren)

313

52

---

2. Percentage of Parenting Time

86%

14%

----

3 . Basic Support Obligation

$1446

$123 1

$2677

$1 2 19

- --

4a . Pe rcentag e of Adjustment for Pa renting Time betw een 10% and
45%
4b. Amount of Adjustment for Parenting Time
4c. Obligation after Parenting Expense Adjustment
5a. Percentage of Pc;3rentingTime is at le ast 45.1 % for Both Parents
5b. Each Parent's Percentage Share of Combined PICS
5c. Each Parent's Pro Rata Basic Child Support Obligation
5d . Obligation After Parenting Ex pense Adjustment
6a. Obligation afte r Parenting Expe nse Adjustment Based on the
Number of Annual Ove rnight s

-

':>.Greater than 55% Parenting Time Adjustment

Child Care Support Obligation Supplement

https://childsupportcalculator.dhs .state.mn .us/Calc ulatorResu llsPl?t.a,g

e 2 Qf 3
65a.

2/3

27-FA-15-499
CalculatorResults

4/19/2019

Parent A: James Cook 11
Parent B: Hitomi Arimitsu

Number of Joint Children: 4

Filed in District Court
Slate of Minnesota
6/10/2019 11:30 AM

Parent A Parent B
PICS
-Za. Monthly Cost of Child Care for Joint Child(ren)

$5250

$4458

$0

$0

54%

46%

2b. Number of Child(ren) Receiving Child Care
2c. Cost of Child Care to be Applied to Tax Tables
3. Federal Child Care Credit Percentage
4. Estimate d Monthly Federal Child Care Credit
5. Minnesota Child Care Maximum Allowable Credit

6. Estimated Monthly Minnesota Child Care Credit
7. Total Estimated Tax Credits
8. Net Child Care Cost

9. Percentage Share of Combined PICS
10. Pro Raia Share of Net Child Care Cost
11. Child Care Support Obligation if any Joint Child is Covered by Child Care
Assistance and Parent A Meets Income Lim its for Child Care Assistance

Child Support Summary
Parent A: James Cook II
Parent B: Hitomi Arimitsu

Number of Joint Children: 4
Date : 4/19/2019
Parent A Parent B

_--.,,
asic Support Obligation Amount

$0

$1219

Child Care Support Obligation Amount

$0

$0

Medical Support Obligation Amount

$0

$0

Child Support Obligation Total Amount

$0

$1219

Share of Uninsured and/or Unreimbursed Medical Expenses

54%

46%

Notes:

Disclaimer: The child support guidelines worksheet , instructions, and calculator are for information and educational use
only and are not a guarantee of the amount of child support that will be ordered . The results obtained are on ly as
accurate as the information used. The actual child support order may be affected by other factors. The Court has the final
authority to determine the amount of the child support order. If this worksheet is attached to a court order, it is part of the
Court's decision . This worksheet may or may not show the amount the Court decided to order. If the amount in the order
is different, that is the amount to be paid.
Calculated by the Minnesota Child Support Guidelines Calculator on 4/19/2019 al 2:23 PM

https://childsupportcalculator.dhs.state.mn.us/CalculatorResultsP~.QiQ

e 3 of 3
66a.

3/3

27-FA-15-499

Filed in District Cour t
State of Minnesota
6/10/2019 11 :30 AM

W- Hitomi Arimitsu
H-James Cook
,. ·,t
'-s-__,,

Jnmarital

US Bank Checking/TCF Bank
US Ban k Savings

Jt
Jt

US Bank Savings
US BanK Savings
US Bank Savings
US Bank Savings
WF Checking E2M2 LLC
WF Savings E2M2 LLC

Jt
Jt
Jt
Jt
H
H

Total

Pershing IRA
Boston Scientific 401(k) *

H
H-NM

Total

Real Estate
6264 Merrimac Lane N

Jt
Less Mortgage

Less HELOC
les s Costs and Fees Foreclosure

,__...

Remaining HELOCdischarged

$299.07
$14,034.80

$20,402.36
$299.07
$14,034.80
$15,177.31
$6,462.83
$13,813.01

$15,177.31
$6,462.83
$13,813.01
$858.34
$307.27

$858.34
$307.27

$71,354.99

$1,464 .68

$18,533.53
$4,729.46

$0.00

$0.00

$18,533 .53

$0.00

$0.00

Ex 26

6/4/2014
6/22/2015
6/24/2014

Ex25
Ex 26

6/24/2014
6/24/2014
6/24/2014

Ex 26
Ex 26
Ex 26

7/31/201S
7/31/201S

Ex27
Ex27

4/1/2015
7/2/2018

Ex 28
Ex31

$69,890.31

$435,525.00
($428, 101.00)
($48,279 .00)
($7,424.00)

3/22/2016
2/8/2016
7/2/2018
3/22/2016

Ex 21
Ex 21
Ex31 P.26
Ex 21, Ex 31

($48,279.00)

Home Sale Scenario 2015 .,.
Less Mortgage
Less HELOC

$524,500.00
($389,638.70)
($42,965.25)

Tot al Equity Lost

OtherAssets
2006 Toyota Avalon
2004 Toyota Sienna

$20,402.36

Jt
Jt

Total

6/8/201S Ex21
7/16/2014 Ex 22
6/23/2015 Ex 23

$91,896.0S

$0.00

$7,643.00
$8,756.00

$7,643.00
$8,756.00

$16,399.00

$16,399.00

$0.00

$0.00

$0.00

$0.00

$0.00

$0.00

$0.00

$198,183.57

$17,863.68

$69,890.31

$99,091.79

$99,091.79

$0.00

6/ 26/2015 Ex29
6/26/2015 Ex 29

Debts

See Bankruptcy

Jt

Tot a l
Preliminary Net Worth Allocation
Difference to Equalize

,

..

.

.

-~ ~-'c"'/

~ ., , : .c=

.,,_.•

{,l:.. ~ "'T:P•~" I -

,....__.,
• Non marital not included in totals
• • Market value if so ld

67a.

t i. t-J1 1.: ..

7/2/2 .018 Ex31

~~~~~

27-FA -15-499

APPENDIX A

Filedin DistrictCourt
State of Minnesota
6/10/2019 11:30 AM

NOTICE IS HEREBY GTVEN TO THE PARTIES:
T. PAYMENTS TO PUBLIC AGENCY. According lo Mirrncsota Statutes, section 5 I 8A.50, payments ordered for
maintenance and support must be paid to the Minnesota child support payment center as long as the person entitled to receive the
payments is receiving or has applied for public ass istance or has applied for support and maintenance collection services. Parents mail
payments to: P.O. Box 64326, St. Paul, MN 55164-0326. Employers mail payments to: P.O. Box 64306, St. Paul, MN 55164.

Il . DEPRIVING ANOTHER OF CUSTODTAL OR PARENTAL RIGHTS -- A FELONY. A person may be charged with
a felony who conceals a minor child or takes, obtains, retains, or fails to return a minor child from or to the child's parent (or person with
custodial or parenting time rights), according to Minnesota Statutes, section 609.26. A copy of that section is available from any court
administrator.
111. NONSUPPORT OF A SPOUSE OR CH1LD - CRIMINAL PENAL TIBS. A person who fails to pay court-ordered
child support or maintenance may be charged with a crime, which may include misdemeanor, gross misdemeanor, or felony charges,
according to Minnesota Statutes, section 609.375. A copy of that section is available from any district court clerk.

A.

B.

C.
D.
E.
F.
G.
H.

I.
J.
K.

IV. RULES OF SUPPORT, MAINTENANCE, PARENTING TIME.
Payment of support or spousal maintenance is to be as ordered, and the giving of gifts or making purchases or food, clothing,
and the like will not n.tlfillthe obligation.
Payment of support must be made as it becomes due, and failure to secure or denial or parenting time is NOT an excuse for
nonpayment, but the aggrieved party must seek relief through a proper motion filed with the court.
Nonpayment of support is not grounds to deny parenting time. The party entitled lo receive support may apply for supp01t
and collection services, file a contempt motion, or obtain a j udgment as prov ided in Minnesota Statutes, section 548.091.
The payment of support or spousal maintenance takes priority over payment of debts and other obligations.
A party who accepts additional obligations of support docs so witb the full knowledge of the party's prior obligation under this
proceeding.
Child support or maintenance is based on annual income, and it is the responsibility of a person with seasonal employment to
budget income so that payments are made throughout the year as ordered.
A Parental Guide to lvlakingChild-Focused Parenting-Time Decisions is available from any court administrator.
The nonpayment of support may be enforced through the denial of student grants; interception of state and federal lax refunds;
suspension of driver's, recreational, and occupational licenses; referral to the department or revenue or private collection
agencies; seizure of assets, including bank accounts and other assets held by financial institutions; reporting lo credit bureaus;
interest charging, income withholding, and contempt proceedings; and other enforcement methods allowed by law.
The public authority may suspend or resume collection of the amount allocated for child care expenses ii' the wnd itions of
Minnesota Statutes, section 5 l 8A.40, subdivision 4, are met.
The public authority may remove or resume a medical support offset if the conditions of section 5 I 8A.4 I, subdivision 16, are
met.
The public authority may suspend rn· resume interest charging on chiId support judgments if the conditions of section 548.091,
subdivision Ia, are met.

V. MODTFYING CHILO SUPPORT. If either the obligor or obligee is laid off from employment or receives a pay
reduction, child support may be modified, increased, or decreased. Any modification will only take effect wl1enit is ordered by the court,
and will only relate back to the time that a motion is filed. Either the obligor 0 1· obligee may file a motion to modify child support, and
may request the public agency for help. UNTlL A MOTION IS FILED, THE CHILD SUPPORT OBUGATTON WlLL CONTINUE
AT THE CURRENT LEVEL. THE COURT JS NOT PERMlTTED TO REDUCE SUPPORT RETROACTIVELY.
Vl. PARENTAL RIGHTS FROM MINNESOTA STATUTES, SECTION 518.17, SUBDNTSION 3. UNLESS
OTHERWISE PROVIDED BY THE COURT:
A.
Each party has the right of access to, and to receive copies of, school, medical, dental, religious training, police rcpor1s, and other
important records and information about the minor children. Each party has the right of access to information regarding health
or dental insurance available to the minor children. Presentation of a copy of this order to the custodian of a record or olher
information about the minor children cooslilules sumcient authorization for the release of the record or information to the
requesting party.
B.
Each party has the right to be informed by the other party as to the name and address of the school of altendancc of the minor
children. Each party has the right to be informed by school officials about the children's welfare, educational progress and status,
and to attend school and parent teacher conferences. The school is not required to hold a separate conference for each party.
C.
Each party has the right to be nolified by the other parly or an accident or serious illness of a minor child, including the name of
the health care provider and the place of treatment.
D.
Each party has the right to be notified by the other party if the minor child is the victim ofan alleged crime, including the name
of the investigating law enforcement officer or agency. There is no duty lo notify if the party to be notified is the alleged
perpetrator.
E.
Eat:h party has the right of reasonable access and telephone contact with the minor children.
FAM301
State
ENG
Rev 07/12
www.mncourts.qovtforms
Page 1 of 2

68a.

27-FA-15-499

Filed in District Court
State of Minnesota

6/10/201911:30AM

VIJ. WAGE AND INCOME DEDUCTION OF SUPPORT AND MAINTENANCE. Child support and/ or spousal
maintenance may be withheld from income, with or without notice to the person obligated to pay, when the conditions of Minnesota
Statutes, section 5 I 8A.53, have been met. A copy of that section is available from any court administrator.
Vlll. CHANGE OF ADDRESS OR RESIDENCE. Unless otherwise ordered, cacb party shall noti(y the other party, the
court, and the public authority responsible for collection, if applicable, of the following information within ten days of any change:
residential and mailing address, telephone number, driver's license number, social security number, and name, address, and telephone
number ol'the employer.
LX. COST OF LIVING INCREASE OF SUPPORT AND MAINTENANCE. Basic support and/ or spousal maintenance
may be adjusted every two years based upon a change in the cost of liviJ1g(using the U.S. Dcpaitme nt of Labor, Bureau of Labor
Statistics, consumer price index Mpls. St. Paul, for all urban consumers (CPJ-U), unless otherwise specified in this order) wben the
ta Statutes,
conditions of Minnesota Statutes, section 5 I8A.75, arc met. Cost of living increases arc compounded. A copy of NLinneso
section 5 18A.75, and forms necessary to request or contest a cost of living increase are available from any court adminish·ator.
X. JUD GMENTS FOR UNPAID SUPPORT; INTEREST. According lo Minnesota Statutes, section 548.091:
A.

B.

lfa person fails to make a child suppo1tpayment, the payment owed becomes a judgment against the person responsible to make
the payment by operation of law on or after the date the payment is due, and the person entitled to receive the payment or the
public agency may obtain entry and docketing ofthcjudgment without notice to the person responsible to make the payment.
Interest begins accruing on a payment or installment of child support whenever the unpaid amount due is greater than the current
support due.

Xl. JUDGMENTS FOR UNPAID MAINTENANCE. A judgment for unpaid spousal maintenance may be entered and
docketed when the conditions or Minnesota Statutes, section 548,091 , are met. A copy of that section is available from any court
administrator.
XTT.ATTORNEY FEES AND COLLECTION COSTS FOR ENFORCEMENT OF CHILD SUPPORT. A judgment for
attorney foes and other collection costs incurred in enforcing a child suppmt order will be entered against the person responsible to pay
support when the conditions of Minnesota Statutes, section 518A.735, are met. A copy of that section and forms necessary to request or
contest these attorney fees and collection costs are available from any cou1i administrator.
Xlll. PARENTING TIME EXPEDITOR PROCESS. On request ofcither pmty or on its own motion, the colllt may appoint
a parenting time expeditor to resolve parenting time disputes under Minnesota Statutes, section 518.175 I. A copy of that section and a
description of the expeditor process is available rromany court administrator.
XIV. PARENTING TIME REMEDfES AND PENALTIES. Remedies and penalties for wrongful denial of parenting time
arc available under Minnesota Statutes, section 518. 175, subdivision 6. These include compensatory parenting time; civil penalties; bnnd
requirements; contempt; and reversal of custody. A copy of that subdivision and forms for requesting relief are available from any court
administrator,

FAM301

State

ENG

Rev 07/12

www.mncourts.gov/forms

69a.

Page 2 of 2

27-FA-15-499

Filed in District Court
State of Minnesota
6/10/201911:26 AM

ST ATE OF MTNNESOT A

FOURTH JUDICIAL DISTRICT

COUNTY OF HENNEPIN

FAMILY COURTDfVTSTON

ln Re the Marriage of:

Court File No. 27-FA-15-499

James Edward Cook , U,
Petitioner ,

ORDERFORCONTEMPT
v.
Hitomi Arimitsu,
Respondent.

On May 7, 2019 , this matter came before the Honorable Nicole A. Engisch for trial and a
third-stage hearing on Petitioner's motion to hold Respondent in contempt of court.
Petitioner appeared and was represented by Victoria M.B. Taylor, Esq. , and Shawn Reike ,
Esq.
Respondent, upon being given due notice and oppo1tunity to appear, did not appear.
Based on the files, records , and proceedings, the Court issues the following findings of fact,
conclusions of law, and order.

FINDINGS OF FACT
I.
The contempt matter originated on January 12, 2017 , when Petitioner (Mr . Cook)
filed a Responsive Motion and Notice of Motion and Motion for Contempt and Conduct Based
Attorney ' s Fees and related affidavits.
2.
On January 24, 2017, the Court issued an Order to Show Cause and Appear to allow
Respondent (Ms. Arim itsu) to provide the Court with her explanation, if any, as to why the Court
should not enter an order finding her in contempt of cow1. The first-stage contempt hear ing was
scheduled for and took place on February 10, 2017.
3.
Although the findings in the Order to Show Cause and Appear reference d the
Co u1i's order filed on December 2, 20 J7, as we ll as the Court 's order filed on December 13, 2017 ,
the order provi sion inadvertently left out the December 13 order. The Couit and the parties, however,
have recognized that the contempt matter addressed both orders.

4
Following the February 10, 20 17, hearing, the Court filed its first- sta ge contempt
order (March 24 order) . The March 24 order is incorp orated by reference. That order , in turn,
incorporated by referen ce the Court's orders fi led on December 2, 2016 (December 2 orde r),
December 13, 20) 6 (December 13 order), and Januar y 24, 2017 (January 24 order).

70a.

27-FA -15-499

Filed in District Court
Stale of Minnesota
6/10/2019 11:26 AM

5.
1n the March 24 order , the Co utt found Ms . Arimitsu in constructive civi l contempt
for her failure to comply with this Comt ' s December 2 order and December 13 order .
6.
The March 24 order provided that the finding of constructive civil contempt would
be dismissed if Ms. Arimitsu met certain purge conditions: to include surrender of the childre n's
U.S. and Japanese passpo1ts to the U.S . Consulate in Osaka , Japan , by April 7, 2017 , and the release
of the childr en to the care of Mr. Cook at the U.S. Consu late in Osaka, Japan , by Apri I 23, 2017 . The
March 24 order set fo1th alternative purge conditions, to i11cludepermitting Ms. Arimitsu to retain
temporary custody over the children provided that she returned the children to Minnesota by no later
than April 23, 20 17, after which the Comt would immediately consider a motion for temporary
physical and legal custody to be awarded to Ms. Admitsu.
7.
The March 24 order further provided that if Ms . Arimitsu did not comply with the
purge conditions, she and Mr. Cook were required to personally appear on April 25 , 2017 , for a
hearing pursuant to Mahady v. Mahady , 448 N.W.2d 888, 891 (Minn. Ct. App. 1989). The March
24 order stated that if a patty failed to appear in person for the Mahady hearing , the Comt cou ld
grant the other party equitable and fair relief by default.
8.
On ApriJ 4, 2017, the Cowt fi led an order denying Ms. Arimit su's motion for
amended findings with respect to this Court 's December 2 order determining that this Minnesota
court has subject matter jurisdiction ove r the parties' minor child ren (April 4 order). The April 4
order is iiicorporated by reference . In the April 4 order , the court scheduled a review hearing and
pretrial conference for April 25, 2017 , at the same time as the Mahady hearing. The April 4 order
stated that ce1tain requested penalties and sanctions, those not relating to contempt , would be
addressed in connection with the review hearing/pretrial conference.
9.
On April 25, 2017, the Cou1t held a Mahady hearing to address (1) Ms. Arimitsu 's
performance of the purge condit ions; (2) the reasons, if any, for excusable non-performance of the
purge conditions ; and (3) whether to impose penalties for con tempt and non-compliance with the
purge conditions.

10.
At the Mahady hearing, Mr. Cook appeared in person. Ms. Arimitsu did not appear
in person. Instead, on the day of the hearing , her counsel requested perm ission for her to appear by
telephone after indicating he had not expected she would be appearing at all . The Cou1t
conm1unicated to her coun sel that it would allow her to be present by telephone , but such permission
was without waiver of the Cou1t's authority to conclude that she was in contempt and/or in default
for her failure to appear in person as ordered . Also, on the day of the hearing, Ms. Arimitsu reque sted,
for the first time, a Japan ese interpreter , a request the Co1.11taccommodated .
11.
At theMahady hearing, Ms. Arimitsu waived her right to appear in person. Through
counsel , sh e acknowledged that she had not complied with the purge conditions. While her counsel
suggested she at least attempted to comp ly with the passport surrender condition , he also
acknowledged she merely provided the passpo1ts to her Japanese lawyer on a date after the April 7,
2017 , deadlin e.
12.
At the Mahady hearing, Mr. Cook's counsel mformed the Cowt that the passp01ts
had not been passed on to the U.S. Consulate. She described three letters from the Consulate General
of the U.S. in Osaka. The first letter, dated April 19, 2017, was sent to Ms. Arimitsu and stated the

2

71a.

27-FA -15-499

Filed in Dislricl Court
State of Minnesota

6/10/2019 11 :26 AM

understanding that the children would be reh1rned to the U.S. and stated that the U.S. Consulate
General expected to meet Ms. Arimitsu at the consulate office with the children on the upcomin g
Sunday, April 23. The second letter, also dated April 19, 2017, and sent to Ms. Arirnitsu, informed
her that she was to return the children's passpotts to the U.S. Consulate General in Osaka. The letter
further stated that under U.S. law , the U.S. passpo1ts are the property of the U.S. and must be returned
to the U.S. government upon demand . The letter stated that the consulate office must be in receipt of
the passports by April 21, 2017, at 5:00 p.m. The third letter was emailed to Ms. Kamakawa, Ms.
Arimitsu 's attorney in Japan, in response to her communication. The letter reiterated that under U.S.
law, the U.S. passpo,ts are the property of the U.S. and must be returned to the U.S. government
upon demand . The third letter , citing international law, went on to state that Ms. Arimitsu may bring
the passports to the consulate office in person , or she may send them via mail or courier. According
to Mr. Cook's counsel, Mr . Cook was in Japan on April 23, 2017, and the Consulate General of the
U.S. infonned him that Ms. Arimitsu had not provided the passports as directed , nor had she rehlrned
the children to the consulate office as directed by the Court's March 24 order .
13.
Ms . Arimitsu's counsel argued that her non-perfotmance with the purge conditions
should be excused because (1) she is in fear of Mr. Cook based on purportedly threatening emails,
and (2) she no longer has a place to stay in the U.S. because family members in Minnesota were
only willing to have her stay with them on a limited basi s.

14
With regard to her alleged fear of Mr. Cook, the Cowt asked Ms. Arimitsu if she
would be willing to return the children and herself to Minnesota if the Cou1t were to order that her U.S.
location be kept confidential or implement other measures that she might reque st for her safety. Ms.
Arimitsu immediately responded , "No, 1 will not." Thus, Ms. Arimitsu demonstrated that she was
without excuse to perform the purge conditions because her stated concern was insincere. Even
assuming it was sincere , tbe Cowt was willing to accommodate her purpo1ted concern, yet she
indicated sbe would still refuse to comply with the Court's orders.

15.
With regard to the family members, as stated in the December 2 order, in December ,
Ms. Arirnjtsu 's counsel informed the Cou1tthat Ms. Arimitsu planned to live with Mr. Cook's parents ,
the children's paternal grandparents, upon her return to Minnesota with the children. Id., findings,~
12. At the Mcdwdy hearin g, however, Ms. Arim.itsu 's counsel stated that Mr . Cook's stepmother had
reviewed this Court's March 24 order, and she was now no longer willing to provide temporar y
housing to Ms. Arimitsu and the children except on a very sho1t-term basis.
16.

Apart from the paternal grandparents in Minne sota, the record indicates that Ms.
Arimitsu ' s parents, the maternal gra ndparent s, have for a number of years been suppo1ting her and
the children, including by providing them witb hou sing in Japan. See A.ff. of Hit om i Arimitsu, Nov.
16, 2016 , ~~ 4, 6, 11. The maternal grandparents appear to have sufficient resources , such as to pay
for temporary housing in the U.S. for Ms. Arimjtsu and the childre n, if required for tbis court
proceeding . Tbus, Ms. Arimitsu demonstrated that she was without exc use to perform the purge
condition s.

17.
At the Mahady hearing, counsel for both parti es addressed potential sanctio ns and
penalties for the constructive civil conte mpt. At the conclusion of the hearing , the Co urt requested
additional submiss ions.
18.
Following the hearing , the parties each submitted propos ed findings of fact,
conc lusion s oflaw, and order (proposed order). 1n Ms. Arimitsu's proposed order , she acknowledged
3

72a.

27-FA-15-499

Filed in District Court
State of Minnesota
6/10/2019 11:26 AM

that she continu es to be in constructive civil contempt of the Court's Dece mber 2 and December 13
orders. Id. , order , 1 1. She further acknow ledged that she did not comp ly with the Court 's purge
conditions; namely , she "did not comply with the condition to release the children to Mr. Coo k on
April 23, 20 17, nor did she return to Minnesota with the cbj ldren." Id., findings of fact , 4.

ir

19.
The Court found and continue s to find that Ms . Arimitsu had and has the ability to
comply with the purge conditi ons as set forth in the March 24 order, and to this day, she still has the
abiJity to comply with the purge condition s.
20.
On June 12, 20 17, the Court filed an order finding Ms. A ri.mitsu in co nstructive civ il
contempt because she failed to comp ly with the Decemb er 2 order and the December 13 order, and she
failed to meet the purge condit ions set forth in the March 24 order. She did not return thechildrento
Mr. Cook, nor did she return the children to Minnesota . Mo reover, she did not surrend er their
passports to the U.S. Consu late as ordered.
21.
Ms. Arimitsu has not complied wit h the purge conditions set forth in the Mar ch 24,
20 J 7, order or the June 12, 2017 , order. As such , she conti nues to be in violation of the Court 's
December 2 order and the December 13 order. Specifically, Ms . Arimit su bas fai led to return the
chi ldren as ordered and in doing so she has denied and continues to deny Mr . Coo k custody of,
access to, and parenting time with the children . She has persi sted in deny ing Mr. Cook his chi ldren
for over four yea rs, or since October 12, 20 14.
22.
Law below .

Additiona l findings of fact are included withi n the analysis of the Co nclusions of

CONCLUSIONS OF LAW

I.

Tbis Court Found that Ms. Arimitsu is In Constructive Civil Contempt
A.

Sub,iect Matter and Personal Jurisdiction

1.
To make a finding of contempt, th e district court mu st have subj ect matter
jurisdiction and personal jurisdiction. Id at 2 16. The Court find s that it has subject matter
jurisdiction. T he Couii's December 2 order expressly found and concluded that pw·suant to Minn.
Stat.§ 518D .201 , subds. (a)(2) , (a)(3), and (a)(4), it has subject matter ju risd iction over the parties'
minor childr en. The subject matter determination has been affirmed on appeal. See Cook v.
Arimitsu , 907 N. W.2d 233 (Minn. Ct. App . 2018)
2.
The Co urt further finds that it has personal jurisdi ction over Ms. Ar imitsu because
she has personally avai led herself of trus jurisdiction , inc luding by filin g a motion for amended
findings befor e this Court and litigat ing tbe issue of subject-matter jurisdiction of the partie s'
ch ildren twi ce before the Minnesota Court of Appe als. Ms. Arimit su a lso has the requisite minimum
contacts with Minnesota, and she has failed to contest personal jurisdiction, thus waiving the issue.

B.

Clear Definition of the Acts to Be Perfol'med

3.
The order or decree must have "cle arly defined the acts to be performed " by the
party alleged to be in contempt of that order or dec ree. Hopp v. Hopp , 156 N. W.2d 212, 2 16 (Minn.
1968). The Court find s that the provi sions of the December 2 order and the December 13 orde r
4

73a.

27-FA-15-499

Filed in District Court
State of Minnesota
6/10/2019 11:26 AM

clearly defined the acts to be performed by Ms. Arimit su. By December 17, 2016, Ms . Arimitsu was
to relea se the children to Mr. Cook ' s care, or she was to accompan y the children on a flight back to
Minnesota before releasin g the children to Mr. Cook's care . She was also required to turn ove r the
ch ildren 's passports to Mr. Cook.

C.

Notice of the Acts/Reasonable Time to Comply

4.
The pa1ty alleged to be in contempt must have received notice of the order or decree
and must have had " a reasonable time within which to comply. " Hopp, 156 N.W.2d at 216. T he
Co wt finds that , as her counsel acknowledged at the hearing on February 10, 20 17, Ms. Arimitsu
had due notice of the prio r orde rs, and she appealed the December 2 and December 13, 2016, orders
to the Minnesota Court of Appeals. Ms . Arimitsu was act ive ly engaged in litigation up until Apri l
11, 2019, when her counsel of record withdrew. Ms. Arimitsu has not argued that she lacked a
reasonable time within which to comply with the Cou rt's orders. The Court finds that she had
sufficient time to comp ly, particularly given that Mr. Cook had arranged for and paid for flights for
the children and such flights are still available.

D.

Specific Grounds for the Complaint

5.
The party contend ing contempt must provide "specific grounds for complaint."
Hopp, 156 N. W.2d at 216. Mr. Cook sought a finding of contempt based on Ms. Arimitsu's failur e
to comp ly with paragraphs I 0, 12, 13, and 14 of the Court's December 2 order , and paragraph s 1, 2,
and 3 of the Court's December 13 order. The grounds for Mr. Cook's motion for contempt included:
(a) Ms. Ar imitsu failed to return the chi ldren to Mr . Cook's residence in Hennepin County,
Minnesota, by no later than December 17, 20 16; (b) Ms. Arimitsu fa iled to grant all right of
possess ion and access to tbe children 's passports to assist in the.ir safe return to Minnesota; (c) Ms.
Arimitsu failed to purchase flights for the children to depart from Japan to the Minneapolis/St. Paul
International airport by no later than December 17, 2016; and (d) Ms. Arimitsu failed to return the
children to Mr. Cook's care at the U.S. Consulate in Osaka, Japan and to reimburse him for the
flights he purchased for the children. The Court finds that Mr. Cook 's motion and suppmting
documentation provided specific grounds for complaint.

E.

Hearing After Due Notice

6.
The district court must hold a hearin g after "d ue notice " and give the party alleged
to be in contemp t "an opportunity to show compliance or his [or her] reaso ns for failure ." Hopp,
156 N .W .2d at 216. On January 24 , 2017, the Co wt issued an order to sh ow cause and appear, which
ordered Ms. Arimitsu to persona lly appear for a hearing on February 10, 2017. Ms. Arim itsu was
given due notice, through counse l, of the February LO,2017 , hearing. Ms. Ar imitsu failed to appea r
for that hearin g.
7.
On February 10, 2017, Ms. Arimitsu's counse l appeared and acknowledged that Ms.
Arimitsu had notice of the February 10 hearin g and that she had an opportunity to appear. He state d
that she was not ava ilable to appear by phone , although he gave the Court no advance notice that she
would be unavailable to appear either in person or by phone , and his client at no time sought an
alternative date or time for the hearing . The Court has in the past acco mmodated Ms. Arimitsu 's
requests to appear by phone for a hearin g. Ms. A rimitsu's counse l agreed that the Court could
proper ly proceed with the hearing w ithout Ms. Arirnitsu p1·esent.
5

74a.

27-FA-15-499

Filed In Distr ict Court
State of Minnesota
6/10 /20 19 11 :26 AM

8.
At the February 10, 2017, hearing, Ms. Arimitsu ' s coun sel acknowledged that Ms.
Arirnitsu had notice oftbe Cou1t's prior orders. He further admitted that Ms. Arimitsu had failed to
comply with the Comt's orders , even though he had advised her to comply with the Court ' s orders.
9.
The Court provided Ms. Arimitsu's counsel with tbe opportunity to explain her
reasons for failing to comply with the Cowt ' s December 2 and December 13 orders. As summarized
above, her counsel presented those arguments orally and in writing , before the hearing , at the
bearing, and following the hearing.
F.

Formal Determination of Failure to Comply

10.
Based on the evidence before the Cowt, in its order dated June 12, 2017 , it conc luded
that Ms. Arimitsu failed to comply with this Court 's December 2 and December 13, she had no just
excused, and she was therefore in constructive civi l contempt. To this day, she has not purged the
contempt and therefore she remains in contempt.
G.

Statutory Penalties that Will Aid in Compliance

11.
Under M inn. Stat. § 588.02 , " [e]very court and judicial officer may punish a
contempt by fine or imprisonment , or both." Specifically , Minn . Stat.§ 588.10 provides that "if the
person is adjudged guilty of the contempt charged, the person sha ll be punished by a fine of not more
than $250, or by imprisoiunent in the county jail, workhouse, or work farm for not more than six
months , or by both." lf a party to the contempt action sustains an actual loss or injury that is prejudicial
to that party's right and caused by such contempt, in addition to a fine or imprisonment , the Court
may "order the person guilty of the contempt to pay the party aggrieved a sum of money sufficient
to indemnify the party and satisfy the party's costs and expenses, including a reasonable attorney's
fee incwTed in the prosecution of such contempt , which order , and the acceptance of money
thereunder , shall be a bar to an action for such loss and injury.' ' Minn. Stat. § 588.11.
12.
Minn. Stat.§ 588.12 provides that [w]hen the contempt consists in the omission to
perform an act which is yet in the power of the person to perform, the person may be imprisoned
unti I the person performs it, and in such case the act shall be specified in the wru-rant of commitment.
See Mahady , 448 N. W.2d at 890 (" [C]ivil contempt is said to give the contemnor the keys to the jail
cell , becau se compliance with the order allows him to purge himself and end the sanction ."). This
Cou1t finds that civi l penalties, to include costs and expenses , including reasonable attorney 's fees
incurred in the prosecution of contempt and imprisonment , will aid in compliance with the Coutt's
orders . Due to the length of time that Ms. Arimitsu has remained in contempt, the Court will now
impose those penalties as described fu1ther below , to include issuing a bench warrant for Ms.
Arimitsu ' s arre st.

II.

Ms. Arimitsu Remains in Consh·uctive Civil Contempt, and She Inexcusably Failed to
Comply with Purge Conditions in this Court's March 24, 2017, Order and June 12,
2017, Order

13.
Ms. Arimitsu has been afforded at least two opportunities to show compliance with
this Court' s orders or to present reasons for her failure to purge the contempt by abiding by the
Mahady v. Mahady , 448 N .W.2d 888, 891 (Minn . Ct. App . 1989);
conditions set fo1th by this Cot.111.
See also Gustafson v. Gustafs on, 414 N. W.2d 235, 237 (Minn . Ct. App . 1987). This Cmut concludes
that Ms. Ari.mitsu continues to be in constructive civil contempt because she failed to comp ly with
6

75a.

27-FA -15-499

Filed in Dislricl Court
Slate of Minnesot a
6/10/2019 11 :26 AM

the December2 order and the December 13 order, and she failed to meet the purge conditions set fo1th
in the March 24 order and the June J2 order. She has not returned the children to MT.Cook, nor has
she returned the children to Minnesota. Moreover, as of the date of trial in the dissolution, May 7,
2019, she had not surrendered their passpo1ts to the U.S. Consulate.
14.
Ms. Arimitsu throughout this proceeding has provided no just or reasonable excuse
for her failure to meet the pw-geconditions and she has made no effort to comply with this Court's
orders or to appear for trial as ordered. Up until April 11, 2019, Ms. Arimitsu was consistently
represented by counsel. See Cox v. Slama, 355 N.W.2d 401, 403 (Minn. 1984).
ill.

Ms. Arimitsu Should Be Imprisoned UntiJ She Returns the Children

15. Minn. Stat. § 588.12 provides that "[w]hen the contempt consists in the omission to
perform an act which is yet in the power of the person to perfonn, the person may be imprisoned
until the person pe1forms it, and in such case the act shall be specified in the warrant of
commitment."
16. In the case at band Ms. Arimitsu has failed to perform the following acts:
a.

Return the children to the residence of Mr. Cook in Hennepin County in the
State of Minnesota; and

b.

Surrender the children's U.S. and Japanese passports to the U.S. Consulate in
Osaka, Japan, so that they sbaU be immediately given to Mr. Cook, who shall
maintain sole possession of the passports until further order of the Cowt.

17. Ms. Arimitsu retains the power to perform what she has been ordered to do-to return
the children and surrender their passports. Ms. Arimitsu has retained the children against this Court's
orders since December 2, 2016, and in doing so, she has engaged in willful non-compliance. While
this Court does not have the authority to bring criminal charges against Ms. Arimitsu under Minn.
Stat. § 609.26 (1)(3)(4)(6), this Court does have the authority to require her imprisonment until she
returns the children and surrenders their passports to Mr. Cook. Accordingly, the Comtwill issue a
bench warrant for her arrest.
IV .

Ms. Arimitsu Shall Be Ordered to Pay the Civil Fine for Her Contempt

18.
The main difference between civil contempt and criminal contempt is the purpose
of the cou1i's sanction. lvlinnesota State Bar Ass'n v. Divorce Assistance Ass 'n, Inc., 248 N.W.2d
733, 741 (Minn. 1976). "Civil contempt sanctions are intended to operate in a prospective manner
and are designed to compel future compliance with a court order .... " Jvlower County Human Servs.
v. Swan cutt, 55 I N. W.2d 219, 222 (Minn. 1996) (internal quotation omitted). Give□ this distinction,
statutory provisions that place Lin1itationson the district courts' authority to punish or impose fines
for contempt do not apply to civi I contempt. See State by Johnso n v. Sports & H ealth Club, In c., 392
N.W.2d 329, 337 (Minn. Ct. App. 1986) (upholding a civil contempt fine of $300 per day and
declining to apply Minn. Stat. § 588. lO and its limitation of $250 fine for punishment of criminal
contempt). Applying such ltmitations on the courts' civil contempt authority "would result in placing
severe limits on the trial court's ability to induce compliance with its lawful orders." Id. at 336.
19.

Accordingly, this Court had and continues to have the authority to order and issue a
7

76a.

27-FA- 15-499

Filed in Dist rict Court
Sta te of Minnesota
6/10/2019 11 :26 AM

monetary fine against Ms . Arimitsu , for $1000.00 per day for each day of contin ued non co mplian ce
with the purge conditi ons set forth in this Cowt's June 12, 20 17, order . This Cou rt finds that
imposition of the fine will aid in obtaining Ms. Arimitsu's compliance in the future with the Co utt 's
orde rs . From this Court ' s June 12, 20 17, order to May 7, 20 19, the date of trial in the disso lution
matter , or for 694 days , Ms . Arimitsu has continued to refuse to retu rn the child ren as ordered .
Accordfogly , a personal judgment in the amount of $694 ,000 sha lI be entered in favor of Mr. Cook
and against Ms. Arimitsu.

V.

The Court WiU Impose the Bond Requirement

20.
Mr . Cook moved for an order requiring Ms. Arimit su to post a $100,000 civil bond
pursuant to Minn . Stat. § 5 18.175, subd . 6( d)(2) . He further asserted that if Ms. Arimitsu returns the
child ren as ordered, the Court should ente1tain a moti on for a lesser bond . Th e Court intended to
reserv e and did reserve this request in its June 12, 20 17, order.
21.

Minn. Stat. § 5 18.175, subd. 6( d)(2) provides:

If the court finds that a party has repeatedly and intention ally de nied or intetfered
with court -ordered parenting time ... , the court may . . . (2) require the party to
post a bond with the court for a spec ified period of time to secure the party's
compUance ....
Co urts ma y impo se this type of bond as a condition on one party ' s parenting time in cases in which
there is "a genuine indication that [a party doe s] not intend to return [the child) to Minnesota " from
anothe r country. Shepard v. Shepard , 352 N .W.2d 42, 46 (Minn. Ct. App . 1984) (citing Tischendo,j'
v. Tischend01f, 321 N. W.2d 405 (Minn . 1982)) . Failure to comp ly with theCo mt ' s orderwou ldTesult
in forfeiture of the bond . Id . As the co urt noted in Larson v. Dunn , 460 N .W.2d 39 , 47 (M inn. 1990),
child abductio n " is a serious crime," and as a result , "o ur cmuts have broad discreti on to prot ect
custod ial and visitation rights. "
22.
Minn. Stat. § 5 18. 175, subd . 6(d)(2), authorizes the Court to order a bond as a
conditi on on a patty 's parenting tim e. That is, it may be imposed befor e the pa rty assume s that
parenting time and in anticipation of the party 's potential violation of the other party 's parenting
tim e.
23.
The facts of this case are different from those in which this type of bond has been
impose d. Her e, Ms. Arimitsu , w hile not entitled to any parenting time throughout thi s pro ceedin g
unt il this Co utt entered the provi sions as out lined in the paities ' jud gment and decree, co ntinu ed and
continues to assume and exercise that parenting time , to defy the Court 's orders, and to depr ive Mr .
Coo k of custody oft be chi ldren as court ordered. Befo re Ms. Arimit su may be pennitt ed co ntinu ed
parenting tim e, she sha l I be requir ed to post a $100 ,000 bond as a con dition of that parentin g tin1e.

VI.

The Children Shall Be Returned to Mr. Cook's Home in the State of Minnesota, United
States

24.
T he Court find s that it has authority to continu e to order the children to be returned
to Mr . Cook , the par ent who has been awarded pe tman ent so le lega l custody and perma nent so le
phys ical custody of all four of the partie s' child ren. That custody award is supported by this Co urt 's
detai led findin gs as to the childr en's best intere sts in the jud gme nt and decree entered in this matte r.
8

77a.

27-FA-15--499

Filed in District Court

State of Minnesota
6/10/2019 11:26 AM

Additionally , this Court finds that such an order is necessary to ensure that the children are returned
to Minnesota in compliance with this Couit's orders previously issued under the Hague Convention
and Minnesota law and that are sti ll in effect.
25.
For over four years, Ms. Arimitsu has denied and continues to deny Mr. Cook access,
custody and parenting time with the children . As to the issue of the pending and ongoing litigat ion
in Japan, this Court has a heightened obligation, because the United States is also a signatory of the
Hague Convention, to properly hold to that convention's purpose for theretumofabducted children
and to uphold the A1ticles as agreed to in their implementation and enforcement , even in light of
another signatory country's failure to do so. See Asv esla v. Petroutsas , 580 F.3d 1000, 1014 (9th Cir .
2009) ; See also Smedley v. Smedly, 772 F.3d l 84, 189 (4th Cir. 2014) .
ORDER

1.
All provisions of prior orders, not modified by this order or inconsistent with the
terms of this order, remain in full force and effect. The parties are ordered to comply with the
provisions in the Cou1t' s orders dated December 2, 2016, and December 13, 2016, ordering Ms .
Arimitsu to return all four of the parties ' children to Mr. Cook and to bring the children back to the
United States.
2.
For her constructive civil contempt , Ms. Arimitsu is hereby ordered to pay Mr. Cook
$694,000 in accordance with this Cou1t's order that she be fined $1000 per day for her noncomp liance with the June 12, 2017, order.

3.
Based on the foregoing, a personal judgment in the amount of $694,000 shall be
entered in favor of Mr. Cook and against Ms. Arimitsu.
4.
For her constructive civil contempt , Ms . Arimitsu shall be imprisoned until she
performs the following obligations:
a.

Ms. Arimitsu shalJ return the children to Mr. Cook's residence in Hennepin
County, Minnesota ; and

b.

Ms. Arimitsu shall surrender the children ' s U.S. and Japanese passpo1ts to
the U.S. Consulate in Osaka, Japan, so that they shall be immediately given
to Mr . Cook, who shall maintain sole possession of the passports until further
order of the Cowt.

Accordingly, by separate order, the Court will order a bench warrant for her arrest.
As a condition of her parenting time with the minor children , within ten days of the
5.
date of this order, Ms. Arimitsu shall file a civi l bond of $100,000 for one year to secure her
compliance with this Court 's orders granting custody and parenting time to Mr. Cook.

6.
Mr. Cook shall be granted all right of possession and access to the children 's
passports to assist in their safe return to the United States and to the State of Minnesota .
7.
Mr. Cook shall have sole legal right and sole authority to revoke and reissue the
children's passports in the event that they are lost or othe1wiseunavailable.
9

78a.

27-FA - 15-499

Filed in District Court
State ot Minnesota
6/10/2019 11:26 AM

8.
Mr. Cook shall have sole authority and so le access to the chi ldren in .Japan and the
United States .

9.
Mr. Cook sha ll have sole authority on beha lf of the children to work w ith a ll
govern mental age ncies, non-governmental agenc ies and law enforcement in both Japan and the
Un ited States in the return of the childre n to the United States and his residence in the State of
Minnesota.

10. Th is order sha 11stand mdependent of any crimina l proceeding cha rged under Minn.
Stat.§ 609 .26 (1)(3)(4)(6) .
11.
Th is Court reserves the right pursuant to Minn. Stat. § 549.21 l and other statutory
provisions to impo se further sanction s upon any non-comp liance with this order.
12.
A copy of this Court's order may be served upon the pa1ties or their attorneys , if any,
by United States mail at their last known address.
LET JUDGMENT BE ENTE RED IMMEDIATELY.

Dated: June I 0, 2019

BY T HE COURT :

Nico le A. Engisch
Judge of District Court

79a.

27-FA-15 -499

Filed in District Court
Stale of Minnesota
6/10/2019 11 :28 AM

STATE OF MINNESOTA

FOURTH JUDICIAL DISTRICT

COUNTY OF HENNEPIN

FAMILY COURT DIVISION

In Re the Maniage of:

Court File No. 27-FA-15-499

James Edward Cook, II,
Petitioner,
ORDER FOR BENCH WARRANT
V.

Hitomi Arimitsu,
Respondent.

On May 7, 2019, this matter came before the Honorable Nicole A. Engisch for tria l and a
third-stage hearing on Petitioner ' s motion to hold Respondent in contempt of cornt .
Pet itioner appeared and was represented by V ictoria M.B. Taylor , Esq., and Shawn Reike,

Esq.
Respondent , upon being given due notice and opportunity to appear , did not appear.

Based on the files, records, and proceedings, the Court issues the following findings
and order.
FINDINGS
1.
The Court incorporat es by reference the order for contempt filed June 10, 2019.
In the order for contempt, the Court found Respondent (Ms. Arimi tsu) in constructive civil
contempt, as it found in previous orders. Among other things, Ms . Arimitsu has repeatedly
failed to comply with this Court's orders requiring her to return the parties' minor children to
the residence of Petitioner (Mr. Cook) in Hennepin County in the State of Minnesota; and to
surrender the minor children's U.S. and Japanese passports to the U .S. Consulate in Osaka,
Japan.
2.
As set forth in th e order for contempt, Ms. Arimitsu has failed to appear for
trial and a third-stage hearing on .Mr. Cook's motion to hold Ms. Arimitsu in contempt of
court. She previously failed to appear for other contempt-related hearings.
3.
In the order for contempt, this Court found that under Minn. Stat.§ 588.12 and
additional authori ties, the Coutt has the authority to order Ms. Arimitsu to be imprisoned

80a.

27-FA-15-499

Filed In Dislricl Court
Stale or Minnesota

6/10/2019 11:28 AM

until she performs cour t-ordered purge conditions, which are set forth in the mder for
contempt.
4.
A bench warrant should be issued for Ms . Arimitsu 's affest and apprehension.
The Court will set bail in the amoun t of $100,000.
ORDER

1.
A bench warrant shall issue for the arrest and apprehension ofHitomi Arimitsu ,
born July 16, 1971. Prior to release from custody, she shall post cash bail or a bond in the amount
of $100,000.
2.
After Ms . Arimitsu 's arrest, she shall be brought before the Court for a hearing .
At the hearing , if Ms . Arimitsu remains in contempt, the Court will determine the te1m of her
imprisonment.
3.
The clerk of this court shall mail a copy of this order to Ms. Arimitsu at her last
known address in court records:
27-5 Shoyodai 2-Chome Nara-shi
Nara-Ken 631-0007
Japan

Dated: June 10, 2019

BY THE COURT :

Nicole A Engisch
Judge of District Court

2

81a.

27- FA- 15-499

STATE OF MINNESOTA

Filed In Dlslricl Court
Slate of Minnesota
1/22/2019 11:26 AM

FOURTH JUDICIAL DISTRICT

COUNTY OF HENNEPIN

FAMILY COURT DMSION

In Re the Marriage of:

Court File No. 27-FA-15-499

James Edward Cook, II,
Petitioner,

ORDER
V.

Hitomi Arimitsu,
Respondent.

On December 28, 2018, this matter came before the Honorable Nicole A. Engisch on
the parties' submissions regarding Petitioner's claim for conduct-based attmney's fees and
costs.
Petitioner was represented by Victoria M.B. Taylor, Esq.
Respondent was represented by Valerie Arnold, Esq.
Based on the files, records, and proceedings, the Court issues the following findings of
fact, conclusions oflaw, and order .

FINDINGS OF FACT

1.
On December 10, 2018, the Court filed an order denying Respondent's (Ms.
Arimitsu's) motion to register, recognize, and enforce various Japan cou1t orders and
documents (December 2018 order). The December 2018 order sets forth the extensive
background and procedural history of this case.
2.
In the December 2018 order, the Court granted Petitioner's (Mr. Cook's)
motion for conduct -based attomey's fees under Minn. Stat. § 518.14, subd. 1. Among other
things, the Court found that Ms. Arimitsu has unreasonably extended the length and expense
of this proceeding. The December 2018 order provided that within ten days of the date of the
order, Mr. Cook shall file an appropriate attorney affidavit supporting bis claim for attorney's
fees and costs i:ncuned in this Minnesota proceeding since May 17, 2017. Within ten days of
the date of filing his attorney affidavit, Ms. Arimitsu was permitted to file any objections to
specific items or categories of items .
3.
In the December 2018 order, the Court reserved the right pursuant to Minn _
Stat.§ 549.211, § 549.09, and other statutory provisions to enter judgment and impose further

82a.

27-FA-15 -499

Flied lh District Court
Stal e of Minne sota
1/2212019 11 :26 AM

sanctions upon Ms. Arimitsu for any non-compliance with this order and the Court 's prior
orders.
4.
On December 18, 2018, Mr. Cook 's at torney filed an affidavit of his attorney
in support of his request for conduct-based attomey's fees an d cos ts. Exhibit 1 to that affidavit
included itemized billing entries for the fees incurred.

5.
On December 28, 2018, Ms . Arimitsu's attorney filed a letter in response to Mr.
Cook's fee request. The lette1·indicated that Ms. Arimits u objec ted to all items and ca tegories
of items enumerated in Mr. Cook's attorney's affidavit because, Ms . Arimitsu contended, she
has not unreasonably contributed to the length or expense of the proceeding.
6.

Additiona l findings of fact are included in the concl usions of law below .

CONCLUSIONS OF LAW
1.
A district court may, but is not requfred to, award conduct-based attorney fees,
costs, and disbursements "against a pa1ty who unr easonably contributes to the length or
expense of the proceeding." Minn . Stat.§ 518 .14, subd . 1; Crosby11• Crosby,587 N .W.2d 292,
298 (Minn . Ct. App. 1998) (An award of attorney fees "rests almost entirely within the
discretion of the tria l couit and will not be disturbed absent a clear abuse of discret ion.") .
"Fees, costs, and disbursements provided for in this sec tion . .. may be awarded at any point
in the proceeding .. .. " Minn. Stat. § 518. 14, subd. I. A showing ofbad faith is not required
under Minn. Stat.§ 518.14 , subd. 1. See Geskev. Marcolina,624 N .W.2d 813, 818- 19 (Minn.
Ct. App. 2001) .
2.
Mr. Cook has requested conduct-based attorney fees totaling $4,510 and costs
totaling $80 from May 18, 2018, through November 19, 2018 . Ms. Arin1itsu opposed that
request, con tending that all enumerated items were outside the scope of Minn. Stat. § 518.14,
subd. I because Ms . Arimitsu has not unreasonably contributed to the length or expense of
the proceeding. This Cou1t, however, previously found in its December 2018 order that Ms.
Arimitsu has unreasonably contributed to the length or expense of the proceeding th.rough
her con tinu ed resistance and meritless challenges to this Court's orders.
3,
In reviewing the referenced items on the invoice attached as Exhibit I to the
Affidavit of Victoria M.B. Taylor filed on December 18, 2018, the Court concludes that all
items from May 18, 2018, through November 19, 2018, are directly att1ibutable to Ms.
Arimitsu's conduct in unr easonab ly contribu ting to the length and expense of these
proceedings as described in tl1e December 2018 order . The Court further finds that this
amoun t reflec ts a reasonable value of fees incuned by Mr. Cook based on billing rates that
are somewhat below the average for a case of this complexity . Th e Comt finds that such fees
are not excessive and that counsel for Mr. Cook complied with Rule 119. Accordingly, the
Court will aw ard Mr. Cook conduct-based attorney's fees and costs in the tota l amount of
$4,590 .00.
4.
This Court has pr eviously awarded Mr . Cook conduct-based attorn ey's fees
and other sanctions. To the Comt's knowledge, Ms. Arimitsu has not paid those amounts .
2

83a.

27-FA-15-499

Flied In District Court
Sl;i le of Mlnne·sol a

1/22/20191·1:26 AM

Therefore , in this order, the Court will direct entry of judgment in Mr. Cook's favor in the
amount of the Court-o rder ed fees and costs .

ORDER

1.
Mr. Cook 's request for conduct-based attorney's fees and costs is granted in the
amount demonstrated through his attorney's affidavit, $4,590.00. A persooaljudgment shall
be entered in Mr. Cook's favor and against Ms. Arimitsu for this amount.
2.
All provisions of prior orders, not modified by this order or inconsistent with the
terms of this order, remain in full force and effect.
LET JUDGMENT BE ENTERED IMMEDIATELY.

Dated: Janua1y 22, 2019

BY THE COURT:

Nicole A. Engisch
Judge of District Court

JUDGMENT
I HEREBY CERTIFY THAT THE ABOVE ORDER
CONSTITUES THE ENTRY OF .TTJDGIVfENT
Of nus COURT.
SARAH LINDAHL-PFIEFFER, COURT ADMINISTRATOR,
~ -<v!>-~
HENNEPIN COUNTY , MN
BY:__
_ ______

_..,u._:_
_______

_

DEPUTY
DATED:

2:24 pm, Jan 28, 2019

3

84a.

27-FA-15-499

Flied in District Court
State of Minnesota

12/10/2018 3:52 PM

STATE OF MINNESOTA

FOURTH JUDICIAL DISTRICT

COUNTY OF HENNEPIN

FAMILY COURT DMSION

In Re the Marriage of:

Court File No. 27-FA-15-499

James Edward Cook, II,
Petitioner,
ORDER
V.

Hitomi Arimitsu,
Respondent.
On October 1, 2018, this matter came before the Honorable Nicole A Engisch for a
hearing on Respondent's motion for the Court to register, recognize, and enforce Japanese
court orders and related relief and on Petitioner's responsive motion.
Petitioner appeared and was represented by Victoria M.B. Taylor, Esq.
Respondent did not appear, but was represented by Valerie Arnold, Esq.
Based on the files, records, and proceedings, the Court issues the following findings of
fact, conclusions of law, and order.
FINDINGS OFF ACT
Background and Procedural History
P1ior Orders Incorporated

1.
The Court incorporates by reference its orders filed on December 2, 2016
(December 2, 2016, order), December 13, 20 16 (December 13, 2016, order) (collectively, the
December 2016 orders), January 24, 2017 (Janu ary 2017 order), March 24, 2017 (March2017
order), April 4, 2017 (April 2017 order), and June 12, 2017 (June 2017 order).
The Parties and Children

2.
Petitioner (Mr. Cook) and Respondent (Ms. Arimitsu) manied in 1998 and had
twins in 2002 and again in 2008. The four minor children are:
Kasei Arimitsu Cook,
born December 5, 2002;
Arimitsu Cook, born December 5, 2002;
Hiraki

85a.

27-FA - 15-499

Arimitsu Cook, born February 13, 2008; and
2008 (the minor children or the children) .

Flied in District Cou rt
Stale of Minneso ta
12/10/2018 3:52 PM

Arimitsu Cook , born Februa1y 13,

Minnesota Residence and Japan Travel

3.
The minor children were born in Minnesota and permanently resided in the
City of Maple Grove, County of Hennepin, State of Minnesota , until the summer of 2014. In
May 2014, the parties listed their home for sale. In July 2014, in preparation for a trip Ms .
Arimitsu and the children were to take to Japan, the parties signed an agreement stating that
Ms. Arimitsu would return with the children by August 29, 2014 . July 2014 was the last time
the children were in Minnesota.
4.
In mid -August 2014, Mr. Cook agreed that the children could stay in Japan for
an unspecified additiona l amount of time, but not indefinitely. In October 2014, Mr. Cook
visited the children in Japan .

Mr. Cook's Dissolution Petition
5.
On January 13, 2015, Mr. Cook filed a summons and petition for dissolution
with children in this court file. In his petition, Mr . Cook asked for sole physical custody and
sole legal custody of the minor children, alleging that Ms . Arimitsu failed to return the
children from Japan . Mr. Cook's summons and petition were served on Ms . Arimitsu on
April 27, 2015.

Ms . Atimitsu's Answer and Counter-Petition

6.
On May 11, 2015, Ms . Arimitsu filed an answer and counter-petition . She
asked for joint legal custody and sole physical custody of the minor children, subject to a
parenting time schedule that would allow the minor children to continue to live and attend
school in Japan .
Initial Case Management Conference
7.
At a July 23, 2015, Initial Case Management Conference (ICMC), the district
court, the Honorable James Swenson, asked the parties to address whether, given the
children's time in Japan, the district court had subject matter jurisdiction under the Uniform
Child Custody Jurisdiction and Enforc ement Act (UCCJEA) to address child custody.

Mr. Cook's Hague Convention Application
8.
On August 7, 2015, Mr. Cook applied under the Hague Convention of 25
October 1980 on the Civil Aspects of International Child Abdu ction (the Hague Convention)
for aid in getting the children return ed to the United States. Mr. Cook asked the Japanese
courts to order the children returned to the United States.

2

86a.

2 7-FA- 15-499

Filed in Distr ict Court
State of Minne sota
12/10/2018 3:52 PM

October 2015 Order Regarding Lack of SubjectMatter Ju1isdiction
9.
On October 20, 2015, Judge Swenson filed an order stating that, under the
UCCJEA, Minnesota lacked subject matter jurisdiction to address custody because
Minnesota was not the children's "home state" as defined by Minn. Stat. § 518D.102(d)
(October 2015 order). Judge Swenson acknowledged that, under the UCCJEA, a child's
tempora1y absence from a state did not mean that the state stopped being the child's home
state, but concluded that, on the then-existing record , the absence of the children from
Minnesota did not constitute a temporary absence.
10.
Despite the October 2015 order, the dissolution matter remained pending and
is still currently pending before this Minnesota Court.
October 2015 Japan 01·der
I 1.
On October 30, 2015, in the Hague litigation, a Japanese court filed an order
stating that the parties ' younger twins, but not the older twins, should be returned to the
United States (October 2015 Japan order). Both parties appealed the October 2015 Japan
order.
January2016 Japan Order
12.
On January 28, 2016, a Japan court filed an order reversing the October 2015
Japan order and requiring Ms . Arimitsu to return all four children to the United States
(Jan11a1y2016 Japan order). The Janua1y 2016 Japan order concluded that Minnesota is the
children's habitual residence, a conclusion similar but not identical to a determination under
the UCCJEA that Minnesota is the children's home state.
13.
M s. Arimitsu did not comply with the January 2016 Japan order and did not
return any of the children to the United States. Instead, in the Japanese courts, she challenged
Mr. Cook's attempts to enforce the January 2016 Japan order requiring the children to return
to the United States.
14.
On February 3, 2016, Ms. Arimitsu appealed the January 2016 Japan order,
but her appeal was denied in an order issued February 23, 2016.
Ja11anEnforcement Orders
15.
Mr . Cook filed various applications and requests for enforcement and related
matters in Japan .
16.
On February 9, 2016, an order was issued warning Ms. Arirnitsu to comply
with the Janua1y 2016 Japan order.
17.
On Mar ch 4, 2016, a Japan court issued an order for indirect enforcement,
including requiring Ms . Arimitsu to pay a daily financial sanction (equal to $50 per child per
3

87a.

27-FA- 15-499

Filed In District Court
State of Minnesota
12/10/2018 3:52 PM

day) for her failure to return a11four childr en to the United States (Japan enforcement order
no. 40003). The sanction s were to be imposed from the next day of the expiration of the 14day period until compliance with the obligation .
18.
Thereafter, a Japan court issued indirect enforcement orders imposing
additional .financial penalties on Ms. Arimitsu, including "execution by substitute" (Japan
enforcement order no. 40004) and a judgment against Ms . Arimitsu to pay Mr . Cook the
equivalent of $19,260 .76 for costs and expenses to return the children to the United States
(Japan enforcement order no . 40005).
19.
In June 2016, Mr . Cook received the right to direct enforcement. When he
attempted to execute on these rights and obtain release of the children to him, court authorities
informed him that enforcement of the January 2016 Japan order requiring the return of the
children was only possible if Ms . Arimitsu cooperated in allowing the children to return. She
did not cooperate, and Japanese officials did not require her to do so.
20 .
On April 19, 2016, an order for enforcement issued that named Mr. Cook's
mother, the children's paternal grandmother , as executor of the return order. On September
13, 2016, Mr. Cook's mother attempted to obtain the release of the children as required by
court orders, but she was forced to leave without the children at Ms. Arimitsu's request.
21.
On September 15, 2016, Mr . Cook attempted to obtain the release of the
children as required by court orders, but he was forced to leave without the children at Ms.
Arimitsu's request.
22.
Despite the January 2016 Japan order requiring Ms. Arimitsu to return the
children and despite the enforcement orders, Ms. Arimitsu refused to comply, and the
children were not returned to the U .S.
Mr. Cook's Motion to Reassert Subject Matter J1uisdiction

23.

In May 2016, the case was assigned to this Court.

24.
On September 27 , 2016, Mr . Cook filed a motion with this Court to reassert
subject matter jurisdiction over child custody and to enforce the January 2016 Japan ord er.
On Novemb er 21, 2016, this Court held a hearing and took sworn testimony of both Mr.
Cook and Ms . Arimit su .
December 2, 2016, Order

25.
On December 2, 2016, this Comt filed an order granting Mr. Cook 's motions
and reasserting subject matt er jurisdiction for custody regarding the children (December 2,
2016, order) .

4

88a.

27-FA- 15-499

Filed in District Court
State of Minnesota
12/10/2018 3 :52 PM

December 13, 2016, Order

26.
On December 12, 2016, the Coutt held a telephone conference with counsel at
the request of Ms. Arimitsu's counsel, who sought reconsideration of the December 2, 2016,
order. Ms . A:rimitsu's counsel stated that he had discussed the December 2, 2016, order with
his client and had instmcted her that she needed to comply with the order_ Nonethe less, Ms.
Arimitsu requested additional time to comply with the order because, among other stated
reasons, she was having difficulty funding four international plane tickets. Mr. Cook's
counsel indicated that Mr. Cook had anticipated that Ms. A:rimitsu would raise financial
issues as an obstacle and therefore he had secured plane tickets for the children to travel back
to Minnesota as ordered.
27.
Following the telephone conference, the Court filed the December 13, 2016,
order, denying Ms. A:rimitsu's informal motion for reconsideration and reaffirming the
December 2, 2016, order (December 13, 2016, order).
28.
In the December 13, 2016, order, the Court stated that it had contacted
Hennepin County Family Court Services to obtain priority status regard.ing scheduling a
custody and parenting time evaluation, to be initiated once Ms. Arimitsu and the children
returned to Minnesota. To further accommodate Ms. A:rimitsu, the December 13, 2016, order
provided that she was permitted to accompany the children on the flights to Minne sota, and
if she returned the children to Mr. Cook and to Minnesota and otherwise sufficiently
demonstrated that she would be complying in good faith with those orders, including
remaining in Minnesota and ensuring the children Iema.in in Minnesota while this case is
pending, the Comt would consider a motion for temporary change of physical and legal
custody back to Ms . Arimitsu . Despite these accommodations, Ms. Arimitsu did not comply
with this Court's December 2016 orders or with the then final January 2016 Japan order
requiring her to return the children to Minnesota.
Ms. Arimitsn' s Motion for Amended Findings

29.
On December 30, 2016, Ms. A:rimitsufiled a motion with this Court requesting
amended findings pursuant to Minn . R. Civ. P. 52.02. Her motion, which was essentially her
second motion for reconsideration, asked the Comt to reverse the December 2016 orders
reasserting jurisdiction over the question of child custody.
Mr. Cook's Motion for Contempt and for Sanctions

30.
On January 12, 2017, Mr. Cook filed a responsive motion and a motion for
contempt , for conduct-based attorney 's fees, and other sanctions for Ms. Arimitsu 's failure to
obey the Court' s December 2016 orders.
Febmary 10, 2017, Heating

31.
On February 10, 2017, the Court held a hearing on Ms. A:rimitsu's motion for
amended findings and on Mr. Cook's motion for contempt.
5

89a.

27-FA-15-499

Filed in District Court
State of Minnesota
12/10/2018 3:52 PM

February 2017 Japan order
32.
On February 17, 2017, a week after this Court 's hearing, a Japan court issued
an order modifying the January 2016 Japan order and finding the children should not be
returned to Minnesota based in large part on what it concluded was a "grave risk of harm to
the children," among other reasons (February 2017 Japan order).
33.
In reaching its conclusio n , the Febrnary 2017 Japan order found: (1) "the
[c]hildren refused strongly to be returned to the U.S.[ ;] " (2) because Mr. Cook's home was
foreclosed on, he "is curr ently not able to provide the stable place to live for the [c]hildren and
doesn't have a feasible plan to arrange the place to live for the [c]hild ren after they're returned
to the U.S."; (3) Mr. Cook "doesn't have enough financial resources to ensure the stable
environment and arrangement for the [c]hildren. Furthermore, he only stated, as for the
school that the [c]hildren are supposed to go, that they could go to a chartered school without
paying tuition, and failed to suggest a specific school"; and (4) Mr. Cook's "father opposed
the return of the [c]hildr en ... so he doesn't look supportive for [Mr. Cook] in taking care of
the [c]hildr en in the U.S [;]"; and (5) it is difficult for Ms. Arimitsu "to provide the stable place
to live ... for the children when they're returned to the U .S. because she doesn't have [a]
basis to live in the U.S ." Id. The Febrnary 2017 Japan order also stated that Mr. Cook is
currently living with his friend to save money but "once the children are returned to the USA ,
they will spend several weeks at their grandmother's home, during which he will find a large
house to rent so the family can live." The February 2017 Japan order additionally found that
Mr. Cook "asserted that he would start wotlcing for Boston Scientific on October 20, 2015,
but his current work situation is not clear .... "
34.
The February 2017 Japan order did not otherwise modify the January 2016
Japan order or any of its findings or conclusions under the Hague Convention, including that
Minnesota was the children's habitual residence. The February 20 17 Japan order did not
establish that Japan has subject matter jurisdiction over custody of the children.

March 2017 First-Stage Contempt Order
35.
On March 24, 2017, this Court filed an order finding Ms. Arimitsu in contemp t
of court for not returning the children to the United States and set purge con dition s (March
2017 order). The Court concluded that it was Ms . Arimitsu's actions in failing to comply with
court orders, in alienating Mr. Cook from the children, in placing the children in the middle
of the dispute, and in delaying this case that have caused detrimental effects on the children's
emotional well-being. The Court scheduled the second-stage of the contempt hearing (called
a Mahady hearing) for April 25, 2017. The purpose of that hearing was to determine if Ms.
Arin1itsu had complied with purge conditions. Because of the nature of contempt, Ms.
Arimitsu was required to appear in person.

Aplil 2017 Order Denying Amended Findings Motion
36.
On April 4, 2017, this Court filed an order denying Ms. Arimitsu's motion for
amended findin gs, and finding , among other things , that (1) the Comt had authority to

6

90a.

27-FA- 15-499

Filed in District Court
State of Minnesota
12/10/2018 3:52 PM

reconsider the jurisdictional ruling in the predecessor judge's October 2015 order; (2) despite
the February 2017 Japan order, Minnesota continues to have subject matter jurisdiction to
address custody because, among other reasons, Minnesota is the children's home state under
the UCCJEA; and (3) the Japanese courts lack jurisdiction to address child custody (April
2017 order).
April 2017 Second-Stage Contempt Order

37.
On April 25, 2017, the Comt held the second-stage hearing on Mr . Cook's
motion to hold Ms. Arimitsu in contempt of court . Ms. Arimitsu did not appear in person as
required. She did not provide a just or reasonable excuse for failure to comply with purge
conditions. She continued to defy this Court's orders and to not return the children to
Minnesota.
June 2017 Order for Contempt and Sanctions

38.
In the Court's contempt-related order filed on June 12, 2017, the Court found
that Ms. Arimitsu provided no just or reasonable excuse for her failure to meet the Comt's
purge conditions and she remained in civil contempt (June 2017 order). In the June 2017
order, the Comt imposed various sanctions on her.
39.
Among other things, the June 2017 order awarded Mr. Cook conduct -based
attorney's fees in the amount of $10,200.00 under Minn. Stat. §518. 14, subd. 1, based on Ms.
Arimitsu's conduct in unreasonably contributing to the length and expense of the proceeding
from December 6, 2016, through May 16, 2017. Ms. Arimitsu was also ordered to pay a civil
penalty of $500 to Mr . Cook under Minn . Stat. §518.175, subd. 6(d)(2), for her direct
inte1ference with Mr. Cook's access to and parenting time with the children, in violation of
this Court's orders. Additionally, for her constrnctive civil contempt, Ms . Arimitsu was
hereby ordered to pay a fine of $1,000 per day effective the date of the June 2017 order and
until she was in compliance with the Court's purge conditions (to include return of the
children to Minnesota).
40.
The Court also found that, given the lack of viable procedural or other
objections by Ms. Arirnitsu, the two Japanese money judgments were entitled to enforcement
under principles of comity: (1) a judgment in the amount of $74,816.01 arising out of Japan
enforcement order no. 40003, and (2) a judgment in the amount of $19,260.76 arising out of
Japan enforcement order nos. 40004 and 40005. The total of the two Japanese money
judgments was $94,076.77.
41.
In the June 2017 order, the Court entered judgment in Mr. Cook's favor and
against Ms . Arimitsu for all financial sanctions in the total amount of $104,995.30.
Ms. Arimitsu's Appeal of Subject Matter Jurisdiction Orders
42.
On June 2, 2017, Ms. Arimitsu appealed this Court's subject matter jurisdiction
determination, as set fo1th in the December 2016 orders and in the April 2017 order.
7

91a.

27 -FA- 15--499

Filed in District Cou rt
State of Minnesota
12/ 10/2018 3:52 PM

Minnesota Court of Appeals Decisions Affinning Subject Matter Jurisdiction

43.
In a published opinion filed on January 22, 2018, the Minnesota Court of
Appeals denied Ms. Arimitsu's appeal and affirmed the Court's De cember 2016 and April
2017 orders. Cook v. Arimitsu, 907 N .W.2d 233 (Minn . Ct. App. 2018). That decision, among
other things , concluded that this Court "has home-state jurisdiction to make an initial childcustody dete1mination ." Id. at 241. In an order filed on April 2018, the Minnesota Supreme
Court denied Ms. Arimitsu's petition for fmther review . Thus, the Minnesota Court of
Appeals' decision is final.
December 2017 Japan order and Related Orders and Ce1tificates

44.
Mr. Cook appealed the February 2017 Japan order, but that order was later
affirmed in an order dated December 21, 2017 (December 2017 Japan order).
45.
Thereafter, on January 12, 2018, a Japan court issued a certificate for final
decision certifying that the February 2017 Japan order was final (Januaty 2018 Japan final
decision certificate).
46.
On March 26, 2018, a Japan court issued an order revoking (1) the Japan
enforcement order no. 40003; and (2) and the Japan enforcement order nos. 40004 and 40005
(March 2018 Japan order). Thus, the Mar ch 2018 Japan order provided that Ms. Arimitsu
was no longer required to pay the financial sanctions for her failure to return the children.
47.
On April 20, 2018, a certificate of service was filed, stating that the March 2018
Japan order was served on Mr. Cook on March 28, 2018 (April 2018 Japan certificate of
service).
Ms . Arimitsn's Registrations and Current Motion

48.
On May 23, 2018, Ms. Arimitsu filed a letter and an affidavit in support of her
request to have the following documents (including translations) registered in Minn esota
pur suant to Minn. Stat. § 518D.305: (1) the February 2017 Japan order ; (2) the December
2017 Japan order; (3) January 2018 Japan final decision certificate; (4) the Mar ch 2018 Japan
order; and (5) the April 2018 Japan certificate of service.
49.
On June 5, 2018, the court administrator filed a form notice of registration of
foreign child custody determination pursuant to Minn. Stat. § 518D .305. The notice provided
the respondent, Mr. Cook, with 20 days to request a hearing to contest the registration.
50.
On Jun e 14, 2018, Mr . Cook filed an objection to Ms . Arimit su's registration
request and requested a hearing to contest the registration.
51.
On September 2018, Ms. Arimitsu filed a moti on, a memorandum of law and
supporting document s seeking an order (1) registering the five Japanese orders and documents
listed in her registration request (2) recognizing and enforcing the Japanese orders and
8

92a.

27-FA-15-499

Filed in District Court
State of Minnesota
12/10/2018 3:52 PM

documents and vacating this Court's December 2016 orders , the March 2017 order, the April
2017 order, and the June 2017 order; (3) in the alternative, recognizing and enforcing the
Japanese orders and documents under the doctrine of comity and, with respect to the Japanese
order vacating the judgment against Ms. Arimitsu, pursuant to Uniform Foreign-Country
Money Judgments Recognition Act; (4) vacating the Comt's money judgment entered in the
June 2017 order under Minn. Stat. § 518.145, subd. 2(4) and (5); (5) vacating this Court's
orders based on alleged fraud upon the court under Minn. Stat.§ 518.145; (6) recognizing the
child custody jurisdiction of Japan pursuant to the final Hague Convention determination
and as a matter of comity, dismissing this action and vacating the Court's orders, or in the
alternative, declining child custody jurisdiction in favor of Japan as the more convenient
forum pursuant to the UCCJEA and specifically Minn. Stat. § 518D.207, and vacating this
Court's orders; (7) declining jurisdiction over the patties' divorce action in favor of the
divorce proceeding in Japan on the basis of the forum non conveniens doctrine; (8) awarding
Ms . Arimitsu conduct-based attorney's fees and costs pursuant to Minn. Stat.§ 518.14 and
Minn. Gen. R. Prac. 119, because Mr. Cook has purportedly contributed unreasonably to the
length and expense of this proceeding by perpetrating ongoing fraud upon the Court relative
to his acquiescence to the children remaining in Japan .
52.
On September 25, 2018, Mr. Cook filed a responsive motion, a memorandum
of law and supporting documents seeking an order denying Ms. Arimitsu's motion. He
contended that Ms. Arimitsu's pleadings should be stricken because they are in violation of
Minn . R. Civ. P . 11.02, Minn. R . Civ . P. 12.06, and are fully baned pursuant to the doctrine
of res judicata following the appellate court's decision in Cook v. Arimit su, 907 N.W. 2d 233
(Minn. Ct. App. 20 18). He asked for an order (1) requiring Ms. Arimitsu to personally appear
with the children before the Court pursuant to Minn. Stat.§ 518D.210 (a) and Minn . Gen. R.
Prac. 303 .05 and 309 .02 and pursuant to this Court 's orders; (2) finding that Ms. Arimitsu
continues to repeatedly and intentionally deny Mr. Cook all access and parental rights to the
parties' children; (3) entering a personal judgment against M s. Arirnitsu pursuant to Minn.
Stat.§ 549.09, subd. 1 (c)(l)(i) in the amount of$476,000.00 (476 days x $1,000 per day), plus
annual interest of four percent until such judgment is paid, as and for Ms. Arirnitsu's
continued non-compliance in returning the children and remaining in civil con structive
contempt of court in violation of ~13of the June 2017 order; (4) awarding Mr. Cook conductbased attorney's fees and costs pursuant to Minn . Stat. §518.14 and Minn. Gen R. Prac. 119;
(5) scheduling a date for trial on the issues of permanent custody and paJenting time for the
parties' minor children pursuant to Minn. R. Civ. P . 54.02 and in accordance with the June
2017 order; and (6) granting such additiona l relief, as provided in the June 2017 order,
pursuant to Minn . Stat. § 549. 211 and other statutory provisions to impose further sanctions
upon any non-compliance with the Court 's orders .
53.
On October 1, 2018, the Court held a motion hearing. Following that hearing,
the Court requested additiona l written submissions.
54.
On November 9, 2018 , M s. Arimitsu filed an additional memorandum oflaw
and additional supporting affidavits .

9

93a.

27 -FA- 15-499

Filed in District Court
State of Minnesota
12/10/201 8 3:52 PM

55.
On November 19, 2018, Mr. Cool< filed au additional memorandum oflaw and
additional supporting affidavits.
56.

Additional findings of fact are included within the conclusions of law below.

CONCLUSIONS OF LAW
I.

This Court Declines to Register the Japanese Orders

1.
Ms. Arimitsu moved to have this Court register, recognize, and enforce the
various Japanese court orders under the Hague Convention, the implementing legislation in
the U.S ., the International Child Abduction Remed ies Act (ICARA), Minn. Stat.§ 518D .302
(the UCCJEA), Minn. Stat. § 548.54 et al. (the Uniform Foreign-Country Money Judgments
Recognition Act) and under principles of comity. For the reasons discussed below, although
the Court acknowledges that the Japan courts issued the various court orders and that Ms.
Arimitsu has generally summarized their provisions accurately, the Court declines to register ,
recognize, and enforce the Japanese orders.

A.

TheUCCJEA

2.
Ms . Arimitsu argued that this Comt should register, recognize, and enforce the
Japanese court orders under Minn. Stat. § 518D.302 (a provision of the UCCJEA). That
provision states:
Under sections 518D.301 to 518D.317 a court of this state may enforce an
order for the return of the child made under the Hague Convention on the
Civil Aspec ts ofinternational Child Abduction as if it were a child custody
determination.
Thus, her cited provision expressly applies to Hague Convention orders "for the return of the
child." The official comment to Minn. Stat.§ 518D .302 makes clear that the provision applies
to an order requiring a child to be returned, including reference to "the need for a speedy
enforcement remedy for an order to return the child ." UCCJEA § 302 cmt.
3.
The orders Ms. Arimitsu seeks to enforce are not "for the return of the
child[ren ]" but are for th e opposite: The orders state that Ms. Arimitsu need not return the
children to their habitual residence. Ms. Arimitsu has pre sented no au thority and this Court
has located no authority that contradict s the plain language of Minn . Stat.§ 518D.302.
4.
Additionally, even if Minn. Stat.§ 518D .302 were applicable here, th e statute
uses the permissive term "may" rather than the mandatory term "shall ." See Minn . Stat. §
645.44, subds. 15, 16. If the provision did apply here, this Court exercises its discretio n to
decline to enforce the Japanese court orders because, as discussed further below, the Japanese
court orders undermine the purposes of the Hague Convention. See 22 U.S.C. § 900l(a)(4)
(the purpose of th e Hague Convention is to return promptly children who are wrongfully
removed from their place of habitual residence, unless one of the narrow exceptions to return
applie s); Abbott v. Abbott, 560 U.S. 1, 20 (2010) ("The Conv ention is ba sed on th e prin ciple

94a.

27-FA-15 -499

Flied in District Court
State of Minnesota
12/10/2018 3:52 PM

that the best interests of the child are well served when decisions regarding custody rights are
made in the country of habitual residence."). The Hague Convention does not permit a
parent to select the country that will determine custody and parenting time solely by bringing
the child to that country. Id.; see alsoMarch v. Levine, 249 F.3d 462, 472 (6th Cir. 2001) ("The
Hague Convention . .. [is] specifically designed to discourage those who would remove or
retain children in the hopes of seeking a 'home court advantage'").
5.
Moreover, no other provision in the UCCJEA supports Ms. Arimitsu's
registration request because the Japanese court orders were orders decided under the Hague
Convention and are not custody determinations. SeeFriedrichv. Friedrich, 78 F.3d 1060, 1063
(6th Cir. 1996) (FriedrichJI) ("a court in the abducted-to nation has jurisdiction to decide the
merits of an abduction claim, but not the merits of the underlying custody dispute") ; see Cook,
907 N.W.2d at 241 (citing UCCJEA § 102 cmt., 9 Pt. IA ULA 659 (1999), and holding that
" [c]ases involving the Hague Convention "have not been included [in the UCCJEA's
definition of 'child-custody proceeding'] because custody of the child is not determined in a
proceeding under the Internationa l Child Abductions Remedies Act"). Thus, UCCJEA
provisions that apply to foreign custody determination do not apply to the Japanese comt
orders decided under the H ague Convention. See, e.g., Minn. Stat. § 518D.105 (providing
that "a child custody determination made in a foreign country under factual circumstances in
substantial conformity with the jurisdictional standards of this chapter must be recognized
and enforced under sections 518D.301 to 518D.317. "). For all of these reasons, the UCCJEA
does not provide this Court with authority to register, recognize, and enforce the Japanese
court orders.

B.

The Unifonn Foreign-Conntty Money Judgments Recognition Act

6.
For one order, the March 2018 Japan order that vacated the Japanese court's
prior money judgment against her, Ms. Arimitsu relied on Minn . Stat.§ 548.54 eta!., known
as the Uniform Foreign-Country Money Judgments Recognition Act (UFCMJRA), and case
law to support her registration request.
7.
Mr. Cook argued that the March 2018 Japan order (along with other orders) is
in direct violation of Articles 11-20 of the Hague Convention. Thus, his argument is
supported by Minn. Stat.§ 548.57(c)(7) of the UFCMJRA which provides that this Court may
not enforce a foreign money j udgment order if "the judgment was rendered in circumstances
that raise substantial doubt about the integrity of the rendering court with respect to the
judgment." As discussed throughout this order, this Court finds that the Japanese court
orders undermined the purposes of the Hague Convention. Thu s, on that basis, this Court
may decline to register, recognize, and enforce the March 2018 Japan order. For similar
reasons, this Comt may decline to vacate po1tions of this Court's June 2017 order that were
based on the original Japan money judgments .
8.
Ms . Arimitsu ha s not demonstrated any respect for this Court's orders and she
remains in contempt of this Court. This Court will reserve its decision on whether to register,
recognize, and enforce the March 2018 Japan order until this Minnesota court case progresses
and Ms . Arimitsu demonstrates good faith compliance with the orders of this Court.
11

95a.

27-FA-15-499

C.

Filed in District Court
Stale of Minnesota
12/10/2018 3 :52 PM

Comity and the Hague Convention

9.
Ms. Arimitsu argued that this Court should extend comity to the February 2017
Japan order and orders following that order. Comity is at the heart of the Hague Convention,
and accordingly, courts in the United States must normally accord considerable deference to
foreign court orders issued under the Hague Convention. See Miller v. Miller, 240 F .3d 392,
400 (4th Cir. 2001). Such an approach is consistent with the Hague Convent ion drafters'
primary concern "with securing international cooperation regarding the return of children
wrongfully taken by a parent from one country to another." Asvesta v. Petroutsas, 580 F .3d
1000, 1011 (9th Cir. 2009) (citing Gonzalezv. Gutierrez, 311 F.3d 942, 944 (9th Cir. 2002)); see
also Smedley v. Smedley, 772 F.3d 184, 186 (4th Cir. 2014) (The Hague Convention goals are
"to secure the prompt return of children wrongfully removed to or retained in any Contracting
State; and ... to ensure that rights of custody and of access under the law of one Contracting
State are effectively respected in the other Contracting States.").
10.
Nonetheless, a U.S . comt "may properly decline to extend comity to the
[foreign] court's determination if it clearly misinterprets the Hague Convention, contravene s
the Convention's fundamental premises or objectives, or fails to meet a minimum standard of
reasonableness." Asvesta, 580 F .3d at 1014; Smedley, 772 F .3d at 189. Moreover, "in the
context of the Hague Convention, a court's decision to extend comity to a foreign judgment
may be guided by a more searching inquiry into the propriety of the foreign court's application
of the Convention," in addition to examining whether the foreign court's orders are consistent
with due process, fairness, and the impartial administration of justice. Asvesta, 580 F.3d at
1013. As discussed fu1ther below, this Court declines to extend comity to the February 2017
Japan coutt orders (and subsequent orders) because the February 2017 Japan order's findings
lacked support in the factual record, were contrary to the Hague Convention text and
purposes, and were inconsistent with how courts in the United States interpret the Hague
Convention's limited exceptions. 1

1.

Lack of Supporting Evidence

11.
First, the Court will not extend comity to the February 2017 Japan order
because the order's findings, particularly that Mr. Cook lacks financial resources to ensure a
stable environment for the children, were not based on sufficient evidence in the record.
According to Mr . Cook's credible statements, while his finances have been drained by the
expense of international travel and litigation , he has remained employed and he ha s access to
adequate housing, education, and support for the children. The February 2017 Japan order
itself acknowledged that Mr. Cook is cunently living with his friend to save money but "once
the children are returned to the USA, they will spend several weeks at their grandmother's
home, during which he will find a large house to rent so the family can live." The February
2017 Japan order similarly found that Mr. Cook "asserted that he would start working for
Mr. Cook's memorandum of law filed November 19, 20 18, persuasively cited international
authorities, including from Japan, that fu1ther demon strate that the Japan court orders were contrary
to the Hague Convention and to how other countries interpret the Hague Conven tion's limi ted
exceptions.
1

12

96a.

27- FA-15-499

Filed in District Court
State of Minnesota
12/10/2018 3:52 PM

Boston Scientific on October 20, 2015, but his cunent work situation is not clear ... ." In
other words, the order itself made clear that the Japan comt lacked current evidence regarding
Mr. Cook's employment and housing, but that Mr . Cook had asserted that he would have a
job and a stable place for the children once they were returned to Minnesota. His cunent
statements demonstrate that he has an adequate job and housing. The February 2017 Japan
order therefore lacked sufficient evidentiaty support.

2.

Contraryto Hague Convention Purposes

12.
Second, the Court will not extend comity to the Februa1y 2017 Japan order
because the order is contrary to the purposes of the Hague Convention. The Hague
Convention "is based on the principle that the best interests of the child are well served when
decisions regarding custody rights are made in the country of habitual residence." Abbott, 560
U.S. at 20 (citing Convention Preamble, Treaty Doc. , at 7). "Ordering a return remedy does
not alter the existing allocation of custody rights, Art. 19, id., at 11, but does allow the courts
of the home country to decide what is in the child's best interests." Id. Thus, the United
States Supreme Court has expressed concern that denying a return remedy for a violation of
the Hague convention would "legitimize the ve1y action-remova l of the child- that the
home country, through its custody order [or other provision of law], sought to prevent" and
would allow "parents to undermine the very purpose of the Convention." Id. at 21 (internal
quotations omitted).
13.
The January 2016 Japan order found that Minnesota is the children's habitual
residence under the Hague Convention. The February 2017 Japan order did not modify that
finding, but determined that the children no longer need to be returned to Minnesota . Thu s,
the order does not comply with the purpose of the Hague Convention in that it does not ensure
that custody rights will be determined in the country of the children's habitual residence .
Instead, the order legitimizes Ms. Arirnitsu's wrongful retention of the children.

3.

Overly Broad "Grave Risk of Hann" Exception

14.
The Februa1y 2017 Japan order rested in large part on Alticle 13 of the Hague
Convention, which sets forth limited exceptions to the requirement that wrongfully removed
or retained children must be returned to their habitual residence . Under Article 13, the Japan
court "is not bound to order the return of the child if the person, institution or other body
which opposes its rehtrn establishes that ... there is a grave risk that his or her return would
expose the child to phys ical or psychological harm or otherwise place the child in an
intolerable sihiation." As discussed further below, because the February 2017 Japan order
provided for an overly broad interpretation of the grave risk of harm exception, this Court
declines to extend comity to that order.
15.
The U.S. implementin g statute and case law provide that the success of the
Hague Convention depends, in large part, on a narrow construction of its exceptions. See 22
U.S.C. § 9001(a)(4); Rydder v. Rydder, 49 F.3d 369, 372 (8th Cir. 1995) (citing Friedrichv.
Friedrich,983 F .2d 1396, 1403 (6th Cir. 1993)) (FriedrichI). The "grave risk of harm" exception
in patticular is to be na1rnwly construed. See 22 U.S.C. § 9001(a)(4)("Children who are
]3

97a.

27-FA-15-499

Filed in District Court
State of Minnesota
12/10/2018 3:52 PM

wrongfully removed or retained within the meaning of the Convention are to be promptly
reh1med unless one of the narrow exceptions set forth in the Convention applies."); Rydder,
49 F.3d at 372 ("a court applying the Hague Convention should construe these exceptions
narrowly"). "The person opposing the child's return must show that the risk to the child is
grave, not merely serious." Id. At all times, "when determining whether a grave tisk of harm
exists, courts must be attentive to the purpose of the Convention." Walsh v. Walsh, 221 F.3d
204 (1st Cir. 2000).
16.
Fmther, the evidence that a child is at grave risk of physical or psychological
harm must be specific. Nunez-Escuderov. Tice-Menley,58 F.3d 374, 376 (8th Cir. 1995). For
example, in Nunez-Escudero,the Eighth Circuit found the evidence was too general to supp01t
the grave risk of harm exception where mother "submitted an affidavit that she was
physically, sexually, and verbally abused by her husband." Id. She specifically asserted that
"[s]he was not allowed to leave the family home without her husband or father-in-law. She
also stated that she feared for her baby's safety. She stated that her husband and his family
objected to her nursing the baby and that her husband refused to acquire a baby safety seat
for the car. [She] also detailed accounts of her father-in-law's verbal abuse, and stated that she
had seen her father-in-law hit his youngest son with a wooden plunger." Id. Consistent with
the purposes of the Hague Convention, the U.S. court in Nunez-Escuderofound that these
allegations were not specific enough to support the grave risk of harm exception. Id .
17.
The February 2017 Japan order did not provide sufficient specificity to support
its grave risk of harm conclusion. The order did not explain how Mr. Cook's financial
circumstances would cause a grave risk of physical or psychological harm to the children,
particularly given that the order acknowledged evidence of Mr. Cook' s employment and his
arrangements for renting a home upon the children's arrival. Many people in this and other
countries suffer temporary financial hardships far more extensive than in Mr . Cook's
situation, but it does not directly follow that their children are at grave risk of physical or
psychological harm as a result. For similar reasons, courts in this state, and in this country,
do not readily deprive a parent of custody or parenting time rights becau se of fmancial
hardships that do not endanger their children. Because the February 2017 Japan order failed
to meet the required level of specificity to establish the grave risk of harm exception, this Court
need not defer to the order under principles of comity.
18.
Moreover , the February 2017 Japan order established an overly broad
interpretation of the grave risk of harm exception that is contrary to how courts in the U.S.
interpret that exception. Courts in the U.S. have generally limited the grave risk of harm
exception to two types of situations: those that put "the child in imminent danger prior to the
resolution of the custody dispute-e.g., returning the child to a zone of war, famine, or
disease" and those that put the child at risk of "serious abuse or neglect, or extraordinary
emotional dependence, when the court in the country of habitual residence, for whatever
reason, may be incapable or unwilling to give the child adequate protection. " FriedrichII, 78
F.3d at 1069; see Public Notice 957, Hague International Child Abduction Convention; Text
and Legal Analysis, 51 Fed. Reg. 10494-01, 10510 (1986) (for grave risk of harm, " [a]n
example of an 'intolerable situation' is one in which a custodial parent sexually abuses the
child."). See alsoBlondin v. Dubois, 189 F.3d 240, 247 (2nd Cir. 1999) (upholding the district
14

98a.

27-FA-15-499

Filed in District Court
State of Minnesota
12/10/2018 3:52 PM

court's finding of grave risk of harm where petitioner father routinely beat mother in front of
the child and physically assaulted the child); Turner v. Frowein, 752 A2d 955, 974 (Conn.
2000) (finding grave risk of harm based on strong evidence that petitioner father had sexually
molested his son).
19.
Further, the grave risk of ha1m exception "was not intended to encompass
return to a home where money is in short supply, or where educational or other opportunities
are more limited than in the requested State." 51 Fed. Reg. at 10510. For these reasons,
courts in the United States do not find grave risk of harm "where repatriation might cause
inconvenience or hardship, eliminate certain educational or economic opportunities, or not
comport with the child's preferences." Blondin v. Dubois, 238 F .3d 153, 162 (2nd. Cir. 2001);
Cuellarv. Joyce, 596 F.3d 505, 509 (9th Cir. 2010) (evidence that a child will live in a home
with "no indoor running water[,] . . . no climate control, no refrigeration, and very little
furniture" came "nowhere close" to establishing grave risk of harm) .
20.
The February 2017 Japan order, in contrast to these auth01ities, was based in
large part on findings that Mr. Cook's financial situation might cause inconvenience to the
children . Additionally, the February 2017 Japan order relied on Mr. Cook's purported lack
of clarity regarding where the children will attend school in that he stated that the children
"could go to a chartered school without paying tuition, and failed to suggest a specific school."
That finding is particularly inconsistent with the narrow grave risk of harm exception. The
evidence unequivocally demonstrated that the children will attend school in Minnesota, even
if Mr. Cook did not identify the specific school the children will attend.
21.
The Februaiy 2017 Japan order also improperly relied in pa1t on a finding that
Ms. Arimitsu will have difficulty providing a stable place for the children to live in Minnesota
because she does not have a Minnesota residence. U.S. courts have rejected the grave risk of
harm exception that is based on the abducting parent's inability to support herself and the
children if ordered to return to the children's habitual residence. Krefterv. Wills, 623 F. Supp.
2d 125, 137 (D. Mass. 2009) (finding mother did not meet exceptionally high standard for
grave risk of harm exception where she contended that if she and the child were ordered to
return to the child's home country, she would have no way to support herself and the child,
and they would end up homeless).
22.
Fmther, this Court declines to extend comity to the Februa1y 2017 Japan
order because the order delved into the metit s of the underlying custody issues by comparing
the children's living situation in Japan with their potential living situation in the U.S . Thus,
the order violated the fundamental rule that "a comt considering a Hague petition should not
consider matters relevant to the merits of the tmderlying custody dispute such as the best
interest of the child, as these considerations are reserved for the courts of the child's habitual
residence." Asvesta, 580 F.3d at 1015. According to the U.S . State Department's legal
analysis of the Hague Convention, the "grave risk of harm" exception "was not intended to
be used by defendant s as a vehicle to litigate (or relitigate) the child's best interests." 51 Fed.
Reg. at 10510. Because the purpose of the Hague Convention is to reserve the custody
determination to the place of the children's habitual residence, it is no t appropriate for a
Hague Convention court to weigh the relative financial comfmts or opportunities available to
15

99a.

27-FA-15-499

Filed in District Court
State of Minnesota
12/10/2018 3 :52 PM

children in one country or the other. Friedrich.II, 78 F.3d at 1068- 1069; Ry dder, 49 F.3d at
372 .
23.
Additionally, this Court declines to extend comity to the Febrnary 2017 Japan
order because even assuming Mr. Cook's financial situation posed a grave risk of harm to the
children, the type of harm was so limited that the Japan court could have addressed protective
arrangements and safeguards to allow for the safe return and repatriation of the children . See
Blondin v. Dubois, l 89 F .3d 240, 249- 50 (2d Cir. 1999) (before a court properly can decline to
order the return of an abducted child under the Hague Convention, court should undertake a
thorough examination of "any ameliorative measures (by the parents and by the authorities
of the state having jurisdiction over the question of custody) that can reduce wha tever risk
might otherwise be associated with a child's repatriation") . In other words, consistent with
the Hague Convention, Article 3b, the Japanese court could have evaluated "the full panoply
of arrangements that might allow the chilch·ento be returned to" Minnesota and in order to
allow the Minnesota court "an opportunity to adjudica te custody." Id. at 242. For example,
the Japanese court could have examined such measures as whether the children "could be
returned under the supervision of the parent defending against th e petition or under the
custody of an appropriate third party, and whether the jurisdiction to which the child would
be returned is capable of enforcing the remedial conditions of the return order." Id. With
such measures, the purported "grave risk of harm" that was "associated with granting the
petition [to return the children] might well be eliminated." Id. Stated another way, even if
the grave risk of harm exception was supported by the facts and law, consistent with the
Hague Convention purposes, the Japan court could have exercised appropriate discretion to
order return the children to Minnesota with conditions . FriedrichII, 78 F.3d at 1067. That
the Japan court failed to do so is an additional reason this Court declines to extend comity to
the Februa1y 2017 Japan order.

4.

Overly Broad "Mature Child Objection" Exception

24.
The February 2017 Japan order also declined to order the return of the children
based on its finding that "the [c]hildren refused strongly to be returned to the U.S." Article
13 of the Hague Convention provides for an additional narrow exception, called the mature
child objection exception. It provides that "[t]hejudicial or administrative authority may also
refuse to order the return of the child if it finds that the child objects to being returned and has
attained an age and degree of maturity at which it is appropriate to take into account its
views." Id. As discussed further below, because the February 2017 Japan order provided for
an overly broad interpretation of the mature child objection exception, this Court declines to
extend comity to that order.
25.
The February 2017 Japan order based its mature child objection exception on
a visit to Ms . Arimitsu's home in September 2016 by a Nara District Court enforcement
officer. During that visit, "the [c]hildren strongly refused to be returned to the USA, and the
enforcement officer, after consulting with officers of central authorities, ended up deciding
that enforcement cannot be executed because proceedin g of the enforcement in this way may
have adverse physical and psychological effects on the oldest son and second son ." Id. The
Februa1y 2017 Japan order went on to find that "the oldest daughter and third son express
16

100a.

27-FA-15-499

Filed in District Court

State of Minnesota
12/10/2018 3:52 PM

that they enjoy the current school they go to, and are happy about the current life." Id .
Because the February 2017 Japan order's conclusions are inconsistent with how courts in the
United States interpret the limited exception, tbis Court declines to extend comity to the
order.
26.
The February 2017 Japan order relied on the purported views of the two older
children expressed when Mr . Cook sought to enforce the return order and when Ms . Arimitsu
was actively resisting releasing the children. As Mr. Cook has credibly contended, Ms .
Arimitsu has alienated the children from their father, and therefore, the children's views
should be given no weight. Indeed , because of Ms. Arirnitsu's actions, including resisting this
court's orders, Mr. Cook has not had any contact with the children since 2015. The children's
views are tainted not only by their mother but also by their involvement in this contentious
and lengthy process . Moreover, under the circumstances, after having become acclimated for
several years to Japan, the children are resistant to being uprooted again.
27.
The Japan court order's broad interpretation of the mature child objection
exception is contrary to the purpose of the Hague Convention. The Febrnary 2017 Japan
order did not consider Ms. Arimitsu's alienation, nor did it otherwise demonstrate why the
children's objections should be given weight. In similar situations, U.S. comts have declined
to afford weight to the children's stated objections. See GonzalezLocicero,v. Nazar Lurashi, 321
F. Supp. 2d 295, 298 (D.P.R. 2004) ("The fact that the child prefers to remain in Puerto Rico,
because he has good grades, has friends and enjoys sport activities and outings, is not enough
for this Court to disregard the narrowness of the age and maturity exception to the
Convention's rule of mandatory return."); In re Robinson, 983 F. Supp. 1339, 1343-44 (D.
Colo. 1997) (evidence that a parent has unduly influenced the child will generally bar any
application of the mature child's objection exception).
28.
The February 2017 Japan order similarly did not take into account the extent
to which the children's views are impacted by their extended absence from their father and
their habitual residence in Mim1esota. See Yang v. Tsui, 499 F.3d 259, 280 (3d Cir. 2007);
Giampaolov. Ernetta, 390 F. Supp. 2d 1269, 1275 (N.D. Ga. 2004). Most importantly, the
Japan order did not recognize that the mature child's objection exception is narrow and that,
despite the children's purported preference , the purposes of the Hague Convention are
furthered not by rewarding the abducting parent but by returning the children to their habitual
residence . Therefore, this Court declines to extend comity to the February 2017 Japan order
or to the orders issued thereafter.
II.

Separate from the Hague Convention Issues, This Comt Retains Subject Matter
Ju.risdiction

29.
Because the Hague Convention and the UCCJEA operate independently of
one another, this Court may pro ceed under th e UCCJEA without regard to the Japanese comt
orders issued under the Hague Convention. SeeIn re T.L.B., 272 P.3d 1148, 1154 (Colo. Ct.
App. 2012) ("Proceedings under the UCCJEA do not conflict with, and are not preempted
by, proceedings under the Hague Convention because the two laws address different
objectives."). Under the Hague Convention, Japan had jurisdiction to decide the merits of
17

101a.

27-FA-15 -499

Filed in District Court
State of Minnesota
12/10/2018 3:52 PM

the return petition, but it does not have jurisdiction to make the custody determination. Hague
Convention, art. 19 ("[a] decision under this [Hague] Convention concerning the return of
the child shall not be taken to be a determination on the merits of any custody issue"); 22
U.S.C. § 9001(b)(4); seeFriedrichII, 78 F .3d at 1063; Carrascosav. McGub-e, 520 F.3d 249, 260
(3d Cir. 2008).
30.
Therefore, even if the Febrnary 2017 Japan order had properly applied the
grave risk of ha1m exception or the mature child objection exception , Minnesota remains the
children's home state and habitual residence, and this Cour t still retains subject matter
jurisdiction to render custody and parenting time decisions. See Simcox v. Simcox, 511 F.3d
594, 607 (6th Cir. 2007) (finding "grave risk of harm" determination by the Hague
Convention country is not an invitation for an abducted-to country to also decide the child's
best interests); FriedrichII, 78 F.3d at 1068 ("grave risk of harm" exception is not a license for
abducted-to country to decide best interests because that decision is a custody matter reserved
to the child's country of habitual residence); Kufner v. Kufner, 480 F .Supp.2d 491, 508-09
(D.R.I. 2007), ajfd, 519 F.3d 33 (1st Cir. 2008) (the Hague Convention is designed to ensure
that the child's best interests are presumptively litigated in the child's country of habitual
residence).
31.
The Minnesota Court of Appea ls has affirmed this Court's determination that
it has subject matter jurisdiction of the parties' minor children under the UCCJEA. Cook,
907 N .W .2d at 240 ("we conclude that the district court correctly ruled that it had home-state
jurisdiction to make an initial child-custody determination "). Nothing in Ms. Arimitsu's
cunen t filings changes that determination. Moreover, Ms. Arimitsu's current filings do not
add any new material facts. The Court was well aware, and this Court addressed, the
February 2017 Japan order in this Court's April 2017 order denying Ms. Arimitsu's motion
for amended findings. Because the Minnesota Comt of Appeals affirmed the April 2017
order, this Court's subject matter jurisdiction determination is final.
32.
This Court continues to find that it also bas subject matter jurisdiction of the
parties' minor children under Minn . Stat. § 518D.20 1, subd. (a)(4), in that no court of any
other state or country would have jurisdiction pursuant to the criteria set forth in Minn . Stat.
§ 518D.201 or comparable statute. No court in Japan should exercise jurisdiction of the
children because, among other reasons: (1) the parties' dissolution proceeding is pending in
Minnesota and will be active; (2) one party resides in the U.S., that party has not abandoned
the family, and his whereabouts are known; and (3) the parties are still legally married. In
addition, by operation oflaw, "a court in the abducted-to nation has jurisdiction to decide the
merits of an abduction claim, but not the merits of the underlying custody dispute." Friedrich
II, 78 F.3d at 1063.
33.
Even if Japan is exercising jurisdiction of the underlying custody dispute, this
Minnesota court would continue to have jurisdiction that should take p1fority because at the
time Mr. Cook commenced this proceeding, no other child custody proceeding was pending
in Japan. See Abu-Dalbouh v. Abu-Dalbouh, 547 N .W.2d 700, 705 (Minn. Ct. App . 1996)
(stating that the UCCJEA "establishes a first in time priority").

18

102a.

27-FA-15-499

Filed in District Court
State of Minnesota
12/10/2018 3:52 PM

34.
In sum , despite the Japan court orders, this Court continues to have subject
matter jurisdiction over the patties, the children, and the dissolution . This Court also
continue s to have personal jurisdi ction over Ms. Arimitsu and Mr. Cook, both of whom have
had a number of qualitative contacts with Minnesota during their marr iage and both of whom
filed pleadings and have ma.de appearances in this Court. See Mahoney v. Mahoney, 433
N.W.2d 115, 117 (Minn . Ct. App. 1988); Wachsmuth v. Johnson, 352 N .W.2d 132, 132 (Minn.
Ct. App. 1984).
35.
Moreover, this Court has authority to continue to order Ms. Arimitsu to return
the children to Minnesota regardless of whether Japan has declined , under the Hague
Conven tion, to order Ms. Arimitsu to return the children to Minnesota . Chafin v. Chafin, 568
U.S . 165, 174-75 (2013) (in Hague Convention disput e between father in the U.S. and mother
who took the children to Scotland, Comt held that " [t]he U .S. courts continue to have
personal jurisdiction over [the mother], may comman d her to take action even outside the
United States, and may back up any such command with sanctions") .
36.
M s. Arimitsu also moved this Court to decline to exercise juri sdiction by
finding that Japan is a more convenient and appropriate forum under Minn . Stat.§ 518D.207
and the doctrine of forum non conveniens. For all the reasons stated in this order, this Court
does not find that Japan is the more convenient and appropriate forum.

III.

Ms . Arimitsn Has Unreasonably Contributed to the Length and Expense of this
Proceeding

37.
Both parties moved for conduct-based attorney's fees against the other party .
For the reasons that follow, the Court will award Mr. Cook conduct-based fees and will deny
Ms . Arim itsu cond uct-ba sed fees.
38.
A district court may, but is not required to, award conduct-based attorney fees,
costs, and disbursements "against a party who unreasonably contributes to the length or
expense of the proceeding ." Minn. Stat.§ 518.14, subd . l; Crosby v. Crosby, 587 N.W .2d 292,
298 (Minn . Ct. App . 1998) (An award of attorney fees "rests almost entire ly within the
discretion of the trial court and will not be disturbed absent a clear abuse of discretion.").
"Fees, costs, and disburs ements provided for in this section ... may be awarded at any point
in the proceeding .... " Minn. Stat. § 518.14, subd. 1. A showing of bad faith is not required
und er Minn. Stat.§ 518.14, subd. 1. See Geskev. Marcolina, 624 N.W.2d 813, 818-19 (Minn.
Ct. App. 2001).
39.
Ms. Arimitsu's present motion is in large part a reha sh of the same arguments
she made before this Court in connection with her motion for amended findings and other
submissions. When this Court issued its April 2017 order denying Ms. Arimitsu's moti on
for amend ed finding s, the Court was aware of the February 2017 Japan order, modifying the
January 2016 Japan order regarding return of the children. Ms. Arimitsu appea led the April
2017 order and the other subject matter jurisdiction orders, and the Minnesota Court of
Appeals affirmed this Court. Thus, in Ms . Arimitsu's motion, she has attempted to relitigate
issues that she previou sly rais ed with this Court and that this Court ha s now conclusively
19

103a.

27- FA- 15-499

Filed in District Court
Slate of Minnesota
12/10/2018 3 :52 PM

addressed. Ms . Arimitsu has not complied with any of this Court 's order s and she remains in
contempt of court. Through her continued resistance and meritless challenge to this Court 's
orders, Ms. Arimitsu has unreasonably extended the length and expense of this proceeding ,
Mr . Cook's request for conduct-based attorney's fees is granted .
40.
The Court finds no supp01t to M s. Arimitsu 's contention that Mr. Cook has
perpetrated an ongoing fraud upon the Court or has otherwise unreasonably contributed to
the length and expense of this proceeding . He has not, as she argued , acquiesced in the
children remaining in Japan . Her request for conduct-based attorney's fees is denied .

IV.

This Matter Should Proceed Without Further Delay

The parties' marriage has not been dissolved, Permanent custody and
parenting time of the patties' minor children has yet to be addressed and remains pending in
this Court. Even though the process to return the children to the United States will be
disruptive to the children, that disruption is outweighed by the need to have the custody of
the children .finally determined here in their home state of Minnesota and fm the children to
have a chance to know both parents despite their mother's wrongful retention of them in
Japan. The Court finds that this Minnesota dissolution proceeding, including the custody
and parenting time issues, shall proceed without further delay. The Court has addressed the
process below .
41.

ORDER

Ms. Arimitsu's motion to register, recognize, and enforce th e Japan comt
orders and documents is denied in all respects, except that Ms . Arimitsu 's motion to register,
recognize, and enforce the March 2018 Japan order is reserved until this Minn esota court case
progresses and .Ms. Arimitsu demonstrates good faith compliance with the orders of this
Court .
1.

2.
Except as modified and clarified in this order, the Court hereby reaffirms its
prior findings offact, conclusions oflaw, and order determining that this Minnesota court has
subject matter jurisdiction over the minor chilciJen.
3.
Minne sota .

Ms , Arirnitsu is again ordered to return all four of the parties ' children back to

4.
To accomplish the return of the children to the United States and to proceed
with a final determination of perm anent custody and parenting time, this Court shall stay any
additional contempt-related sanction s against Ms . Arimitsu. That is, the Court will not issue
a warrant for Ms . Arirnitsu's arrest. The Court reserves the right to lift this stay in the event
Ms. Arimitsu continu es to be non -compliant with this Court's orders.
5.
This Court wm promptly schedule a trial on the parti es' dissolution, includin g
perman ent custody and parentin g time of the minor children . The Court's clerk will schedul e
a telephon e conference with coun sel to discuss scheduling trial and related issues.
20

104a.

27-FA- 15-499

Filed in District Court
State of Minnesota
12/10/2018 3:52 PM

Alternatively, at the Court's discretion, the Court ma y address these matters through wr itten
submissions.
6.
Ms. Arimitsu , through counsel, shall inform the Japan court of this order and
shall request that the Japan court stay or dismiss its dissolution proceeding, including custody
and parenting-time related matters.
7.
Both parties shall appear in person for trial. In the event that one party does not
personally appear, the trial shall proceed as scheduled and may result in granting the other
patty equitable and fair relief by default and in the best interest s of the children. This Court
will not entertain any request for appearance by telephone or any other alternative means
from either party.
8.
Mr. Cook's motion for conduct-based attorney's fees and costs against Ms.
Arimitsu is gra nted . Within ten days of the date of thi s order, Mr. Cook shall file an
appropriate attorney affidavit supporting his claim for attorney's fees and costs incurred in
this Minnesota proceeding since May 17, 201 7. Within ten days of the date of filing his
attorney affidavi t, Ms . Arirnitsu is permitted to file any objections to specific items or
categories of items .
9.
Thi s Court reserves the rightpursuantto Minn. Stat.§ 549.211, § 549.09, and
other statutory provisions to enter judgment and imp ose further sanctions upon Ms . Arimitsu
for any non -compliance with this order and the Court's prior orders .
10.

All other motions and requests, to the extent not addressed in this order, are

denied.
11.
All provisions of prior orders, not modified by this order or incon sistent with
the terms of this order, remain in full force and effect.

BY THE COURT :

Dated : December 10, 2018

~a

-

-~

Nicole A. Engisch
Judge of District Court

21

105a.

l

27-FA-15-499

Filed in Fourth Judicial District Court
6/5/2018
5/23/201811:43
1:55 AM
PM
Hennepin County, MN

'

'

0 3 2

m

[

_fr.
C,

:Jr

3't
~ R m1~~i,' 2 T § 2 7 :ffi:5

c

l-J..

%

L,tcr

~~fc$;/J0

0

3't

JR] )3fi

JII

:k~.&?iii~MtUmlJZ/Jx
2 9'¥- (?)

~2 1

Jl./l

%~rnlrR:xfO)?J£:<l$ft·c~{tJ:fc-')v'--C,

mtr_AiJ,Gmtril>Jb--:itco J::
!Rl8lUJ3FiiJ,lJZ/Jx2
9'¥-2Jl 1 7 S fc L,fcrR:xi::fc)(-j-L,,
0--C,

~-~m~. ~O)c~9rR:xi::T00

-

l

*{4=m

±

)(

tr 1i"~tp T 0 o

mtrlt ffl f'imtr

,AO)ffiJll.c T 00

:Ell!
~

1 mtr{"t:Ell!A~al~.

13:l

JR]fiiJll!f!t:Jr,IRlm?iii][{'S:.~O)mtr:fll!lt~iJ,GJJY~c'fC

- 1 -

106a.

27-FA-15-499

Filed in Fourth Judicial District Court
5/23/201811:43
6/5/2018
1:55 AM
PM
Hennepin County, MN

mi!r,A., t§-=fr-:n&V:frlii450)-'f445
(W,T f:;$:ftl:-'fGJ t:v'5o)

(1)

t7;(!J.:tJ'fr~OO
6 :¥ 7 Jl ,

(W,T r*OOJ t:v'5o)

l'i, v'-fh

""t'/Plfts-L--Cv'kiJ,,t§-=fr-:1:Jl'i,
3:JZ,5,lt2

m'i1fA tLi<'J"L --C/Pl:¥8 Jl 'P fL* 00(L1'icQ ~ 0) ,1\'J
JR:a:L --C,

:,$:{4-'f G :a:
:if

:h --CS :,$:IL.A00L, :,$:{4-'fG t: ;it tLt§-=fr170) frliiffl
~ tLfts-{:l:
L --Cv' 0 o J:.~ 0) AOO'"§
~. *14-rG0)5~:¥*0)~-'f--z"m0*~&a=~~11a1 ■ JJ--z"m~. :¥&0)
~-'f""t'm 0*ft:& a::::c~ f'i 6 a 5 ■ Jl ""t'm0 t;:o

(2) t§-=fr-:1:Jl'i,
mi!r,A.iJ>G3:JZ,5,lt2
6:¥9JlW,~tLliG<
:ht;: t;: "/JJ
,
~ ~ itt;:iJ,,

m'erA 0) T lJ::a:tlJ,--C:,$:{4-'f G :a:[A]~,

*

26

0)

7' - T 1/

3

T ;v .7. c:7- ; v fLA

mi!r Al'i, 3¥,5,lt
2 7 :¥ 8 Jl, :,$:{4-'fG tL-Jv'--C, 00~13'Jft-'f0)

1;J&O)~:JJJ:.O)fJ!IJoo
fLM-t-0

.. . .. - .
.. . .

1/

:,$:{4-'fG 0)*00""-0)1100 tL-J v' --Cmi!r
At: t§-=Jc-:1:JO)~JliJ,!<'J"

-t 0):/&,

3LT0 J::5 tLft

17)-{

B:,$:fLv'0J::5fLi§:b

**'lO)~:/JfJifL
Mi""0 it$

mnc:,
L J::0 -=r0) il&~ 0) $ 3'L--c(w,r

(w,

r

r~:/JfJi$J t: v, 5

r* 14$ 3'z:--c
J t: 1,, 5

0

)

0

)

:a:L tc

0

(3) :,$:{4$ 3'z:--CtL1*'0 -=fr-~fL:f5v' --C, ~ !€~'¥Uffl wffiJ['g fLA" L , ft~ & If=~

,.

r:t,

*oo ,Lil&~~ :n0

=-t: :a:-rJm
< t§:~-t- 0 ~ :a:-izt.r<:,
¾ft:& a::::c~ t,

~ :h 0 :_ t: lLt§:'B 1¥:J
ft~ Ji

:htc< ftv'~:a:izE.r<:f;:o

:a:ilt-'"'td ;I ii',

"i.t;:,

*oo,Lil&~

:,$:{4r G l'i, v'-f :h t ft[l,0) JL~

**tlc
t: /Ill

mi!r,A.f'i, :_O)~Ji:fLl'i,:,$:{4-'fG:a:-~-lj)JfL\¥.:wf.'/'i

T 0 f;: 60O)~jfj=i¥:J£~:a::w
L --C:toG-f, -t 0) ~Wi•'i'i /L-J v'--Cffi~~iJ, G*l£~13':J
ft
x:Jl:a:-§ttt Q :_ t: b JlJZ;"i.;hftv ,iJ;:m,fLai,)0 t;:
(4)

*

0

::k~Ril!li~~'¥/J!Yil'i,
3:JZ,5,lt2
8:¥1 Jl, ¾:!,IJ&If=:!,!JfL-Jv'--Cl'i,~1!@;$2 8

1 ~ 5 %0)il&~t§::e;::JJ
m iJ,mo t: ~60 ftii' G, *OO,Lil&~-t-.t =-t: iJ,-'fO)f11:~,L

tc l,~O):J;jl,;(t:fr~ffiT-'"'~ t 17) t: L, ¾ft:& If - ~ tL-J v'--c
-t 0) ~ Ji :a:~
11:-t-0 =-t: ti,~ '"§tt f££1t0) ,5,lt
~ £It,L~ L --cv, ft v, =-t: ~ :a:
l:!l!m ,L

jf-t" o t: ~60 --C['i,J~f;:
1:t,

[A]~ 5

%0)il&~:t§:'e:f:!Jm
l'i~"/JJG:h-f, il&~lLJ::~ -'f :a:
wt;tJtv ,iJ;:mfLJi:< :_ t: t:

ft 01i::kftmJ~iJ,

m0 t: l'iv' ;t ttv ,iJ, G [A]~

4

%0)il&~:t§:'2:f:!Jgi
t ~60 G:hftv'ft

.l::'t:L--C, :,$:{4-rG'a'.v'-fht*OOfLil&~TQJ::
;'E:J t:v'Jo

5frt-f0/'.:k:n:: (YT

) :a:-Lt;:o ~~]JIJ/;k:;(E:l'i,f'i,JJl, :fitn::Lt;:o
- 2 -

107a.

r~~]JIJJ'.k:

27-FA-15-499

(5)

mE )d:l:,

Filed in Fourth Judicial District Court
6/5/2018
5/23/201811:43
1:55 AM
PM
Hennepin County, MN

-'JZ
JJx;2 8 if- 2 Jl f;: 1'§"F:tr& V;,J,:
{t:j='r
G c ,@{±L, --Cv' ft. * 000 § ~

n>~% ~ :n tc k. IJb, IAJif-8 Jl l;J[,

§ ~ ~ f!Jlitr!Jt
1..,,,fllA~

~{f

0-~

i'.J--c{1t.PJ:

5

f;: tt-0 tco
(6) mEAf:l:,

~fi~

R]!lllJi~Ul:fclt---5'2', ;,J,:{t:j::'rG0~ii0fi;w~11'~$

L,,:s'L--Ctc.

f:l:, -'JZJJx;
2 s if. g Jl 1 3 13, ;J:§
+ :tr& V;,J,:{t:j='r
G fcxt 1..,,
~1~ ~1-r 0 --c, ;,J,:{t:j::

-r-G~mEAc:ffo~~-tt-J:?

c J..,,tcn>,;,J,:{t:j::'rGf:l:,*OOfc~~~;hg=:.
C J..,,ttn•0k.. ~f-r'§'f:l:, IA]Jl 1513,

l.,,"(, fAEACffo~l.,,J:?

~-tt-tc.n,,*~&v=~0;@':r,'iJfcR{r:;f:ttt

mE ,A .i::0r~,-c~it~

§

=:.c ;o,-C'2'ft

13<:I
~~To

v' t

ft~&v=~c
<, J:ti:\{i;w~'i'-r

f;:--:iv'--cf:l:, ~.11':a:,t~Hto c ft~ & a=~ o:i,i:,,~f=~~tt~l,ll:a:
o =:.c ti t'i6• G, -t 0

c ~:Je*§

& ff'""t:J3-t;n;o,&J
J: i'.J~

0 c 1..,,
--C, ~fi::f~,c

T ~ -tttc (00~13<:I
tt'r 0'fll:J&0 ~- J: 01Jl!Jffo
,:::MT o ~{f'J 0 '%Mii
f;: MT o f;1:;:$,c J:
o'r0~~fcM-t
.

'.

.

2

0${t:j::0+~~fcM-t

o ffl]!JJ8 9 ~ 2 %)

o

1..,,
t:::.
~ 0$·~ 0 R]! f;: J: i'.J =:.h :a:~:fs\'

:$:ft/=
f:l:, 1'§+:tr75,, R]!M~;ti6,l1t;t

--c, ~MiiW1 1 7 ~ 1 JJ:f;:£---5'2', R~M~;t
To =:.c 75,::f~ fc tt 0 tc c ±~ 1..,,

:a:

R]!1..,,, :$:#$:st--c~~T-toJ:::i*IJbo••-c&Jo.
3

J:~G')~~f;: J:hf:f,

~~ Xv

lb :t:ntt

,--z-:j:;;
i'.J, -t 0~if4'1'f
fc---:i1t,
--c~~~i6• G~~fl'J

v,;[kt5cf;: &J0 k. c =:.JS, R]!lllJ~;E'.0lti;E'.~,

1..,,, -t:n~•.

*·

mE ,Af:l:, ;,js:{tj:-y
G ~~-l)J]f;:~ifTo

f;::_/J6G')~~fl<J£

ttxwt :a:st ft o =:.<1:'.t Ji

,@{±L, --Cv't:::.§ ~ ~llJHtrllt

*#-r-G0tc.1Jbfc*;t1..,,tc.{±rcs-~•*-t-o=:..i::n,-c'2'~<~0k.M

;,js:{t:j::-y
G ;0'*00 f;:~iffi: ~ :hk.~il-0mE

,Af;: J: o f;;:if4'1'fl'iJ~n>:'i-i&JJ..,,1ittv'

:fiocfc~{r:; J..,,tc
c v'? •IW0R]!i6>:'.E. Ct:::.
c 1,,,?-"-2' -C&Jo. -t 5 To c ,. *OOfc
~~~:no=-

c

~-,r

oft~&

v=~

fc---:iv,--z-,~Miif* 2 s ~ 1 JJ

;o,~ IJ6Gho f;: t 75,75,t;i
Gf*OOf=~~T

5 %0~~t§:B•ffl

0;fiJ?cl:fCJiTo

1..,,
--c:Je~1..,,
tv,

t

o =:.c f:l:,

0 c l:l:~/JbG:nttv'?J' G, [AJ:r:jk_t;:l.,,*0ffl;tf;:

t

J: i'.J~~~f,,f

tt v'• :t tc, ft:tz:lk.V - ~ f;:--:iv '--Cl:l:, fi!ii~0;J,<~ *00 f;:~~T
o =:.c f:l:--C-2'

@M~M~fC&Jo~~~~-C&Jo;,J,:#-r-G~S*c:*OOcfC~-TOM*~~fo
- 3 -

108a.

f:l:~'r

oc

27-FA-15-499

::_ !::'.ft

Filed in Fourth Judicial District Court
6/5/2018
5/23/201811:43
1:55 AM
PM
Hennepin County, MN

2='*14t:::ffl.:n
t:.--1:m
oy)jl=,tJ'a:'~a-t-:ntf,

*00

t:::i!fii T 0 ::_!::'.f;:::
J::0 t 'f 'a:'

m;z~v '~i5l.(;::]I:< ::_!::'.!::'.ft -311:kftm;~;#U)5ib 0 !::'.v' 5 "'~

-Cib 0 ;,j, G, f,,Jl]:4 %

O).i/Riiffi~•m7'.15ib0!::'.Rb000)7'.15ffi~-Cib0.
Lk7'.150t, RIM~~~.
!::'.7'.15;:;i:::
~ !::'.ft-3

~O)•~•O)•MO)Rif:::J::0--c:=_:n'a:'a~-t-0:=_

f;:::~-::,
t:. !::'.■ bD -3"'~ -Cib 0

;,j, G,

~:hml':t1 1 7

~::_:n'a:'RIL,

*14$ttt'a:'~TT-30)7'.15ffi~-Cib-3.

f;:J:
, /fflmia
f;:::
:lo1,,, t

~■ T

*

l l]:0);1:)1.~f;:::
J::

:=_tt,!:::f,,J~0)~-0)~~

0 ::_!::'.ll5-c~ 0 " mia
~ f;:J:
, tli:ffiT 0 ::_!::'.ll5-c~ ft

1t, •

f,,JJiJ;:::-:J v' -C

ffi 2

*14~~f;::: J:::h ff, ~· O):Jtffi':
/;:::,ijffRa
O)J!l;j':tf;:J:
ft v'• fRa~ f;:J:,tli:ffiT 0 :=_!::'.,l5-C
~ftv'.

J::0-C, M~ff~A-~0)-~-C.

~XO)!::'.:lo~~~T-3.

~:lo. M~ff~-~-

5 ib 0 •
0)ti!Llr:
X ~ 7'.1

MtUff1J,~m0)1ill"Jr:X~f;:J:,!)(O) !::'.:lo~-Cib-3.
f.l f;:!:
$ ~1

~ t;:::
Jt [R]T

0 t 0)-cib 0 ,)5 ' :t'f-=f
0).

00~ !'.t:J
ft 'f 0)• !& 0)~. J:. 0)fPJJ
Emf;:::
F,,!,l
T 0

~ 'a:'tillJi':L, -c:lo~

*

ir,<J( J;i,T

t:. V \

*

r* 14'

5~t1t~-C.;b-3
5. ) f;:J:,'fO).il;,:~f;:::F,,!,j-j-,5.:i:J[l;:::;lov'-C'fO)flj~ll

-r/1)
ft Jls-m±&OO
t::::lov,-cM~r

§0) t:. b0t:::t;:!:-1-0)
.ii;,:~,:::
r,J,J-t0 n ♦ 'a:'

0

ir,<J
J !::'.v'

!::'.L,

-1-0)flj

0 ::_!::'.ll5~ ;t

f;:::i]l.::h:ti
G:h t:.-1-0)ill~ ft.i!R~ 'a:'a1%-t-0 ::_!::'.~'a:'§
L 1t, !::'.v' 5 Mtli':0)T f;:::,;;i:::r:t
ft:)!::'.
L tv' -3.

*14*ir,<J
'a:'~ ft, ~Mi):$

2 7 *t'i,

~,s-f;:::f;:!:-1-0).i/R~'a:'-iftt
c ft ft:hffft G ft v,
f;:J:,-1-O)flJ§ 'a:'lg] 0
lfftGftv'.
~•

;tk,

, ~:tif!ii':t2 s

v' 5 ~.I'?:ll' G, ::_0) Dli:JIU
'a:'iJi<~11 L -cilli~!H:::xt5lb
L ft ft :h

ti,.::_
0)11uJ1-rt:1•
m t *t:.,

.i!Ri:ill,-11:::&1r-t-~fll.

-r/1)
13'1$:

'fO)~§'a:'[gj-3 ■ ~-C~bDG:hktO)-Cib-3.

=~f;::: v'--C/;:J:,- _. L -C*00"'0) .i!Ri:i'a:'J'§:M§
T 0 X ,\!!,'a:'

*

!::'.L -c

!::'.

ft:J~Xm~'a:'~aL-c,

~

v, 5 ~JIU'a:'~bD.-C:lo
~ , aium

!::'.

~1if!ii't2 8*/;:J:, ::_O)~J\IJ'a:'ifi!r'i;:tt:.J:.-C'fO).i/Rii'a:'J'§:~T"'

m 'a:'~ b0-c", 0

2 ¾~ &V

51¥T-3
f,,J*f;:::ffltf-3.i!R~•m 7'.1

11'

-:J

1 lJl:5 % r:::
~~

r 0•

m ll51'¥-t0. 5r,~

- 4 -

109a.

Lt :lo

~***
( 5 t-c.v,l
~ J::

!::'.0)

27-FA-15-499

Filed in Fourth Judicial District Court
5/23/201811:43
6/5/2018
1:55 AM
PM
Hennepin County, MN

0-lill'a:'.iffft
0 :_ c: t-.i-rO)fiJ~O)iJ!,81.I'
G:l:~""Z"&>
01.1s, J;ti!j',A_O)Jlii~•1ff!,\l~O)~
{fm~ f;::!ffiGT

c:,

*

~&

V

=~ f;::

--:J1,,'

--c, -t 0) ~ ,\!!,f;::&: L---ct

*3C& V -

~

c::tt f;::

*00~1x~T 0 :_ c:1.1,1-rO)fiJ~J f;::~-t 0 c: L---c, !RJ:i:]:tctc
l-•O)ffi.Y:Ef;::
J::fJ1x
~'a:'-$ C tc~l!lltri'ttYE1-.t, -~
1.i'h1~0 ~lU'f.1¥J
ft•·

c:~~'a:~ f;::L---cv' -5:_ c: f;::!ffiG L---ct, '¥11
itfr0)0°

f;::--:Jv '--CO)~:l,:1'.i<J
ft'¥JlWi""Z"
&>,::,
tc c:v' ;t 0 o ~l!lltri'ttYEO)Jit

1 B~'a:'~~-L-,
YE•~m:i1i'Ai.1

*YEL-tcttMO)lit*i.11--Z-~~<~,::,fc:_c:~,

llfJ1.1,
GO)iJ½ttr:tklll
f;::@[;&Ji""
0 ooti&>0 7.1,,llii.~•1fl\l~f;::j;:
1.1,.tJ=.
c tc ti O)""Z"
&>-::>
--c,

*~& v=~

'--c~ti!T "-~
7.1,0)'j,Jjitfrf::.:t:,1;
J::5 ft.ffl'O)~]!i.lS

0)

~

tt~W,'a: lj-;t

~

◊ -~

*OO~O)Jl&~1.1,
r-'r-O)fiJ:/irl:J
r=~-t 01.i'B

•·lw
f;::~]!i.lS.tJ=.
t, tc c: v, 5 "~

&>,::,
tc :_c:7.1,Gi""hl-f,

-1{

""Z"
&>
0,

-cL---c, :_0)

L---C1x~'a:'taililT 0 ~.\!l.'a:'~ G1.1'

f;::L---Cv'tc*~ & v=~ t=--:Jv '--c, !RJ%0)•gii.1>1'¥-t
0 /;::t Mb Gf*OO f;::Jl&~T
0 :_ c: !'i, t !'i~
- ,

I
- I

• - I

1

1-ftt G ttv'i.lS,

1-=j'-O)flj:/irl:J
f;::'if-t 0

t

0)

c: f'iB /lb Gh ft v' c:v' b ~,0 'a:f~ft

:,t,;ftt:fc:.:loft
0J:Jc.lH1fO)~J!f;::,~ G-t c:, [PJ~'a:'~fflT"-~~,g-f;::

~tc-5 c:~;too

*~&v=~ f'i*OOf=ll&~~ho"~

J::~O) c::13IJ

c:!/f.n'€ttM~r= &>
o *3C& v-

~ r=-::ii., ,--c,

t

0)--Z,f-.iftv' c: :_6,

filif;:g,
'a:*~&

v=~

*

1.1,
G0-liltL---c*00

/::.ll&~T 0 :_ c: 1-.t, filif;:g,f;::imt;tjtv '.tJ=.
fi!i~:11!:
'a:5!11
v, 0 M'i 'a:1§~ ,
htc--tmO)•f~'a:~ti!Thl-f-rO)fiJ~f;::&:-t0

!RJAG

-c0) {-t!1:,t,;{4
/::.~

:_ c:1.1s~Gi.l>""Z"&J-::>--C,
~:am$
28

~1~4%0).fE7J'&>0c:BilbGh0,
3
0) ~

:,t,;{41-.t,
-'r-0)1x~tail@O)~}J!L
lliii!f~1fl\l~O)~fiffic:~fr;, 5L~frr!ifrt:0)0°J1Jl
B~

0)

•-tW'a:~ ti L--::i --:J, ;;t{4~~

0)

a ~ f=¥ii,::,--c'¥1JWr-t0 :_ c: 'a:~ T 0 ffi jt

tt••-z- &>,::,
tc :_c: t &>fJ, <e-~'¥1Jffl'O)fljitfi1.1,~ft,::,
tc t 0) c:,\l!,bh 0, :,t,;{4~~
f;::Mb 0 •-/Jui.I!~~ fc:.Ji'fj!~ ;(1,--:J--:) &J0 7.1!,~'¥Umc: L, --C1-.i,il- i:JS<Ji¥Jft~:l,:f;::
J::
fJ•~a"Jttftffl

'a:'fi 5 c:t., 5 ':I-F?t:*f40)'ti:l:Jf
'a:'li!'~;t
;t, ;;tf4~t"J O)a ~,

ffi.JEO)-~c:W~'a:'+0-r=~•~--c,

••r=RPL-fc$0)~Jfl~,
- 5 -

110a.

-~0)-~0)~f)

~!m$0)

27-FA-15-499

:;/j~

f.::-:)v'-C Ix'a:'

~

tdt

Filed in Fourth Judicial District Court
5/23/201811:43
6/5/2018
1:55 AM
PM
Hennepin County, MN

c:·L, -C, il-\mft¥1Jitir'a:'illi.if.::~TJ; ? ~ II) -Cv' <&:,~;o,

t'J,g ~~X.0o
I[ZJ,x;
2 9 £p 1 2 Jl 2 1 f:l

:llit:il\'i~¥1Jm~-1J,1:tg

J:

TI[

'

.::.:-l
I
I

,j,

~¥1J'§'

~¥IJ'§'

;llli

~

-

111a.

6 -

f,(l'

27-FA-15-499

112a.

Filed in Fourth Judicial District Court
5/23/201811:43
6/5/2018
1:55 AM
PM
Hennepin County, MN

27-FA-15-499

Heisei 29 (kyo) No.9

Filed in Fourth Judicial District Court
6/5/2018
5/23/201811:43
1:55 AM
PM
Hennepin County, MN

Decision
2032 Flag Ave S. St, Louis Park, MN 55426
James Edward Cook II
Appellant
Ai Kuroda, attorney-at-law
Counsel
Yusuke Kono, attorney-at-law
Counsel
Masami Kittaka, attorney-at-law
Counsel
27-5, Shoyodai 2-chome, Nara City
Hitomi Arimitsu
Appellee
27-5, Shoyodai 2-chome, Nara City
Child intervenes in the proceedings
Arimitsu
Same as the above address
Child intervenes in the proceedings
Arimitsu
Counsel of the above three parties Tomoko Kamikawa, attorney-at-law
Concerning the case of Osaka High Court Heisei 29 (wu) No. 21 Petition of modification of a
final decision, the Appellant has filed an appeal against the decision rendered on February 17,
2017 by the court above. Therefore, this court renders its decision as below.

Main Text
The appeal shall be dismissed.
The cost for the appeal shall be borne by the Appellant.

Reasons

I. With respect to the Reasons for Appeal 1 to 4 asserted by the Appellant's counsels Ai
Kuroda, Yusuke Kono and Masami Kittaka
1. According to the record, the background of this case is as follows.
(1) The Appellant, the Appellee and their four children (hereinafter referred to as the
"Children") were all living together in the United States of America (hereinafter referred
to as the "U.S.") . However, in July 2014, the Appellee took the Children, promising the
Appellant that they would return to the U.S. in August of the same year and entered Japan,
and has been living together with the Children at the Appellee's parents' place. At the
time of the aforementioned entry to Japan, the first son and the second son who are older
twins were 11 years and 7 months, and the first daughter and the third son who are younger
twins were 6 years and 5 months.
(2) As the Appellee was told by the Appellant that they should remain in Japan for a while
after September 2014, with the Appellant's approval, she enrolled the Children in the same
international school. However, thereafter, the Appellant and the Appellee started to have
disagreements on the issue of the Children's return to the U.S., and in August 2015, the
Appellant filed a petition (hereinafter referred to as the "Petition") for return of the
Children pursuant to the provision of Article 26 of the Act for Implementation of the

1
113a.

27-FA-15-499

(3)

(4)

(5)

(6)

Filed in Fourth Judicial District Court
6/5/2018
5/23/201811:43
1:55 AM
PM
(hereinafter referred toHennepin County, MN

Convention on the Civil Aspects of International Child Abduction
as the "Implementation Act").
During the proceedings related to the Petition, the first son and the second son expressed
their intention to a family court probation officer that they strongly refuse to be returned
to the U.S ., and the first daughter and the third son also expressed their opinion indicating
their refusal to be returned to the U.S. In addition, each of the Children stated that he/she
did not wish to be separated from other siblings. Furthermore, around this time, the
Appellant did not have an economic base necessary to provide adequate care to and nurture
the Children, and was in the situation where he could not expect to receive continuous
support for the Children's care and nurturing from his relatives etc.
In January 2016, the Osaka High Court rendered the decision to order all of the Children
to be returned to the U.S. (hereinafter referred to as the "Decision Prim to Modification")
for the following reasons: for the first son and the second son, although the court
recognized that there were grounds for refusal of their return under Article 28, Paragraph
1, Item 5 of the Implementation Act, the court found, by recognizing that it would serve
the interests of the Children to have them returned to the U.S., that the provision of the
proviso to the same paragraph should apply; for the first daughter and the third son, the
court found that there were no grounds for refusal of their return under item 5 of the same
paragraph for, among other reasons, the reason that they had not reached the level of
maturity in light of which it would be appropriate to take account their views, and that
there were also no grounds for refusal of their return under Item 4 of the same paragraph
as it could not be asserted that there existed a grave risk that their return would expose
them to an intolerable situation. The Decision Prior to Modification became final and
binding in the same month.
In February 2016, the Appellant's home in the U.S. where he was living with the Appellee
and the Children was sold by auction, and thus he vacated the house in or around August
of the same year and started to rent and live in a room in his friend's house.
The Appellant filed a petition for the "execution by substitute of the return of child" for
the Children based on the Decision Prior to Modification. On September 13, 2016, a court
execution officer tried to convince the Appellee and the Children to have the Children
meet with the Appellant, but the Children did not wish to meet with the Appellant as they
refused to be returned to the U.S . On the 15th day of the same month, the court execution
officer had the first son and the second son talk to the Appellant, but the first son and the
second son did not change their intention. The aforementioned court execution officer
closed the case upon failure to complete the execution, as the purpose of execution could
not be achieved due in part to the risk that the continuation of execution would cause
physical or psychological harm to the first son and the second son (Article 89, Item 2 of
the Rules of Procedures for Cases relating to the Return of Child under the Act for
Implementation of the Convention on the Civil Aspects oflnternational Child Abduction).

2.

The current case is a case where the Appellee requests that the court modify the Decision
Prior to Modification and dismiss the Petition pursuant to Article 117, Paragraph 1 of the
Implemen tation Act by asserting that it is no longer appropriate to maintain the Decision
Prior to Modification due to a change in circumstances after the Decision Prior to
Modification became final and binding.

3.

According to the background mentioned above, the Appellant lacked an economic base to
adequately care for the Children and was also in the situation where he could not expect
to receive continuous support for the Children's care and nurturing from his relatives, etc.
After the Decision Prior to Modification became final and binding, the Appellant vacated
2

114a.

27-FA-15-499

Filed in Fourth Judicial District Court
6/5/2018
5/23/201811:43
1:55 AM
PM
stable place toHennepin County, MN

the house where he was living and thereafter he became unable to secure a
live for the Children. As a result, we should say that there was a change in circumstances,
which means that the condition of the Appellant to care for and nurture the Children when
the Children are returned to the U.S. has deteriorated to the degree that we cannot
overlook. Then, returning the first son and the second son who have been continuously
refusing to be returned to the U.S. despite the fact that there are grounds for refusal of their
return under Article 28, Paragraph 1, Item 5 of the Implementation Act no longer serves
their interests. Therefore, the court cannot order their return pursuant to the proviso to the
same paragraph. As for the first daughter and the third son, returning only these two to
the U.S. would result in separation of the Children who are having close relationship in
Japan and the U.S. When considering all such circumstances in this case, it is appropriate
to say that there is a grave risk that their return would expose them to an intolerable
situation. Therefore, it is appropriate to recognize that there are grounds for refusal of
return under Item 4 of the same paragraph.

Thus, the court should recognize that it is no longer appropriate to maintain the Decision
Prior to Modification due to a change in circumstances after the Decision Prior to
Modification became final and binding, and the court finds that it is appropriate to modify
the Decision Prior to Modification pursuant to the provision of Article 117, Paragraph 1
of the Implementation Act and to dismiss the Petition. The court can agree with the
decision of the court of prior instance having the same conclusion. Therefore, the court
cannot accept the argument [of the Appellant]. [ ] Portion added by translator for
readability,
II. With respect to Reason for Appeal 5
According to the record, no illegality [which is asserted by the Appellant] is found in the
procedure of the court of prior instance. Therefore, the court cannot accept the argument [of
the Appellant.] [ ] Portions added by translator for readability.
Therefore, this court renders the decision as stated in the Main Text unanimously by all judges .
Supplementary opinions were expressed by Judge Hiroshi Koike.
Judge Hiroshi Koike's supplementary opinions are as stated below.
Although I do agree with the opinion of this court, I wish to add some opinions.
1. The Convention on the Civil Aspects of International Child Abduction (hereinafter
referred to as the "Convention") places the interest of children of paramount importance
in matters relating to their custody, and aims to ensure prompt return of children who were
wrongfully removed, etc., based on the premise that it is desirable, to serve the interests
of children, to resolve a dispute over custody of children at the State of their habitual
residence . In line with the Convention, Article 27 of the Implementation Act provides for
the principle that return of children must be ordered if the grounds for return listed in the
same article exist. Courts must act promptly with full respect for this principle in light of
ensuring the interests of children . Furthermore, Article 28 of the Implementation Act
provides for the grounds for refusal of return of children based on this principle . These
exceptional grounds were also provided for the purpose of serving the interests of children
in consideration of the effect of their return on the children and the children's voluntary
intention, etc.

3

115a.

27-FA-15-499

2.

Filed in Fourth Judicial District Court
5/23/201811:43
6/5/2018
1:55 AM
PM
Article 28,Hennepin County, MN

As for the first son and the second son, there are grounds that fall under
Paragraph 1, Item 5 of the Implementation Act, as they were consistently expressing their
intention to refuse to be returned to the U.S. It is important, in light of the interests of
children, to avoid separation of siblings. However, in light of the inadequate care and
nurturing situation of the Appellant, the Decision Prior to Modification ordering return of
the first son and the second son against their will together with the first daughter and the
third son to the U.S. pursuant to the proviso to the same paragraph on the ground that
doing so would serve the "interests of children" can be said to have been a discretionary
decision for a marginal case where judgment can be divided, as we can see from the fact
that this decision was different from the conclusion of the court of first instance. The
situation that the Appellant vacated his residence after the Decision Prior to Modification
became final and binding and became unable to ensure stable residence was partially
caused by the economic condition which had existed before . However, this is an event
that will have a material effect on the care and nurturing condition, and the occurrence of
such situation can be said to be the occurrence of a change in circumstances which must
be taken into consideration when determining whether or not return of the frrst son and
the second son to the U.S. serves the "inter ests of children ." Considering the existence of
such change in circumstances, we have to say that returning the first son and the second
son who were consistently expressing their intention to refuse to be returned despite the
existence of grounds under the same item no longer serves the "interests of children."
Although we need to be careful to apply Article 117 of the Implementation Act allowing
to modify the final decision which has already become final and binding, in light of the
change in circumstances as explained above in this case, I am of the opinion that this is
the case to which this article should apply.
As explained above, the first son and the second son should not be returned to the U.S.
As for the frrst daughter and the third son who have a close relationship with the first son
and the second son, it is clear that separating them from the first son and the second son
and returning them to the U.S. will result in forcing them to live in an intolerable living
environment, and will be against the interests of children, given all circumstances that
occurred in relation to this case. Therefore, it should be recognized that the grounds under
Article 28, Paragraph 1, Item 4 exist.

3.

This case was a difficult case for which a decision needed to be made in consideration of
various circumstances such as the children's intention to refuse to be returned, assessment
of and a change in the care and nurturing condition and appropriateness of separating
siblings, as well as in line with the purpose of the Convention. That is probably why each
court came to a different judgment. Precedents related to the Convention are being
gradually accumulated, but I believe that courts need to try to make an appropriate and
expedited decision by applying the law in a manner that is appropriate for each case and
using an innovative method to investigate facts based on the nature of non~contentious
case where a court plays a role as a guardian using its purposeful discretion in sufficient
consideration of the purpose and structure of the provisions of the Implementation Act.

December 21, 2017
The First Petty Bench, Supreme Court
Presiding Justice Atsushi Yamaguchi
4

116a.

27-FA-15-499

Justice Masayuki Ikegami
Justice Naoto Otani
Justice Hiroshi Koike
Justice Katsuyuki Kizawa

5

117a.

Filed in Fourth Judicial District Court
6/5/2018
5/23/201811:43
1:55 AM
PM
Hennepin County, MN

27-FA-15-499

This is the original.
February 13, 2018
Second section, Family department, Osaka family court
Court clerk Masayoshi Iba

118a.

Filed in Fourth Judicial District Court
6/5/2018
5/23/201811:43
1:55 AM
PM
Hennepin County, MN

27-FA-15-499

Filed in Fourth Judicial District Court
6/5/2018
5/23/201811:43
1:55 AM
PM
Hennepin County, MN

DISSOLUTION WITH CHILDREN - 4
STATE OF MINNESOTA
DISTRICT COURT
COUNTY OF HENNEPIN
FOURTH JUDICIAL DISTRICT
FAMILY COURT DMSION
In re the Marriage of:
James Edward Cook, II,
Petitioner,

CERTIFICATE OF TRANSLATOR
Court File No. 27-FA-15-499

and
Hitomi Arimitsu,
Respondent.

COUNTRY OF JAPAN
CITY OF KOBE
l , Gerald Thomas, after being duly sworn, upon oath, deposes and states as follows:
............
vv , /
20t8 (date) I reviewed the attached
I am fluent in English and Japanese. On
Japanese Supreme Court Decision and the translated te t truly reflects the content, meaning and
style of the original text and constitutes in every respect a correct and true translation of the
original document. C01Tectand true means all words on the presented document have been
accurately translated .

I certify:
1. That I am not related to the applicant by blood or marriage;
2. That I am qualified as a lawyer and member of the Law Society of British Columbia
(Canada), and that I have been living in Japan for over twenty-four years continuously,
working in the English and Japanese languages;
3. That Thomas Consultants International, Co., Ltd .• and its division The Legal Translation
Group, specializes in the translation of legal documents for clients, including law firms
and government agencies;
4. That the head translator of my translation team, with over 15 years of professional legal
translation experience translated into English the above document to the best of her
ability;

119a.

27-FA-15-499

Filed in Fourth Judicial District Court
5/23/201811:43
6/5/2018
1:55 AM
PM
Hennepin County, MN

5. That I have personally reviewed the translation thoroughly and that to the best of my
knowledge and belief, the attached English document is an accurate and complete
translation of the Japanese original document also attached to this Affirmation.

FURTHER YOURAFFIANT SAYETHNAUGHT.

haw"'""
mthis,,,.,.._""""
M<l,omct.

I do~~t-I

Gi:faldThmruis:
Signed this

ff

ant
'(.1,,.day of February 2018, in the City of Kobe, Country of Japan.

120a.

27-FA-15-499

¥Jix2 9:¥('7)~21%

(£*$#

Filed in Fourth Judicial District Court
5/23/201811:43
1:55 AM
PM
6/5/2018
Hennepin County, MN

~f,,J~JEO)~J!$:ft$f4=

· :k~NiWi~~~Jm.IJZ!iJG
2 7 :¥ ( '7)

~1

4 o 4 %)

~

*ff

tllll$"5-ffi 5 T§ 5 1 ffi:ffil

f±m ~ Ncint0~ii' 2 r Ei 2

1 ffi:s % <$ :u:~~ttOJf±m)

$:ft_A

~

v-

>Jt

C: 7;-

ll7:!fo46:¥7 Jl 16131c

OOff 7
*ff

;I-

Y ;/Ji)-~ 00.&
V 13*

$ ft,A.OJ*ff

c: IA]C

f±m $:ft,AOJf±mc:

IA]C
~

-¥~fc~1m L,fcr

>Jt:r. '1

7

1c

::,, $

¥!ix 1 4 ,Ip 1 2 Jl 5 131c
(£,1,T r-N;~J c:v'?o

)

OOff 7 :I-Y ;/Jil-*OO.&V
13,$: .
*ff

$ ft_AOJ
,$:ff c: JP]C

f±m $ :u:,AOJf±m
c: 1RJ
c
-¥~ fc~1m 1..,tc-=r

~J't:r.
¥!ix

y

;,;;k1o

1 4 :¥ 1 2 Jl 5

c:v'?o)

(£,1,T r=~J

1:~3il-¥~ft3!1!_A#~±

1'

)II

131c

Jl)l

OOff 7 :I-Y ;/Jil-~ 00.&V 13*
*ff c: I),]C
:;$:ff $ ft_AOJ

f±m $:u:,AOJf±mc: 1RJc

r
¥!ix 2 0 :¥ 2 Jl 1 3 S 1:. ,
(£,1,T r-N;:t,;J c: 1,,

- 1 121a.

5o

)

27-FA-15-499

Filed in Fourth Judicial District Court
6/5/2018
5/23/201811:43
1:55 AM
PM
Hennepin County, MN

OOff 7 J. !! Ji ~~00&. VS.,$:
.,$:ffC'.I,',]L,
.,$:ff $ JLA.17)

ttm

fllJ'z:Al7)f±.FJrcl,',Jt:

r

~

-3/t '?

,{

Jv ;( rtJ.

*2

-'JZiiJc;
2 o &p2 A 1 3 S 1:

· c~r

r :::c~ J

c 1,, 5

0

)

OOff 7 J. !! iJ~~OO

ttm

mt ✓ ~~-1A/~-7

2oa275o/~~
tll=f'Jf

7 o/?'

~*Y~ffl55426

!-'?- 1-'tft

:J:r.-AA:r.

1 9 6 6&p5A

F,',J.=f'~{-t1.!!!A#~±

~

IE

I,',]

piJ

ll!f

El

I,',]

111

ji1lj

~

±
1

✓

P'

2 S1:.
~

1l'
~

~

Jt

£.,$:${4=1;:--:>
~, *1!1.iii11i~Jl&~JFJriiUJZiiJc;
2 8 ~ 1 A 2 8 S {;:L tctl!:J.E
:a:-lX
17)
c :}-;l'.l~ J! T 0 o

2

C*l!l.i*ffe!;~~Jm'JlJ,J;
.I.Jl!:lftfl.=f'Jf
(.,$:#17)$ JLA) (l)mi!i'-f;:£--:5
~, .I.Jl!:tl!:J.E
21&p(*.x)m11}t,t,,1.,m1

01}) :±Jtm1:11i:a:-Jlitl'.lri!4To

3

J:EllitWl L,if!l;Stl;:--:i~, W-lf$JLA C:<lcfl/==(l)ffl.=f,:i:f)
17)$.l[-C'a:'~rT00

4

W-lf$J'l:A. (.,$:#(l)ffl.=f'Jf)17)m~'a:'~~T00

5

.=f~JtJ!Hi~ El(l)jttH c T 0 o
1-!I!

m1

fllfttl7)~\1i
±Jt C'.F,,J'iii

m2
1

•~17).•~
:,$:fl/==1:l:,
J:\IB4~(7)r

(£1-r 1-r-GJ cv':?o)
- 2 -

122a.

17):5/:'t"<f.>0ffi=fjJtiS,
-'fG

27-FA-15-499

Filed in Fourth Judicial District Court
5/23/201811:43
6/5/2018
1:55 AM
PM
Hennepin County, MN

0)-/l;l:--c';b
o $ :ft,AlcM L-, 00~1¥.Jf~-'fO).J&O)
.a':i$J:O)fJ!iJ!mlC
MT o ~~ O)~
:bf!ilCMTo7ts~ (YT r~:bf!i~J c:v'?o)

fc£-':51!, $:ft,Ai/i-f-G-a:-13*00

lc l¥lii: L---Cv' o ::. c: -a:3:!lla:!c: L---C, -'f G -a:
7 .JI !J ;tJ ,g-3?t
00 (YT r* 00J c:v'

c 1,, 5 o )
~ mi#t,t--c:
.b o m:
1!rW

5 o ) lc J!&■T o ::. c: -a:-:,k
~ t.:*ft!= (YT r*1t!=J!&■ $ :ft--C
J

" , --c, $ :ft.Atii, ~:hf!i7ts
1 1 1 ~ 1 JJ:rc£---5;! ,

(7)

lc --::i

#t,t

O)~J!:$:ft--C-a:L-t.:.$--c'iboo
2 *#$:ft--C f;:~ offfmJ;l:7XO)
c:.:13~ ""t";b
Oo
3 o 13, *®~..:f>'?71'M-etr,Hl!;JL-,
*

$:ft,Ac::f-ll¥1Jl:t, -¥/iJGl0¥5Jl

(1)

00P'J""t"-'f
G -a:
IDtl;J-t;:o
-'f Gf:t, /:1:l~lf, $ :ft,A&LKffi¥1Jc:*00 ~--'f Y 7' 1'l•l--c'~f;:sL---Cv
,f.:ili,

(2)

-¥/iJG26¥7 Jl 1313, *00-a:-l±lOOL-,
W.:/&t,$:ft,A&V-'f:-O)f,ljj¥J/.c:*.&rn
P'1
(7) $ :ft,A(l)~*'-"~fi:5-L---Cv'
oo

;fJ-r~ -O)m

5

TVl'-o

(3)

G f:t, 1:±l
00~ ~. fl.:ft-;l'o l::'.''71/ A 7

c¥:1!=-~.3U:t~ffllffl%
c: L---CtEffL---Cv'f.:ili,

l,ijiili;f±,{ 1/7'-T1/3
"'-1

r

TJv;,:.:7-;v)t;ffll

-'l'-JiJG
2 61!=9 Jl,

(YT ro IS KJ C:V' ?o ) fC,A

.,._

ffi¥1Jf:t, -¥/iJG271!=-lJl 1313, *OO'~.-'f>'?71'MO)~~Jmlc;$:ft,Ac:

O IDf~,a:-~iBJ.
L,f;:o
O)li!fE~,a:-:,jt'//J

t!J¥1Jfj:, -'JL/iJG2
71J=.8Jl1 913,

(4)

*ftJ:J1&■ $:ft--C~L,f.::_ 0

o 13, ¾:k&V.=:!JJ-a:-*OOfcl!&•
T o ::. c:-a:$ :ft,Af;: in t'.,o c: c: t fc, ¾ :!1J
& V =:!JJf;:--::i~ * 00"- (7) JI&■ -a:
ffi

(5)

*~.oc*~~!/!Uml:t, -¥.!iJG
2 71!=-1o Jl 3

¥1JO):;;Jt'IIJ
o $ :ft--c-a:-11
,-r:n t~T-r

o#tJJ:'. C-¥/iJG
2 1 ¥ c*.5()m 1 %t~1,,

L-m1 o %0 YT rmtlf#tJJ:'.Jc:1,, 5 o ) :a:-L-f.::.o
$ :ft,A&Vtll ¥ 1J1:t, mtWtR:
,t :a:;;ic:
~Iic: L---c-'t :n-t' :nm~ -a:L-t.::.o
(6)

*~.ocilt~~~Jmf:t, .IJZ-JiJG
2 81!=-1Jl 2 8 13, -=t-G-a:-v'i':nt*OOICJ!&■T

oO)iliffi~-eiboc:~•L-,

mtW#t~~¾:!1J&V=:!1J0)*00"(7)Jl&■ -a:>1<~

0$:ft--c:a:-•TL-t.::.8~-a:-J&~fflL-, ¾~&v=~:a:-*OOfcl!&m-t-o::.c:-a:- 3 -

123a.

27-FA-15-499

Filed in Fourth Judicial District Court
6/5/2018
5/23/201811:43
1:55 AM
PM
Hennepin County, MN

m1f 'a'v 'i" :h, t

$ ftJd;: -fr, C o c: c: t f;:, $ ft.A. 0)

0 4%o ,!;tr f:Jn1flfi:R::'.i!:J
C:v'?o )

*Jj:{tj: • 1¥~2 7,¥(5)~14

(7) $ ft.A.l'i, mi5-lf.i:R::'.i!:f;:M
L-, mi5-f'fPf0) $ ftt
mli,

~!fJT o tR::
'.iE~ L-tc (£

~ L-tct.J{,

0

::kllliiwi~~.>J!IJ

1JZJ,,lc;2
81F2Jl 2 3 13, mi5-~f'FPTL-ftv'~O)i'J/:;iE~L-,

mi5-lfl1cJE

lilit'.i!:L-tco
(8) ffi-¥» (jjf:J;itf~jlgii~:litiitf) l'i, ffi-¥».&V.."fO)fl'a'jlgJJl~:litiitfc: L-t,
lJZJ,,lc;
2 81F 9 Jl 1 3 13&.tJIRJJI1_5

-f-G 0)1'ft;lc~:litiiO){i;fio~fi'a'$L-ftt,
13,

~ ~:fl!ljj~~J?,)j'~ff'gt.Ji $

ft.A.m•f±m±l!Hi::l&i~L-t.::1.J!,-f-G7,)i*OO
f;:

**"'

iito .:. .i::'a'st < m:a L-, .IRJtJ\ff1ff'i, i:p:9c~r.u~~ .i::~W'fO)J:, .:.0)
n,lc~'.M[
'a'~ It o Z:.c: l'i * J.l&.tJ ='-!

0)

,i:,,Jr I;:~i!f f.j: ~Ill~&.

l:fT:ta .:t :h,7,)ii9J

Q ft l! C'.L--C, :Iii~~ 1;:1'ft;lc~1it[
'a'::f:Jifg
C'.L-fco
(9) $.ft.A.l'i, 1JZJ,,lc;2
91F1Jl 513, ffi¥jjf;:/;t-f-GO)f:l:E,
0)::/[}1,]t,\!l.
t '/ilgjJt ftv' f;: t

7,)>1.}>;bGT,

T G O)jlgJJf~:,Jt!i'Jt:taI?' mi5-lf '

-r G f;:]!;kftm~t.J{1:

~ -r G ~jig.ii L-tc~-&-,
i'Jl:'.i!:t;:£---:5
.

~-~

1:t.s-Jf,

t:, o

c::±SftL--c,

.

m~lfi'J/:'.i!:O)~~~*!i'Jo*#$ftt'a'L-ko
-~ 3

~~~j?,)j'O)~jffllr

1 ~'.i!:-~
ft0--C:ta I?'
(1) -f-Gl'i, *OOf;:~Q.:. C'.~sl< ffi:aL-, 1'ft;lc~1iftH'i::f:'/ilgc:

:f:Et$.ft_AO)~*'t'1:f.sl-,
:f:E
t

DI

*00,.,,__jig.ii ~:fir~ L-ft
0)

S·Kf;:i_m~L..-Cv'oo *'-l&.tJ=J.ll'i,

~ ' ~ 0)

it ,\JI~ 5i <

*

~ L---c
:taI?,

*:tc&.

m
ffl.

V ==
J.!

fj:, ffl.:f:Eim~
L, -Clt' Q ~13l7,)i~L, < , ffl.:(£0)1:fflf;:fiMj.JE
L, --c
\,' Q ~O)]t~~

*~L--Cv'oo
»

(2) . ffi-¥ IJ:, 1¥J,,lc;
2 8 ,¥ 2 Jl 8 13, -f-G 0)
¥»13~0)m~li~~rr~:n,

* 13iru*'t'-f- G c:

IRJ
J@-L---c
v'tc ffi

~m::llll~Ji7,)!1RJ1FsJ1
s 13.i::~:n--ci,,tc7,)i, ~

v'm T.:. c: 7,)!
't'~ i", IRJ&p
8 JI .:. 6 13~'a'~ !till£ L-tco ffi¥Jn:l:,

G f;:~'.i!:L-tc f±E~~~'t'~

ffl.:f:E,::;--

o :Jf:ffi.f;:
f;tft< , -f-G 1.J!*OO
f;:jlgfi~ :nfc~O)
- 4 -

124a.

27-FA-15-499

Filed in Fourth Judicial District Court
5/23/201811:43
6/5/2018
1:55 AM
PM
Hennepin County, MN

(3) ffi-¥JJl::.l'i, -'f G ili*OO1::.i!&~
~ht.:.~-;g., -'f G l::.*)'EL,t.:lii:wiffl:!Jt
•~
~ ~ ~~

T -3~viii ii,;-e ~ --c:toGi", -'f G (7)lii:~ffl:!;t· ~~ ~ ~ x.o t.: 3.1>(7) g

rn1¥JIEf-tlt~::ffl,--C1t'tt1t'o '$2.k.., ffi-¥.1Jl'i, -'fGO)il:;.%1::.--::ii,,--cb, .~ .
f..j-O)'f--r-?" -

A

7 -1vl::.im:b-1t-3 c:L,/.pm~ L,--C:to
Gf',

Aft.1¥Jt.ttt•%

b~ GI.Pl::.1.,--ci,,t,tv'o
(4) ffi-¥..1J<l)X:¥J/.l'i,
ffl.tE, ffi-¥.1Jl::.ML,--Cffi;~Jl¥Jtt~Ji~::frT-3

c:t

b 1::.,

-'f G ili*OOl::.i!&~~ h-3::. t 1::.BtM1., t:to lJ, ffi-¥.1J.ili*OO"t"-'f
G ~lii:~T

o c:l'iv'x.tti,,
-3::. c:1::.1'if11¥.J-e~
£§iii

;ii;-3:blt"t"'l'if.t < , *001::.~lfl ~ ht.:-'f G 1::.ML,--C*li:L,t.::.f±Jis~~

~ffl:!Jt~~~T-3::.
2

o '$2.t.:, !flJ'.z:A
b, *001::.1:.,t

(If' 6)

c:l'if;EJ."t";i;;o (Z:.1)

"

~Jl!Ui
(1)

J:::~ 1 O)~)'f'.$~1::.J:hl'i,

ffi-¥.1Jl'i, m~.:ffi,~)'E'.Jit)'E~. ffi~~(J)~

fil::. J: I? ~ ~~il!:tic ~,t Gh--C:t3I?, -'f G ili*OOl::.i!&~~ht.::.~-;g-1::.-'f
G
~ h --cv 't_tv'o '$2.t.:., -'f G ll)lii:~(7)t.::.
~ i7Jffi-¥JJO)g~i¥J£
(7)-(i:./isil•litf¥:

!J!i~~~--c~+~-e;i;;IJ,
'

(7)~-b~M-e~~•'o

-'fGO)a•~)'Eb~Gil•--c:~<.
BJJ, -'fG~.

ffi-¥JJO)••

ffl.tE, S*"t"*)'EL,t;:1:_7!~*0

I'.)' *00""-(J)~~~~i < ffi'i!i'
l, ""(1, \ 0
--C:t3

0

::.h G 0)$•/W1::.$G-1tl'i, -'f G il•*OOl::.i!&~~ ht.:.~-;g., . m1!f-tf~li:lit

)'f'.~1::.1:.
t-t.::.$·/W~J!l::.J:I?, ffi-¥.1Jili-'f G ~lii:~T-3::. t ilifi§ilt.t:$·/W
1::.
~!aI?, il•--::i,ftl!.
1::.
-'f G ~ lii:~T -3~~ t_ti!t b :toGf', -'f G 4 A~ 41f T
-3I::..@I?-3*)'EL, t.::.Uffl:!;t • ~~a-~~T-3::.
--Cv'-3 c:v' ? ::. c:ii• "t"~ -3o J:l@O)J: ? f_t$~1'i,
F,]i')'E
O)-'fO),i:,,$J'ICfH!!/;a&lt-t"::.

t_to ll:::kf.tfit~l::.~~T

c:ii• -e~ ttv ':ik~il•1:. t,
~1ifii~ 2 8 ~ I )Ji 4 %

t -c-0J8-'f ~ imtx.ilv ':ikiJ/.1::.llf
< ::. c:c:

o t v, 5 A'.~

-e ;ii;o o

(2)7 ffi-¥.1Jl'i, ffl.:(£, ~~O)jp~O)t.: ~%JAC7)*(7)-~~{t I?--C
{±lv--c::to
- 5 125a.

27-FA-15-499

Filed in Fourth Judicial District Court
5/23/201811:43
6/5/2018
1:55 AM
PM
Hennepin County, MN

V, rGffi*OOIC~~~ht-c.G§tiOJ·1:'••oo~~L.

~OJOOlc••

1:'f±:libo !A~'* a-ft V o 'r AE'.1:'
iJ;J-o~ ± ~T -oo
l., 1,p L,

l¥Jft

ffi-¥jJ l"i,

't.ll.-ffl:jJO)Jis-tt~•-?ttfis-~{tOJ'f,AJ:'.IC"".:>
It '-C Jl.{2f;:

•·tta-00GiPICL :-cto GT,

£

t-c.,ffi-¥ jJ l"i, J::~ OJ ~ to V , %1A

OJ*lcr~ift V L -Cit''° c ±* L -Cit'o ICt il>ii>:b GT, ~f--1-(~ 3 O)
ICJ: hli,

ffi-¥1.,0)

m ~f±m:l1flni-Gi'<~{-\'.;J.!l!Ji!f
OJm:f:Ei'lfllc
ft-:>

-CIt, o t,;:IC

L,ftv'o
"".:>lt'-Ct~IJF.la-

£

t-c.,.fficf :;/JI±, ~ OJ~~~iR.-?l&Acb o It' l"ir G<O~~'rAE'.IC"".:>
It'

-c tJl.{2f;:1¥Jft:±*~lj:L-Cto GT, T Gni*OOIC~~~ht-c.~,g-0)~11
~--~~-?~OJ~-1¥J~#~t~(~IJF.i1:'iJ;Joo

~to. MW~AE'.ICJ:

Iili:WOJWJ.!!!kto1t,-c,
ffi-¥:;/Jl"i-'JL/iJt
2 7¥ 1

hli,

J--::,,-it
-1 :r. 1/T -1 7 -1 ::,,:7 1:'WIIJT o

o Jl 2 o 13ii> G iFA

'r Al:'.
~ ± * L -c1,'t-c.
iii, ffi-¥:;/JOJ

!lU':EOJ~~~lR.l"i, J::fGOJ
c to V 00Gil•1:'ft1t 'o .

. L-t-c.ni-::,
-C, ffi-¥:;IJOJJ::Wi:'.±*l-;ttlEJ!:11:'~
ftv 'o
,{ . ffi-¥:;/Jl"i,~-'l'fr~iO)r GO)~iffi:a- llb<·o~~IC

1,p1:'ftlt

T

£

t

t! ~ ±*Too

ft< ,

~

i')i

t-c.,r G ICM

c ni1:'~ o::. c ~~#it
ffi-¥:;IJOJJ::~±il!l"itlE.fflT
o::. c ili1:'~ ftlt 'o
•

C)

Lil• L, ~OJ:±il!OJ@\:fi'l"iilF.I
G

,J::, ::.nni;;f;;:{4'0).'j:!Jltfra-ic;t"T
o c /j:1,,;t T,

Q~~ft~~ffi-

0)~tf:j

ft

'-C' *OO~;lcBJg(

• 1&:WJ&Jfc.ig-e1/?1- (NCME

lf.f~?FJg(lf.f*.ll.•O)~*ffjJ~IJF.I

5i1t'Mf.,a-~-lt-C1t'o

"".)I,

!iil~a-~~To::.

o'iff-1-

*

t-c.,ffi-¥:;/Jlj:, T G{J)~~HilCMT o~.'j:IJOJW$t~nL~ >'?"1-M
0)

~.'j:!Jijf
It.<VJQ C 0)

~

*

m~-~AJ:'.ni

1/ ?"1-M
{J)~.'j:ljijfO).'j:ljltfr~~Tt-c.
llb'

li'tAE'.
1.,-c1t,ft1t 'n•cDJ: 5 1cJi.:t o~m ~f1'l±lT"

<;;f;;:f4$ft-ca-ff-:,

t OJ1:';Iii V , $ ft~ OJif/iJf.11:'
iJ;Jo \:fi'
:± !l!T o o L n•L,
1100Gii• 1:'ft

It'

J::, ;;f;;:{4
$ :ft-Cniifii.ffl
1:';Iii o

- 6 -

~ (7) :±!l!cD@
\:fi'

c ~-obo lcJEV o llff-1-l"i
ft

<, ffi:cf:;/JOJJ::fi:'.:±!l!l"itlEJf.lT-o::.
c ni1:'~ ftv'o
126a.

t-c.

27-FA-15-499

Filed in Fourth Judicial District Court
5/23/201811:43
6/5/2018
1:55 AM
PM
Hennepin County, MN

(3) c: ;: 0 '"t', ~:li'/iii'tHz:£--::5
< -1-0)fi~l:l:, -f:_t-f:t m-.@mif!l00"'-0)fi~'l'
cb '? , tlP¥ jJ

0)

t c:-c:'~ t.1;~ it

*flf: '"t'l:l:,. wJfcO)c::t3 '? ,
E, 0)

r

7-i;: c: a-~ ~T 7-it

E, tit*00 f;::fi~ ~ h

~~~ffi ,¥jJO)~~ 1;::J: 7-i~WJt :J!ll#J'"t'
~ ft

0)

'l" l:l:f,t It '.

tc~it,

L, ti> L,,

$ .ft.Af;::J: 7-ir

v' 0)-c:';b 0 '/J>E,,

-f:0)5t

A:$tl:l:!li.~a9IZ:l:l:ffi-¥jjO){E,@ .J;..l~f;::
l:l:~'.AE:
L,_.1,, '• -f: L, -C, J:fcO) c::t3
IJ, m:~•ttciit'.AE:~ 0):$'.'/w~J!I;::
J: '?, ffi-¥.1if;::
J: 7-if±Ji!rOJitf!F:~U

!llt~ - ~~1;::m:*ttrp,mJ:tii~ t:--c1t,J.:>O)'"t'cb0ti~E>.
~:li'/iii£1;::£--::5<
rel)

•~ffim-mm•oo~O)fi~-c:';:b0c:L-ct,

=.ti,;O)•a-~~--r0=c:~

< m~--tfc'.AE:O)w.ifJa-~~Tl.:>;: c:l:l:ffi~'"t'f.i:v'o
3.

.J;..tJ:
f;::J: hl'i,

m:~•ttc'.i:Eft'.AE:~
QJ:$'.'/w~J!1;::J: IJ, ~:Ii/ii$ 1 1 7 ~ l ll

f;::£--::5
~m:i1r•ttc.Ata-~J!i"' 7->O)iliffi~ '"t'cb7->. J:,::,-c, :i:JtQJ c::t3IJtlc'.AE:
i"'7.i.
· .l:JZ~2 9 &j::2 J1 1 7 13

*Jl,5if,ij~~~Jm~9 R;:J:Jm
IE
1H
51,.

- 7 -

127a.

27-FA-15-499

Heisei 29 (wu) No. 21 Petition of modification of a final decision

Filed in Fourth Judicial District Court
6/5/2018
5/23/201811:43
1:55 AM
PM
Hennepin County, MN

(The Original Case· Osaka High Court Heisei 27 (ra) No. 1404)
Decision
Registered domicile 51, Iai 5-chome, Matsuyama City, Ehime Prefecture
Address 27-5, Shoyodai 2-chome, Nara City (as indicated in the written petition)
Hitomi Arimitsu
Petitioner
Date of Birth: July 16, 1971
Nationality United States of America and Japan
Registered domicile Same as that of the Petitioner
Address Same as that of the Petitioner
Child intervenes in the proceedings
Arimitsu
Date of Birth: December 5, 2002
(Hereinafter referred to as the "First Son")
Nationality United States of America and Japan
Registered domicile Sarne as that of the Petitioner
Address Same as that of the Petitioner
Child intervenes in the proceedings
Arimitsu
Date of Birth: December 5, 2002
(Hereinafter referred to as the "Second Son")
Counsel of the above three parties Tomoko Kamikawa, attorney-at-law
Nationality United States of America and Japan
Registered domicile Same as that of the Petitioner
Address Same as that of the Petitioner
Child
Arimitsu
Date of Birth: February 13, 2008
(Hereinafter referred to as the "First Daughter")
Nationality United States of America and Japan
Registered domicile Sarne as that of the Petitioner
Address Same as that of the Petitioner
Child
Arimitsu
Date of Birth: February 13, 2008
(Hereinafter referred to as the "Third Son")
Natio nality United States of America
Address
2032 Flag Ave S. St, Louis Park, MN 55426
Respondent
James Edward Cook II
Date of Birth: May 2, 1966
Counsel
Ai Kuroda, attorney-at-law
Counsel
Yusuke Kono, attorney-at-law
Counsel
Masarni Kittaka, attorney-at-law

1
128a.

27-FA-15-499

Main Text

Filed in Fourth Judicial District Court
6/5/2018
5/23/201811:43
1:55 AM
PM
Hennepin County, MN

1. Regarding the Original Case,the decision made by the Osaka High Court on
January 28, 2016 shall be modified as follows.
2. Based on the appeal lodged by Respondent of the first instance (Petitioner of the
current case), the first Instance (Osaka Family Court, Heisei 27 {le nu) Nos. 7 to 10),
Main Text, Paragraph 1 shall be revoked.
3. In regards to the above revoked portion, the petition filed by Petitioner of the first
instance (Respondent of the current case) shall be dismissed.
4. The appeal lodged by Petitioner of the fist instance (Respondent of the current
case) shall be rejected.
5. Parties shall bear their own costs for the proceedings.

Grounds

I.

Object of Petition
As per the Main Text

II.
1

Outline of the Case
The current claim is a petition for modify of the appellate court order, which is the
final decision, filed by Petitioner pursuant to the Act, Article 117, Paragraph 1 in
regards to the case in which Respondent, the father of the above four children
("Children") sought Petitioner, the mother of the Children, to return the Children to
the United States of America ("USA") according to the Act for Implementation of the
Conventionon the CivilAspects of InternationalChildAbduction (the "Act") on the
grounds that Petitioner had retained the Children in Japan ("Petition for Return") .
2
The background of this Petition is as follows.
(1) Petitioner and Respondent married on May 30, 1998 in Minnesota, USAand the
Children were born in the USA.
(2) After the births, the Children lived in Minnesota, USAwith Petitioner and
Respondent, but left the USA on July 13, 2014. Since then, they have lived with
Petitioner and her parents at the Petitioner's parents' home in Nara. At the time of
leaving the USA,the Children belonged to a private school, Providence Academy the fifth grade and kindergarten, but entered Doshisha International School Kyoto
("DISK") in September 2014.
{3) On January 13, 2015, Respondent filed at a court in Minnesota, USA seeking divorce
from Petitioner .
(4) Respondent filed the Petition for Return on August 19, 2015.
(5) On October 30, 2015, the Osaka Family Court ordered Petitioner to return the oldest
daughter and third son to the USA, and dismissed the petitions sought by

2

129a.

27-FA-15-499

(6)

(7)

(8)

(9)

Filed in Fourth Judicial District Court
6/5/2018
5/23/201811:43
1:55 AM
PM
USA (Heise 27 (le nu) Hennepin County, MN

Respondent to return the oldest son and second son to the
Nos. 7 to 10; "First Instance Decision").
Petitioner and Respondent respectively appealed against the First Instance Decision.
On January 28, 2016, based on its determination that returning all the Children to
the USA is appropriate, the Osaka High Court made a decision to revoke the first
instance Decision that dismissed the petition to seek return of the oldest son and
second son to the USA, order Petitioner to return the oldest son and second son to
the USA, and rejected all the appeals filed by Petitioner (The Original Decision, Heisei
27 (ra) No. 1404; "Appeal Decision") .
Petitioner filed a petition for permission to appeal against the Appeal Decision.
However, on February 23, 2016, the Osaka High Court made a decision not to permit
appeal, and the Appeal Decision was finalized .
Respondent (creditor and return implementer), with Respondent and his mother as
return implementers, filed a petition for substitute execution of releasing the
Children, and on September 13 and 15, 2016, an enforcement officer of the Nara
District Court visited the Petitioner's place of address. However, the Children
strongly refused to be returned to the USA, and the enforcement officer, after
consulting with officers of central authorities, ended up deciding that enforcement
cannot be executed because proceeding of the enforcement in this way may have
adverse physical and psychological effects on the oldest son and second son.
On January 5, 2017, Petitioner filed the Petition seeking modification of the Appeal
Decision by asserting that Respondent seeks return of the Children while he has no
intention or ability to pay housing, living, education and the like for the Children and
return of the Children according to the Appeal Decision may expose a grave risk to
the Children.

Ill. Determination of the Court
1
Facts Found by the Court
(1) The Children strongly refuse to be returned to the USA, and enforcement cannot be
executed . The Children live at the Petitioner's parents' home and go to DISK. The
oldest son and second son express strongly that they are not willing to be returned
to the USA, and the oldest daughter and third son express that they enjoy the
current school they go to, and are happy about the current life.
(2) On February 8, 2016, the Respondent's house at which he lived with the Children
before they came to Japan was foreclosed, and Respondent was not able to buy back
the house by the buyback due date , which was August 8 of the year, and evacuated
the house in around August of the year. Currently, Respondent is not in the position
of providing stable housing to the Children, and the outlook of procuring any housing
after returning of the Children to the USA is still vague.
(3) Respondent is not prepared for providing a stable custodial environment/condition
for the Children in the case they are returned to the USA, and does not have any
financial support in order to prepare for such custodial environment/condition to
the Children. Further, in regards to the Children's schooling, the only explanation

3

130a.

27-FA-15-499

Filed in Fourth Judicial District Court
6/5/2018
5/23/201811:43
1:55 AM
PM
and has not Hennepin County, MN

Respondent gave is to let them go to a free-of-charge charter school,
clarified a specific school.
(4) Currently, the Respondent's father is critical about the Respondent and opposes
return of the Children to the USA, and it cannot be said that the Respondent's father
is cooperative to Respondent in regards to keeping custody of the Children in the
USA (Petitioner ' s Exhibit No. 6). Further, Petitioner does not have a life base in the
USA, and it would be difficult to provide stable housing and a custodial environment
for the Children if they are returned to the USA (Respondent's Exhibit No. 1).
2
Determination
(1)
According to the Facts described above 1, Respondent was forced to leave
the house due to the execution of foreclosure after the Appeal Decision was
finalized, and has not secured housing for the Children in the case they are returned

to the USA. Further, Respondent's financial base for custody of the Children is
extremely insufficient, plans for Children's school are not clear, and support from
Respondent's relatives cannot be expected either. Meanwhile, the Children are
currently having a stable life in Japan, and strongly refuse to be returned to the USA.
In view of these circumstances, potential scenarios in the event of Children's
return to the USA are as follows: it would become diff icult for Respondent to keep
custody of the Children due to the change of circumstances that occurred after
finalization of the Appeal Decision, and because there is no other appropriate person
who will keep custody of the Children, a stable custodial environment/condition
sufficient to raise the four Children cannot be provided . Such events as above shall
constitute a grave risk as prescribed in the Act, Article 28, Paragraphs 1-4, in which
expose children to physical and psychological harm or otherwise place the children
in an intolerable situation.
(2)A. Respondent currently rents a room from his acquaintance and stays there in
order to save money, and asserts that once the Children are returned to the USA,
they will spend several weeks at their grandmother's home , during which he will find
a large house to rent so the family can live.
However, Respondent has not clarified any specific matters as to the living
environment of their grandmother and his plans on renting a residence, and even
though he asserts that he rents a room of his acquaintance's house as described
above, Respondent has not given any explanation for the fact that, according to
Material (Petitioner's Exhibit No. 30), the place of Respondent's address is the place
of address of an insurance agency.
Further, in regards to his work situation and income as well as his plans on
Children's school, Respondent has not made any specific assertion either, and the
custodial environment/condition and the financial support in the event the Children
are returned to the USA are also completely unclear. According to the First Instance
Decision, Respondent, during the First Instance Decision procedure, asserted that he
would start working for Boston Scientific on October 20, 2015, but his current work
situation is not clear as described above.
Therefore, the above assertion of Respondent cannot be accepted.

4

131a.

27-FA-15-499

B.

Respondent asserts that U.S. federal government, and a

Filed in Fourth Judicial District Court
5/23/201811:43
1:55 AM
PM
6/5/2018
non-governmental Hennepin County, MN

organization, the National Center for Missing and Exploited Children {NCMEC)show
strong interests in the conflict between the parties regarding return of the Children.
However, the purpose of such assertion is not clear, and in addition, this cannot be
said to affect outcome of this case. Further, Respondent has not submitted any
material that supports his ability to provide an appropriate custodial
environment/condition for the Children. Thus, the above assertion of Respondent
cannot be accepted.
Further, Respondent asserts that the Petition was filed to create a setting as
if the Appeal Decision has not been finalized, for the purpose of overturning the
determination by the Minnesota court to the effect that it has the jurisdiction over
custody of the Children, and that such is an abuse of petition right. However, the
purpose of such assertion is not clear, and in addition, there is no material that is
sufficient to find that the Petition is an abuse of right. Thus, the above assertion of
Respondent cannot be employed.
(3)
It should be noted that, in the first place, return of children according to the

3

Act does not mean return of children to a country of habitual residence or letting the
Children to live with Respondent. However, in the current case, as described above,
ifthe Children are returned to the USA, neither custody of the Children by Petitioner
nor support by Respondent's relatives can be expected, and therefore, realistically
speaking, it is hard to assume that the place of accepting the Children is any other
place than the Respondent's residence. Further, as described above, because
Respondent faces material problems of securing a residence and providing a
custodial environment/condition due to the change of the Respondent's
circumstances after finalization of the Appeal Decision, it is not appropriate to
maintain the effect of the Appeal Decision without regard to these matters, even if
return of children according to the Act meant return of children to a country of
habitual residence.
According to the above, due to the change of circumstances after finalization of the
Appeal Decision, it is appropriate to modify the Appeal Decision according to the Act,
Article 117, Paragraph 1. Therefore, the decision is made as per the Main Text.
February 17, 2017
Osaka High Court, 9t h Civil Division
Presiding Judge/Judge Toru Matsuda
Judge

Yoshinori Tanaka

Judge

Takahiro Hiwada

5

132a.

27-FA-15-499

Filed in Fourth Judicial District Court
6/5/2018
5/23/201811:43
1:55 AM
PM
Hennepin County, MN

DISSOLUTION WITH CHILDREN - 4
STATE OF MINNESOTA
DISTRICT COURT
COUNTY OF HENNEPIN
FOURTH JUDICIAL DISTRICT
FAMILY COURT DIVISION
In re the Marriage of:
James Edward Cook, II,

CERTIFICATE OF TRANSLATOR
Court File No. 27-F A-15-499

Petitioner,
and
Hitomi Arimitsu,
Respondent.
COUNTRY OF JAPAN
CITY OF KOBE

I, Gerald Thomas, after being duly sworn, upon oath, deposes and states as follows :
I am fluent in English and Japanese. On March 22, 2018 I reviewed the attached Decision of the
Osaka High Court dated February 17, 2017 and the translated text truly reflects the content,
meaning and style of the original text and constitutes in every respect a correct and true
translation of the original document. Con-ect and true means all words on the presented
document have been accurately translated.

I certify:
1. That I am not related to the applicant by blood or marriage;
2. That I am qualified as a lawyer and member of the Law Society of British Columbia
(Canada), and that I have been living in Japan for over twenty-four years continuously,
working in the English and Japanese languages;
3. That Thomas Consultants International, Co., Ltd., and its division The Legal Translation
Group, specializes in the translation of legal documents for clients, including law finns
and government agencies;
4 . That the head translator of my translation team, with over 15 years of professional legal
translation experience translated into English the above document to the best of her
ability;

133a.

27-FA-15-499

Filed in Fourth Judicial District Court
6/5/2018
5/23/201811:43
1:55 AM
PM
Hennepin County, MN

5. That I have personally reviewed the translation thoroughly and that to the best of my
knowledge and belief, the attached English document is an accurate and complete
translation of the Japanese original document also attached to this Affirmation.

FURTHER YOURAFFIANT SAYETHNAUGHT.

I declare under penalty of perjury that everything I have stated in this document is true and correct.

cfac0,~

/~LJJ_

Getald
Thomas, Affiant
Signed this

'2,2,,

day of March 2018, in the City of Kobe, Countiy of Japan.

134a.

STATE OF MINNESOTA

FOURTH JUDICIAL DISTRICT

COUNTY OF HENNEPIN

FAMILY COURT DIVISION

In Re the Marriage of:
Court File No. 27-FA-15-499
James Edward Cook, II,
Petitioner,
ORDER TO REESTABLISH SUBJECT
MATTER JURISDICTION AND
HAGUE CONVENTION
ENFORCEMENT ORDER

v.
Hitomi Arimitsu,
Respondent.

On November 21, 2016, this matter came before the Honorable Nicole A. Engisch
on Petitioner’s motion for subject matter jurisdiction and parenting time assistance with
respect to enforcement of a Hague Convention order issued by the Osaka High Court of
Japan and related relief.
Petitioner appeared and was represented by Victoria M.B. Taylor, Esq.
Respondent appeared by telephone and was represented by Sonja M. Nyberg, Esq.
Based on the files, records, and proceedings, the Court issues the following findings
of fact, conclusions of law and order.
FINDINGS OF FACT
1.
The parties are the parents of the following minor children, born during the
marriage:
Arimitsu Cook, born December 5, 2002 (age 13);
Arimitsu
Cook, born December 5 2002 (age 13);
Arimitsu Cook, born February 13,
2008 (age 8); and
Arimitsu Cook, born February 13, 2008 (age 8). The parties’
children will be referred throughout this order as the minor children or children.
2.
All of the parties’ minor children were born in Minnesota and permanently
resided in the City of Maple Grove, County of Hennepin, State of Minnesota, prior to their
departure to Japan on July 13, 2014. The children’s absence from Minnesota was a
temporary absence that started on July 13, 2014. The children’s continued stay in Japan,

135a.

since at least March 10, 2015, has been against the wishes and desires of Mr. Cook, their
father.
3. On January 13, 2015, Petitioner (Mr. Cook) filed a Summons and Petition for
Dissolution with Children in this court file. In his petition, Mr. Cook asked for sole
physical custody and sole legal custody of the minor children, alleging that Respondent (Ms.
Arimitsu) failed to return the children from Japan after a mutually agreed upon vacation.
4. On May 11, 2015, Ms. Arimitsu filed an Answer and Counter Petition. She
asked for joint legal custody and sole physical custody of the minor children, subject to a
parenting time schedule that would allow the minor children to continue to live and attend
school in Japan. She alleged that, since the summer of 2014, per the agreement of the
parties, the children have been living in Japan with her and attending school in Japan.
5.
On July 23, 2015, the parties appeared for the Initial Case Management
Conference before the Honorable James Swenson, the judge assigned to this case before his
retirement. Although neither party had raised an issue regarding subject matter jurisdiction,
because the children had not resided in Minnesota for the requisite 180 days prior to the
commencement of the dissolution proceeding, Judge Swenson requested briefing from
counsel on subject matter jurisdiction.
6.
On October 1, 2015, Judge Swenson issued an order that determined that
Minnesota is not the children’s “home state” as defined by Minn. Stat. § 518D.102(d), and
therefore Minnesota did not have subject matter jurisdiction over the minor children to
address custody and parenting time. The October 1, 2015, order set forth the following
undisputed facts, among others:
a.

The parties entered into an agreement on July 8, 2014, that stated that
Ms. Arimitsu would be bringing the children to Japan for vacation but
would be returning them to Minnesota no later than August 29, 2014.

b.

The children left for Japan in summer 2014, enrolled in a Japanese
school with Mr. Cook’s approval, and remained in Japan attending
their Japanese school until almost the entire 2014/2015 school year
had run its course before Mr. Cook commenced this action in late
April 2015.

c.

Mr. Cook’s actions after August 29th suggest that the parties agreed to
modify if not ignore the terms of the July 8, 2014 agreement. As Mr.
Cook stated, “In mid-August I agreed that the children could stay in
Japan with Hitomi for a while longer, but I never agreed for the
children to stay indefinitely.”

7.
Pursuant to the October 1, 2015, order, custody and parenting time prayers
for relief were stricken from the parties’ pleadings. The dissolution matter remained
pending and is still currently pending before this Court.

136a.

8.
On August 07, 2015, Mr. Cook filed an Application for Assistance in
Child[ren’s] Return to Foreign State under Civil Aspects of International Child Abduction
(The Hague Convention). On August 10, 2015, Mr. Cook received Notice of Receipt of
Application Documents, and case number A-15033 was assigned to Mr. Cook’s application.
9.
On August 19, 2015, Mr. Cook filed a Return Petition with the Osaka Family
Court in Japan.
10.
The Osaka Family Court dismissed Mr. Cook’s application for return as it
applied to the parties’ eldest set of twins, but granted his application as it applied to the
parties’ youngest set of twins. Both parties appealed the decision to the Osaka High Court.
11.
On January 28, 2016, the Honorable Judge Junichi Kaneda, the Honorable
Judge Yoshinori Tanaka and the Honorable Judge Takuya Ueda of the Osaka High Court,
9th Civil Division, Court File “2015(Ra) No. 1404 Case of appeal against a decision on a
petition for the return of child” filed and entered an order in favor of Mr. Cook and for Ms.
Arimitsu to return all four of the parties’ children to the United States. Mr. Cook has filed
an authenticated translation and copy of the Osaka High Court’s January 28, 2016, order
with this Court. Mr. Cook has retained a certified copy of the Osaka High Court’s January
28, 2016, order.
12.
On February 03, 2016, Ms. Arimitsu filed an appeal of the Osaka High
Court’s January 28, 2016, order. On February 23, 2016, Ms. Arimitsu’s appeal was denied.
Mr. Cook has filed an authenticated translation and a copy of the appeal denial with this
Court. Mr. Cook has retained a certified copy of the appeal denial.
13.
Since the entry of the Osaka High Court’s January 28, 2016, order, Mr. Cook
has been actively engaged in the enforcement of that order in Japan. To date, Ms. Arimitsu
has failed to comply with the Osaka High Court’s January 28, 2016, order, has not complied
with the terms of its enforcement in Japan, and has not returned the children to the United
States.
14.
At the hearing on November 21, 2016, this Court took sworn testimony of
both Mr. Cook and Ms. Arimitsu. According to both parties’ testimony, and as this Court
now finds, Ms. Arimitsu has not allowed Mr. Cook parenting time with the children since
October 12, 2014.
15.
Ms. Arimitsu contended that the children have decided, on their own, not to
have parenting time with Mr. Cook. She also contended that her children are refusing to
meet with or speak with Mr. Cook, and she stated that they will not travel to the United
States, even if they would be accompanied by her and if she insisted that they need to go.
Mr. Cook credibly raised concern that, before they left for Japan, they were loving and
happy to be with him. They have changed and have become alienated from him since they
have been in Japan, and he believes that Ms. Arimitsu has caused this alienation.

137a.

16.
This Court did not find Ms. Arimitsu credible in her explanations for the lack
of parenting time between the children and Mr. Cook. The children are 13 and 8. Even
assuming the children are expressing resistance to having contact with Mr. Cook or to
traveling to the United States, Ms. Arimitsu is the adult and the parent and she should be
making appropriate decisions for the children with regard to parenting time with their
father.
17.
At the hearing on November 21, 2016, Ms. Arimitsu had an opportunity to
contest the validity and authenticity of the Osaka High Court’s January 28, 2016, order.
She did not do so. Instead, she acknowledged the existence of the Osaka High Court’s
January 28, 2016, order, although she claimed that she was still appealing the order in
Japan.
18.
Because neither party has alleged domestic violence between the parties, the
Court finds that domestic violence is not at issue in this case.
19.
The parties’ marriage has not been dissolved and no other proceeding for
dissolution, legal separation or custody is pending in any other court in this state, in any
other state, in Japan or elsewhere.
20.
Custody and parenting time of the parties’ minor children has not been
established in this court or in any other court. There are no orders, temporary or
permanent, designating custody or parenting time in this state, in any other state, in Japan
or elsewhere.
21.
According to Mr. Cook’s attorney in Japan, Ai Kuroda, and as this Court
now finds, a Japanese court does not have jurisdiction over the custody of the parties’
children. First, a dissolution proceeding is already open in the United States, in Minnesota.
Second, Japan will not or cannot open a divorce case when the other party resides in the
U.S. unless the other party has abandoned the family or the other party’s whereabouts are
unknown. Finally, Mr. Cook and Ms. Arimitsu are still legally married, and the Japanese
court will not or cannot address custody of the children based on the future divorce.
22.
In her testimony before this Court on November 21, 2016, Ms. Arimitsu
acknowledged that Japan does not have jurisdiction over the custody of the parties’
children. She stated that, for this reason, she has not brought a custody proceeding in
Japan.
23.
Ms. Arimitsu argued that this Court should decline to reestablish subject
matter jurisdiction in light of Judge Swenson’s October 1, 2015, order. A number of facts
and circumstances have changed, however, since Judge Swenson issued his October 1,
2015, order. First, for many months, Mr. Cook has been diligently and actively pursuing all
legal remedies under the Hague Convention to have the children returned to Minnesota.
Second, on January 28, 2016, the Osaka High Court filed and entered an order pursuant to
the Hague Convention for Ms. Arimitsu to return all four of the parties’ children to the
United States. In that order, the Japan court implicitly if not explicitly determined that the

138a.

most appropriate forum for determination of the parties’ custody dispute is the United
States, in Minnesota. Third, as the parties and the Court are now aware, no court in Japan
has jurisdiction to decide the custody dispute under the circumstances, which means that
the custody dispute will remain undecided indefinitely. Fourth, Ms. Arimitsu has been
actively denying Mr. Cook parenting time and access to the children in a manner that is not
in the children’s best interests. The Court finds that each of these facts and circumstances,
among others, not only justify but compel this Court to revisit the issue of subject matter
jurisdiction.
24.
At the conclusion of the November 21, 2016, hearing, this Court made it clear
that it would be reinstating subject matter jurisdiction and that it would be enforcing the
Osaka High Court’s January 28, 2016, order, directing Ms. Arimitsu to return the children
to Minnesota. This Court stated that it would consider not awarding temporary custody to
Mr. Cook as part of its order; provided that Ms. Arimitsu was willing to comply with the
Osaka High Court’s January 28, 2016, order to return the children to Minnesota. The Court
further indicated that it would be willing to expedite a custody and parenting evaluation
upon the children’s return to Minnesota. The Court requested additional information from
both parties.
25.
The Court has now received the additional requested information. In Ms.
Arimitsu’s post-hearing submissions, including her supplemental affidavit and her
supplemental memorandum of law, both filed on November 29, 2016, she is continuing to
resist compliance with the Osaka High Court’s January 28, 2016, order. She is also
continuing to argue unpersuasively that the Osaka High Court’s January 28, 2016, order is
not final and that it remains on appeal.
26.
Mr. Cook has persuasively presented information to this Court, as requested,
indicating that the Osaka High Court’s January 28, 2016, order is final. He contended that
Ms. Arimitsu is appealing an enforcement or implementing provision, not the merits of the
Osaka High Court’s January 28, 2016, order itself, the deadline for which has long since
passed. Even if Ms. Arimitsu still had an appeal pending that addressed the merits of the
Osaka High Court’s January 28, 2016, order, something this Court does not find, it remains
undisputed that Ms. Arimitsu has not obtained a stay of that order. Therefore, the Osaka
High Court’s January 28, 2016, order is of full force and effect and should be enforced.
27.
This Court finds that the Osaka High Court’s January 28, 2016, order is final,
is binding on Ms. Arimitsu, and she has had proper notice of that order. She is willfully
violating that order. Accordingly, this Court finds that it is appropriate for Mr. Cook to be
granted temporary sole physical custody of the minor children in order to assist in their safe
return to the United States and to the State of Minnesota, particularly given the lack of
cooperation by Ms. Arimitsu.
28.
Ms. Arimitsu argued that the children have been living in Japan for some
time and that it would be very disruptive to them to be uprooted to have to return to
Minnesota. Ms. Arimitsu’s arguments are contrary to the Hague Convention, which
appropriately places a priority on the expeditious return of wrongfully removed or retained

139a.

children to their place of habitual residence. In enforcing a Japan court order entered under
the Hague Convention, this Court must similarly uphold that priority. If this Court were to
instead place a priority on avoiding disrupting the children from their lives in Japan, that
would not only run counter to the Hague Convention, but it would eviscerate the
convention’s very purpose. See Article I to the Hague Convention (one of the primary
objects of the convention is “to secure the prompt return of children wrongfully removed to
or retained in any Contracting State”). An abductor or party who has wrongfully removed
or retained children, such as Ms. Arimitsu, would be rewarded for their abduction and for
their efforts to delay the process to return the children as long as possible.
29.
Thus, this Court finds that, even if the process to return the children to the
United States will be disruptive to them, that disruption is outweighed by the need to
enforce the Osaka High Court’s January 28, 2016, order and to comply with the principles
of the Hague Convention, as well as by the need to have the custody of the children finally
determined here in their home state of Minnesota. The Court continues to place high
expectations on both parties and assumes they will each put the children’s needs first, will be
fully cooperative, and will take all necessary steps to minimize the disruption for the
children, as they comply with the Osaka High Court’s January 28, 2016, order and with this
Court’s order.
CONCLUSIONS OF LAW
1.
Mr. Cook seeks to enforce the Osaka High Court’s January 28, 2016, order
for the return of the parties’ children to the United States pursuant to his Application for
Assistance in Child[ren’s] Return to Foreign State pursuant to The Hague Convention.
2.
Comity is at the heart of the Hague Convention, and accordingly, courts in
the United States must normally accord considerable deference to foreign court orders
issued under the Hague Convention. See Miller v. Miller, 240 F.3d 392, 400 (4th Cir. 2001).
Although a U.S. court may decline to extend comity to a foreign court order in some
circumstances, such as where the foreign court order clearly misinterprets the Hague
Convention or fails to meet a minimum standard of reasonableness, see Smedley v. Smedley,
772 F.3d 184, 189 (4th Cir. 2014), none of those circumstances are present here.
Accordingly, this Court hereby recognizes and will enforce the Japanese Order dated
January 28, 2016.
3.
The Osaka High Court, 9th Division Order, dated January 28, 2016, ordering
the return of the parties’ children to the United States, is a valid and enforceable order that is
now on file in this court file. This Court has also received a copy of an order denying Ms.
Arimitsu’s appeal of the Osaka High Court’s January 28, 2016, order.
4.
It is proper for this Court to retain subject matter jurisdiction of the parties’
minor children pursuant to Minn. Stat. § 518D.201, subds. (a)(2), (a)(3), and (a)(4). This
Court expressly finds and concludes that it has subject matter jurisdiction of the parties’
minor children and therefore it may make child custody determinations.

140a.

5.
First, this Court finds and concludes that it has subject matter jurisdiction of
the parties’ minor children under Minn. Stat. § 518D.201, subd. (a)(2), in that a court of
another state does not have jurisdiction under clause (1) of the statute; the Japanese court
has effectively declined or likely will decline to exercise jurisdiction on the ground that this
state is the more appropriate forum by ordering the return of the children to the United
States; the children and at least one parent have a significant connection with this state other
than mere physical presence; and substantial evidence is available in this state concerning
the child’s care, protection, training and personal relationships. Although the children are
now living in Japan, Minnesota is the state in which they were born and lived permanently
until their departure for Japan in July 2014.
6.
Second, this Court finds and concludes that it has subject matter jurisdiction
of the parties’ minor children under Minn. Stat. § 518D.201, subd. (a)(3), in that the
Japanese court has effectively declined or likely will decline to exercise jurisdiction on the
ground that a court of this state is the more appropriate forum to determine the custody of
the children.
7.
Third, this Court finds and concludes that it has subject matter jurisdiction of
the parties’ minor children under Minn. Stat. § 518D.201, subd. (a)(4), in that no court of
any other state or country would have jurisdiction pursuant to the criteria set forth in Minn.
Stat. § 518D.201 or comparable statute.
8.
This Court specifically finds that no court in Japan would have jurisdiction of
the children because (1) the parties’ dissolution proceeding is active and pending in
Minnesota; (2) one party resides in the U.S., that party has not abandoned the family, and
his whereabouts are known; and (3) the parties are still legally married, and the Japanese
court will not or cannot address custody of the children based on the future divorce. In
addition, by operation of law, “a court in the abducted-to nation has jurisdiction to decide
the merits of an abduction claim, but not the merits of the underlying custody dispute.”
Friedrich v. Friedrich, 78 F.3d 1060, 1063 (6th Cir. 1996).
9.
In addition, this Court finds and concludes that it has subject matter
jurisdiction of the parties’ minor children under Minn. Stat. § 518D.201, subd. (a)(1), in that
this state was the home state of the children on the date of the commencement of the
dissolution proceeding, or was the home state of the children within six months before the
commencement of the proceeding and the children are absent from this state but a parent
continues to live in this state.
10.
Under Minn. Stat. § 518D.102(h), a child’s “home state” is the state where
the child “lived with a parent . . . for at least six consecutive months immediately before the
commencement of a child custody proceeding.” Temporary absences do not affect the
home state period. Id. Here, the record shows that the children were born in and lived in
Minnesota from birth, that they traveled to Japan on July 13, 2014, for a vacation, that they
then stayed past the vacation period and into the school year, but that one parent, Mr.
Cook, never agreed to have the children permanently relocate. This Court finds that, under
a totality of the circumstances, the children’s period of time living in Japan was a temporary

141a.

absence, even though the period was extensive and even though Mr. Cook may not have
been vigilant early on in seeking to enforce the parties’ 2014 agreement to have the children
return to Minnesota. For an extensive period of time, Mr. Cook has diligently and actively
pursued all legal remedies under the Hague Convention to have the children returned to
Minnesota. He has made numerous efforts to have contact with his children, efforts which
have not been supported and have been actively thwarted by Ms. Arimitsu.
11.
This Court recognizes that its findings and conclusions regarding Minnesota
as the children’s home state are different than the findings and conclusions of Judge
Swenson’s October 1, 2015, order. This Court’s findings and conclusions, however, are
consistent with the Osaka High Court’s January 28, 2016, order, which concluded that the
children were staying in Japan for a limited period and were expected to return to the
United States and to Minnesota, the state of their habitual residence. This Court finds that
the Osaka High Court’s January 28, 2016, order is more persuasive on these points.
Moreover, as discussed above, the facts and circumstances have changed since Judge
Swenson filed the October 1, 2015, order.
12.
For all these reasons, this Court has subject matter jurisdiction under any one
or more of several subdivisions of Minn. Stat. § 518D.201.
13.
There are no orders, temporary or permanent, designating custody or
parenting time in this state, Japan or elsewhere.
14.
Ms. Arimitsu has denied Mr. Cook access or parenting time to or with the
children for almost two years.
15.

Enforcement of the return of the children to Minnesota is proper.
ORDER

1.
Mr. Cook’s motion to establish subject matter jurisdiction is hereby granted.
Subject matter jurisdiction regarding the parties’ minor children is hereby reestablished and
reinstated in this court file.
2.
Mr. Cook’s motion to reinstate Minnesota as the children’s home state is
hereby granted. Minnesota is hereby reinstated as the home state of the minor children.
3.
Mr. Cook’s motion to enforce the Osaka High Court’s January 28, 2016,
order pursuant to The Hague Convention is hereby granted. The children shall be
immediately returned to the United States and to the State of Minnesota in accordance with
the Osaka High Court, 9th Civil Division, Court File “2015(Ra) No. 1404 Case of appeal
against a decision on a petition for the return of child” filed and entered on January 28,
2016, and any subsequent orders of enforcement of that order.

142a.

4.
Mr. Cook’s request for this Court to find that Ms. Arimitsu has repeatedly
and intentionally denied Mr. Cook all access or parenting time with the parties’ minor
children is hereby granted.
5.

Mr. Cook’s request for Ms. Arimitsu to pay a civil penalty is hereby reserved.

6.
Mr. Cook’s request for Ms. Arimitsu to post a bond with the court for no less
than one (1) year is hereby reserved.
7.
Mr. Cook’s request for Ms. Arimitsu to pay conduct-based attorney’s fees to
Mr. Cook is hereby reserved.
8.
Mr. Cook’s request for Ms. Arimitsu to pay his costs incurred as a result of
Ms. Arimitsu’s violation of the Osaka High Court’s January 28, 2016, order through the
date of this motion is hereby reserved.
9.
Appendix A is attached and incorporated in this order. The parties are
specifically reminded that, by law, each party has a number of rights, including the right to
receive copies of school, medical and other important records and information about the
minor children, as well as the right to reasonable access and telephone or other electronic
contact with the minor children.
10.
Ms. Arimitsu shall return the children to the residence of Mr. Cook in
Hennepin County in the State of Minnesota by no later than December 17, 2016.
11.
Mr. Cook shall be granted temporary sole physical custody of the minor
children in order to assist in their safe return to the United States and to the State of
Minnesota.
12.
Mr. Cook shall be granted all right of possession and access to the children’s
passports to assist in their safe return to the United States and to the State of Minnesota.
13.
Ms. Arimitsu shall purchase flights for all four children to depart from Japan
to Minneapolis/Saint Paul International airport by no later than December 17, 2016. Ms.
Arimitsu shall provide proof of purchase to this Court no later than December 10, 2016. In
the event that Ms. Arimitsu does not purchase such flights by December 10, 2016, Mr. Cook
shall purchase the flights and Ms. Arimitsu shall reimburse Mr. Cook within 10 days of
purchase.
14.
By no later than December 17, 2016, Ms. Arimitsu shall release the children
to the care of Mr. Cook at the U.S. Consulate in Osaka, Japan for the sole purpose of
securing the children’s return to the United States as ordered herein.
15.
The U.S. Consulate shall assist to the maximum extent possible to enforce
this Court’s order in Japan, including but not limited to assuring and assisting that the

143a.

children shall immediately be required to travel back to the United States and continue
assistance in compliance with this order in the United States.
16.
Enforcement of this order shall be made under The Hague Convention and in
accordance with all remedies available under Minnesota law and all other applicable State,
Federal and International law.
17.
Law enforcement shall assist in enforcement of this order as applicable by
International, Federal and Minnesota State Law.
18.
Further custody and parenting time issues shall be addressed and modified
according to the best interests of the children upon their safe return to the United States,
State of Minnesota, Hennepin County. The Court will reserve related issues, such as
therapy for the children, until the children are returned to the United States.

Dated: December 2, 2016

BY THE COURT:

___________________________
Nicole A. Engisch
Judge of District Court

144a.

APPENDIX A
NOTICE IS HEREBY GIVEN TO THE PARTIES:
I. PAYMENTS TO PUBLIC AGENCY. According to Minnesota Statutes, section 518A.50, payments ordered
for maintenance and support must be paid to the Minnesota child support payment center as long as the person entitled to
receive the payments is receiving or has applied for public assistance or has applied for support and maintenance collection
services. Parents mail payments to: P.O. Box 64326, St. Paul, MN 55164-0326. Employers mail payments to: P.O. Box
64306, St. Paul, MN 55164.
II. DEPRIVING ANOTHER OF CUSTODIAL OR PARENTAL RIGHTS -- A FELONY. A person may be
charged with a felony who conceals a minor child or takes, obtains, retains, or fails to return a minor child from or to the
child's parent (or person with custodial or parenting time rights), according to Minnesota Statutes, section 609.26. A copy of
that section is available from any court administrator.
III. NONSUPPORT OF A SPOUSE OR CHILD – CRIMINAL PENALTIES. A person who fails to pay
court-ordered child support or maintenance may be charged with a crime, which may include misdemeanor, gross
misdemeanor, or felony charges, according to Minnesota Statutes, section 609.375. A copy of that section is available from
any district court clerk.

A.
B.
C.

D.
E.
F.
G.
H.

I.
J.
K.

IV. RULES OF SUPPORT, MAINTENANCE, PARENTING TIME.
Payment of support or spousal maintenance is to be as ordered, and the giving of gifts or making purchases of food,
clothing, and the like will not fulfill the obligation.
Payment of support must be made as it becomes due, and failure to secure or denial of parenting time is NOT an
excuse for nonpayment, but the aggrieved party must seek relief through a proper motion filed with the court.
Nonpayment of support is not grounds to deny parenting time. The party entitled to receive support may apply
for support and collection services, file a contempt motion, or obtain a judgment as provided in Minnesota
Statutes, section 548.091.
The payment of support or spousal maintenance takes priority over payment of debts and other obligations.
A party who accepts additional obligations of support does so with the full knowledge of the party's prior obligation
under this proceeding.
Child support or maintenance is based on annual income, and it is the responsibility of a person with seasonal
employment to budget income so that payments are made throughout the year as ordered.
A Parental Guide to Making Child-Focused Parenting-Time Decisions is available from any court administrator.
The nonpayment of support may be enforced through the denial of student grants; interception of state and federal
tax refunds; suspension of driver’s, recreational, and occupational licenses; referral to the department of revenue or
private collection agencies; seizure of assets, including bank accounts and other assets held by financial institutions;
reporting to credit bureaus; interest charging, income withholding, and contempt proceedings; and other enforcement
methods allowed by law.
The public authority may suspend or resume collection of the amount allocated for child care expenses if the
conditions of Minnesota Statutes, section 518A.40, subdivision 4, are met.
The public authority may remove or resume a medical support offset if the conditions of section 518A.41,
subdivision 16, are met.
The public authority may suspend or resume interest charging on child support judgments if the conditions of section
548.091, subdivision 1a, are met.

V. MODIFYING CHILD SUPPORT. If either the obligor or obligee is laid off from employment or receives a
pay reduction, child support may be modified, increased, or decreased. Any modification will only take effect when it is
ordered by the court, and will only relate back to the time that a motion is filed. Either the obligor or obligee may file a
motion to modify child support, and may request the public agency for help. UNTIL A MOTION IS FILED, THE CHILD
SUPPORT OBLIGATION WILL CONTINUE AT THE CURRENT LEVEL. THE COURT IS NOT PERMITTED TO
REDUCE SUPPORT RETROACTIVELY.
VI. PARENTAL RIGHTS FROM MINNESOTA STATUTES, SECTION 518.17, SUBDIVISION 3.
UNLESS OTHERWISE PROVIDED BY THE COURT:
A.
Each party has the right of access to, and to receive copies of, school, medical, dental, religious training, police
reports, and other important records and information about the minor children. Each party has the right of access to
information regarding health or dental insurance available to the minor children. Presentation of a copy of this order
FAM301

State

ENG

Rev 08/15

145a.

www.mncourts.gov/forms

Page 1 of 3

B.

C.
D.

E.

to the custodian of a record or other information about the minor children constitutes sufficient authorization for the
release of the record or information to the requesting party.
Each party has the right to be informed by the other party as to the name and address of the school of attendance of
the minor children. Each party has the right to be informed by school officials about the children's welfare,
educational progress and status, and to attend school and parent teacher conferences. The school is not required to
hold a separate conference for each party.
Each party has the right to be notified by the other party of an accident or serious illness of a minor child, including
the name of the health care provider and the place of treatment.
Each party has the right to be notified by the other party if the minor child is the victim of an alleged crime,
including the name of the investigating law enforcement officer or agency. There is no duty to notify if the party to
be notified is the alleged perpetrator.
Each party has the right of reasonable access and telephone contact with the minor children.

VII. WAGE AND INCOME DEDUCTION OF SUPPORT AND MAINTENANCE. Child support and / or
spousal maintenance may be withheld from income, with or without notice to the person obligated to pay, when the
conditions of Minnesota Statutes, section 518A.53, have been met. A copy of that section is available from any court
administrator.
VIII. CHANGE OF ADDRESS OR RESIDENCE. Unless otherwise ordered, each party shall notify the other
party, the court, and the public authority responsible for collection, if applicable, of the following information within ten days
of any change: residential and mailing address, telephone number, driver's license number, social security number, and name,
address, and telephone number of the employer.
IX. COST OF LIVING INCREASE OF SUPPORT AND MAINTENANCE. Basic support and / or spousal
maintenance may be adjusted every two years based upon a change in the cost of living (using the U.S. Department of Labor,
Bureau of Labor Statistics, consumer price index Mpls. St. Paul, for all urban consumers (CPI-U), unless otherwise specified
in this order) when the conditions of Minnesota Statutes, section 518A.75, are met. Cost of living increases are
compounded. A copy of Minnesota Statutes, section 518A.75, and forms necessary to request or contest a cost of living
increase are available from any court administrator.

A.

B.

X. JUDGMENTS FOR UNPAID SUPPORT; INTEREST. According to Minnesota Statutes, section 548.091:
If a person fails to make a child support payment, the payment owed becomes a judgment against the person
responsible to make the payment by operation of law on or after the date the payment is due, and the person entitled
to receive the payment or the public agency may obtain entry and docketing of the judgment without notice to the
person responsible to make the payment.
Interest begins accruing on a payment or installment of child support whenever the unpaid amount due is greater
than the current support due.

XI. JUDGMENTS FOR UNPAID MAINTENANCE. A judgment for unpaid spousal maintenance may be
entered and docketed when the conditions of Minnesota Statutes, section 548.091, are met. A copy of that section is
available from any court administrator.
XII. ATTORNEY FEES AND COLLECTION COSTS FOR ENFORCEMENT OF CHILD SUPPORT. A
judgment for attorney fees and other collection costs incurred in enforcing a child support order will be entered against the
person responsible to pay support when the conditions of Minnesota Statutes, section 518A.735, are met. A copy of that
section and forms necessary to request or contest these attorney fees and collection costs are available from any court
administrator.
XIII. PARENTING TIME EXPEDITOR PROCESS. On request of either party or on its own motion, the court
may appoint a parenting time expeditor to resolve parenting time disputes under Minnesota Statutes, section 518.1751. A
copy of that section and a description of the expeditor process is available from any court administrator.
XIV. PARENTING TIME REMEDIES AND PENALTIES. Remedies and penalties for wrongful denial of
parenting time are available under Minnesota Statutes, section 518.175, subdivision 6. These include compensatory
parenting time; civil penalties; bond requirements; contempt; and reversal of custody. A copy of that subdivision and forms
for requesting relief are available from any court administrator.
FAM301

State

ENG

Rev 08/15

146a.

www.mncourts.gov/forms

Page 2 of 3

In addition to the Notices on pages 1 and 2, the following NOTICE applies to all orders addressing custody pursuant
to Minn. Stat. § 518.17, subd. 3a.
NOTICE
EACH PARTY IS GRANTED THE FOLLOWING RIGHTS:
1. Right of access to, and to receive copies of, school, medical, dental, religious training, police reports, and other
important records and information about the minor children.
2. Right of access to information regarding health or dental insurance available to the minor children.
3. Right to be informed by the other party as to the name and address of the school of attendance of the minor children.
4. Right to be informed by school officials about the children’s welfare, educational progress and status, and to attend
school and parent-teacher conferences. The school is not required to hold a separate conference for each party,
unless attending the same conference would result in violation of a court order prohibiting contact with a party.
5. Right to be notified by the other party of an accident or serious illness of a minor child, including the name of the
health care provider and the place of treatment.
6. Right to be notified by the other party if the minor child is the victim of an alleged crime, including the name of the
investigating law enforcement officer or agency. There is no duty to notify if the party to be notified is the alleged
perpetrator.
7. Right to reasonable access and telephone or other electronic contact with the minor children.

FAM301

State

ENG

Rev 08/15

147a.

www.mncourts.gov/forms

Page 3 of 3

.

.

27-FA-15-499
<I

<I

<I

Filed in Fourth Judicial District Court
9/27/2016 4:56:38 PM
Hennepin County, MN

0

O

...

:iJZr,£2 7

c¥(5) ~i

1 4

*

o

4-~

-90tfi:%~{t!:
c
-:::it,,---)Et:::;t,J
-=f-O)izili'U!1}'[---ct:::Gt.::f;k:

*)()

7 ~ /J t,1 L, % 1 0 ~)
1'11

llJp[riJZr,!Z2 7 <¥(
(lllffil,· );::1W !k11&

{jJfr

6 2 64

.I-- 7°Jv· ::1□ - 7·

.i- 1J --z'.Y ::'7illl.l'.J;It

3.

*

'J 5' 1'M

m%JdfHIFI" 11 (®:zJlc,j:llLA)
::'7-:;::'7,::J.:r:.-A7,,.I.l''7-~t;/J::,,}'
(J;.rf rmi:*,l"lLAJ c:t,,'Jo )
11
11_:;l±
:.) \.'ti'u
=f;tt {·\:J!P
friJ--,%

m
JO"'

EEi

friJ

li?:1

~i

-•- 11.i: ~J.~

m

!llf

Mt:

JII

AA

{-\:;JfilA 't/''/f<
Ir~ -1til"
=.F
friJ--m:,c
II;;! ±
~

!1],',
""-

fr

21-i°ff~/&t'R-t'.c
$@10 5 T El 5 1 1lHl!l
i.1J
~ ',13

A 'ti'~±
{-\;;£.ill
fril¥ i1rc
l~L&ZJ'El:ijs:
t-R:
00jrlf 7 .I- 1) ;/J-BfriJc; H:::
:ij,:flf /Jl'i:zl\'f§=_pjjO):ij,:j;"/,

c: :::fri.l
{im JJJ'(zJlct-0¥J5"0){i;,rrr
-=f
(-'fr,£ 1 4<¥ 1 2 Pl 5 El1=.)
(/;,Zr

- 1148a.

)
JJ
r:&,:J,Ec:l,,'Jo

..

27-FA-15-499
{I

..

0

0

Filed in Fourth Judicial District Court
9/27/2016 4:56:38 PM
Hennepin County, MN

o

..• ..

.. . .
(:,P:r,Jt1 4 ff- 1 2 fl

s

El1:l

r=~J c:vi-s, l

(JJ,r

& cf El;,js:
CTI
7 }. 1J;/J -;";-t!ft
ri'iJC:
W,i/HIFf-:1J0) ;,js:t1H:::

1'l )\:

7

-\7 ;j;:

*

(:,P:r,Jt2 0 ff- 2 fl 1 3 131:E)

c:vi-3, J
(.12}_r r*:t;z:J
: C:
0) ;,i,jfiH::ri'iJ
::zli:ji)J W,StlFf-:1J

ri'ilc;
0) 1:tmr:::
=f11m w,zJHH-:1J
fj" ;Jt

-=r-

z 1'

;1,,

:x.-m me

(:,P:r,Jt2 0 ff- 2 fl 1 3 131±)

(£-1-r r-~J

W,~~~~2~~-~fflg,

1

W,S$~AO)Mti~~~~.

2

w,•*~=f-:1Jft,:Ek~&rf=~~t,if~1-:tY

3 w,S1'0=f=-:150) mti

~ JiJi!l9

El3

=f-:15l
(W,S1'§
05" ,)±,.

= +- -,;- ,

,a; .!;:- lTn

,>«-¼''.J1F.J
'J
1

-'jrl. 'c.;.... .i.:ix.

lJ :iJ-;";-!if<:OOf:::izifiliiJ:,

.§- El(7) jl!J§. c:9

Jfil

f.t:. X ,,X... .l
l.tr:-1./\..

j..

g,

c::t ,
'lJfJ1H'i, W,• & rf M'a"1:3'
4 -=f-~

1

c:vi-3, J

O

- 2-

149a.

g,

.. . .

27-FA-15-499

.
•

Filed in Fourth Judicial District Court
9/27/2016 4:56:38 PM
Hennepin County, MN

.•

•

• •

C*i1<:JE
0)111&:l/H:l:,
IJRtkJE
0){0Jr:::
J::0. 1 ts:, /iiEJ/JllO)
iJIm i:::lit?L, ~Jt& [)(J!I

tRY:1:::-ci'l-C"i1.~1"1f0)1 , 2 t)if,J2:ir-C v\ 0 J;\;lf;-, ~:;Jj:f;J:1®'111&9
0. )
jj I:::J.J-L ,
* ftH:l:, -=fG 0) X:1: 21,0 ~ 'lilc,1,.V:A iJ\ -=fG 0) ffil: 21,0 /JR1iHIFf=-

(~) ~¥

~ffl~~-'fO)-~O)~-kO)~ffi~~90~~0)~~l:::~90~ffl
-j' ~ ,

/JRi'B'f0'¥jj iJi-=pG '2::El*
C*~l

/0~-@i-~~

~

i:::& lilt L,---C
v10 ;:::c: 'a:£_11!EEic: L,---C,T G '2::Y

~illa90;:::c:'2::*~0S•1:~0.

+0=f=jj i;t, -=fG0) )it~ rfrJ:l!l
!;ill Crt 2 ~ 5 10 l
illRffi~•rnc:L---C,

/JRS

n;:31~
~ l: 21,0 ;:::c: 'a:4fi-'5 c: c: t, f:::,

&•O)~MO)~~/JR-$.V:A~.:PG~~L,---cm~~~-

,rfil;j;IJ'2::
fr fl!!:L,---C
t,, tJ:iJ,-::i ts:;:::
c: (rt 2 8 ~ 1 ~ 2 ry) , /JR. q,.V:A iJi& tilti:::

0)

~-x~~-L,~;:::c:

(~3ry),

2!,0;:::c: (~4ry),
0)

;:::h~~L,

-'fGO)illRl:::J::fJ.:PGI::: r•*~~~J

.:PGnt)!zifil'2::ffilu1:v10;:::c:(~5-ieJ-)

~

'a::±'l~L, .:PG

i!zR '2::ffi Ju1: v10 •
;t* {11'rcp.V:---C
I::::.Elli
EBiJitJ:v,c: L,---C,ft :l/3,& [)(
/JR'&f;t, ft !13& [)(= !13I:::-:J v,---Cf

=~I:::~ 9 0 ;;t,:f*q,.v:---c
'2::v,fh

t,

tJlT L,, ftR' & [)(~!131:::
-:J v,---C
l:J:21~{*
r-p.v:

---Cl::::.E!Rrnnt;:!,0c:L---C,
~-ffl=f=./J~ftft&U=:l/3'2::*00~ill-90;:::c:'2::$
f0a0)0<:JE'2::L~.
1 &~JE. ~ l:l:,

~ 0)

~-~~jj~})Ri:k:JE'a:~-c:l.,---C-ch~hm~L~.
c: .:l3fJtJjjIE9 0 Ii i'./1, /JRV!:JE0)

i:k:JE 3 Jr 7 fr § ;IJ>G 1 7 Jr 5 fr §
90

(t(T,

~ l:)

r.E_II!
EEi
J

tll10)j;g 2 0) 1 (/JR

r:::F,C
~&0) c: .:l3fJ l: 21,0

;IJ>G ;:::i1.'2::'clIHJ

j',;J~O)~§ffi'ry/;::J::fJ fF,,B'./E-~(l)JO)J::'51:::v,'5, ) •

(I) ~i:k:Ji::3JJ:1Ofr§O)
r~W$.v:A

r$.v:A C*~OOB) c:ffl=f=-jj(B*OOBl J '2::

C?!~OOf:f.
1 9 6 6 "F 5 ,r:J2 B 1:) c:~Wffl=f=-jj CB;;t,:~f:f.

flB;l;Q4
6"F7 fl 1 6 B~) J 1:::, ~ 1 lfr§n>G

- 3 -

150a.

1 2fr§i:::n>it---CO) r-=p,;

